<html>
<title> - IMPROVEMENTS AND INNOVATIONS IN FISHERY MANAGEMENT AND DATA COLLECTION</title>
<body><pre>[Senate Hearing 114-117]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-117

                IMPROVEMENTS AND INNOVATIONS IN FISHERY 
                     MANAGEMENT AND DATA COLLECTION

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE
97-547 PDF                 WASHINGTON : 2015                       

________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7710071837140204031f121b075914181a59">[email&#160;protected]</a>  
     
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARCO RUBIO, Florida, Chairman       CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
KELLY AYOTTE, New Hampshire          RICHARD BLUMENTHAL, Connecticut
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 20, 2015.....................................     1
Statement of Senator Rubio.......................................     1
Statement of Senator Booker......................................     3
Statement of Senator Nelson......................................    17
Statement of Senator Ayotte......................................    18
Statement of Senator Markey......................................    20
    Letter dated January 29, 2015 to Hon. Edward J. Markey from 
      Kathryn D. Sullivan, Ph.D., Under Secretary of Commerce for 
      Oceans and Atmosphere, United States Department of Commerce    21
Statement of Senator Sullivan....................................    28

                               Witnesses

Dr. Kathryn D. Sullivan, Under Secretary of Commerce for Oceans 
  and Atmosphere and Administrator, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........     4
    Prepared statement...........................................     6
Robert Beal, Executive Director, Atlantic States Marine Fisheries 
  Commission.....................................................    31
    Prepared statement...........................................    33
Brett Fitzgerald, Executive Director, Snook and Gamefish 
  Foundation.....................................................    39
    Prepared statement...........................................    41
Steven A. Murawski, Ph.D., Downtown Partnership-Peter R. Betzer 
  Endowed Chair of Biological Oceanography, University of South 
  Florida........................................................    47
    Prepared statement...........................................    49

                                Appendix

Response to written questions submitted to Dr. Kathryn D. 
  Sullivan by:
    Hon. Marco Rubio.............................................    65
    Hon. Roger F. Wicker.........................................    68
Response to written question submitted by Hon. Marco Rubio to:
    Robert Beal..................................................    69
    Brett Fitzgerald.............................................    70

 
                      IMPROVEMENTS AND INNOVATIONS IN FISHERY 
                             MANAGEMENT AND DATA COLLECTION

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Marco Rubio, 
Chairman of the Subcommittee, presiding.
    Present: Senators Rubio [presiding], Ayotte, Sullivan, 
Booker, Nelson, and Markey.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. I will call this hearing to order, and I 
want to thank everyone for being here. The Ranking Member, 
Senator Booker, is on his way. When he comes, if we are in the 
middle of our testimony, we will cut to his opening statement.
    The issues we were just talking about a moment ago under 
the jurisdiction of the Subcommittee are of great importance, 
not just to my state of Florida, but quite frankly the entire 
country.
    Both commercial and recreational fishermen contribute 
significantly to the national economy, employ millions of 
Americans, and provide subsistence for all 50 states and 
abroad.
    It is because of the industry's importance that fisheries 
elicit robust emotions. This nation has a rich history of 
fishermen and the strong proudness that accompanies both 
commercial fishermen, charter fishermen, and recreational 
anglers alike.
    I, myself, am a recreational fisherman. In fact, I was out 
there on Sunday. We did OK. I, like many others, enjoy my time 
on the water, and as a Floridian, my family and I have long 
enjoyed the seafood provided by our commercial fishing 
industry.
    The need for timely and accurate fish stock assessments is 
a goal for everyone, but more so for those who base their 
livelihoods and their pastimes by what they are able to catch 
and when.
    In Florida and along the Gulf, there is one fish that has 
garnered a lot of attention, and while this hearing is not 
about the Red Snapper, I would be remiss if I did not mention 
the importance of the species.
    Americans travel from across the country to be able to fish 
Red Snapper, both in the Gulf of Mexico and in the South 
Atlantic, but unfortunately, this year, Federal Red Snapper 
season in the Gulf is only 10 days long. This represents 
absolutely no improvement over last year's season of 9 days.
    The ability to fish Red Snapper in the Atlantic has not 
fared much better, with only 3 weekends open last season.
    The economic benefits associated with both commercial and 
recreational fishing from my home state cannot be understated. 
I fully understand both interests, and that is why I am 
reintroducing the Florida Fisheries Improvement Act.
    After spending most of the last Congress receiving 
stakeholder input, the ideas presented in this legislation are 
what I believe are needed to improve fishery management in the 
Gulf of Mexico and South Atlantic regions. I look forward to 
continuing to work on this important issue for Florida.
    Like many of the stakeholders in the Gulf and South 
Atlantic, I was disappointed that we were not able to move this 
legislation forward in the last Congress, and I think we share 
that same goal in this new Congress, finding the best path 
forward that protects both the commercial and recreational 
fishing industries.
    The legislation I will reintroduce today represents a 
delicate balance achieved only through cooperation by all 
stakeholders. However, movement forward on any issue related to 
fisheries requires both bipartisan and bicameral agreement.
    Support by all stakeholders and both parties in both 
chambers will be required for any legislation regarding 
fisheries to move forward and be signed into law.
    Yesterday's statement of administrative policy opposing the 
House NMFS reauthorization underscores the complexities of 
fishery management. However, there is one thing that all the 
stakeholders have consistently agreed with, and that is that 
sound fishery management can only be achieved with sound and 
timely data collection.
    That is why I have chosen to have our first hearing to 
discuss the importance of data collection. In the age of 
advancements in technology, how can we better innovate for more 
accurate and comprehensive assessments is the question before. 
I believe those who rely on our oceans' bounty want a more 
precise assessment of our fisheries.
    Today, we will hear from witnesses on advancements made to 
do exactly that. I am pleased to have Dr. Kathryn Sullivan with 
us today. She and her team play a huge role in our Nation's 
fisheries. I look forward to hearing more about NOAA's 
advancements.
    Are you ready for your opening statement?
    Senator Booker. Just about, sir.
    Senator Rubio. I was just wrapping up. Again, I want to 
thank you for being here, Dr. Sullivan, and others who will 
join us throughout this hearing on an issue of data that is so 
critical to management of our fisheries.
    With that, I turn it over to the Ranking Member, Senator 
Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. First of all, I apologize, Dr. Sullivan, 
for being late. However, I knew my Chairman and wing man on a 
lot of issues would cover for me a little bit. I am just 
grateful to be here, especially for this subject which I know 
is very important to both Senator Ayotte and Senator Rubio as 
we deal with our oceans.
    I am happy about the subject matter as well, improvements 
and innovations in fishery management and data collection. I 
think it is important to shine a spotlight on some of the 
amazing work that is being done today, it is work that 
encourages me, from the development of electronic monitoring 
and electronic reporting systems, to the ongoing efforts to 
improve the quality and quantity of fishery data we collect and 
how to analyze it.
    As I talk to many people involved in our multi-billion 
industries in New Jersey, both recreation and commercial, one 
of the biggest concerns often involves the access to reliable 
data.
    I also have an issue that has been important to me for some 
time, which is the issue of bycatch, and I am excited that some 
of these methods in new data collection processes will allow us 
to limit that number.
    Everybody knows that bycatch is the non-targeted fish and 
ocean wildlife that often results from our fishing industry 
that causes the death of millions of sea turtles, whales, 
dolphins, and other marine mammals. It harms our oceans, wastes 
important food resources, and damages the economic success of 
our fisheries. Due to the lack of data, the level of the 
problem even here is unknown.
    New Jersey is home to at least two fisheries that should be 
in my opinion a model for the rest of the industry in regards 
to catch monitoring in general and the bycatch problem.
    I am proud that the Atlantic Swordfish and Tuna Long Line 
Fishery, which has several active vessels in Barnegat and Cape 
May, New Jersey, is installing some impressive technology, 
electronic monitoring, especially.
    These cameras and other related tools harness technology to 
monitor bycatch limits for Bluefin Tuna without the need for 
costly at sea observers. The Fisheries Service is funding this 
program for participating boats starting June 1.
    I encourage the Service to extend this type of 21st Century 
monitoring solutions. I am glad we have an opportunity to talk 
about it today. I see the immediate benefit for the State of 
New Jersey.
    I want to thank you, Chairman, again, and I look forward to 
hearing from our witnesses in general, and especially Dr. 
Sullivan.
    Senator Rubio. Thank you, Senator Booker. Dr. Sullivan has 
served as the Under Secretary of Commerce for Oceans and 
Atmosphere and NOAA's Administrator since March of 2014, having 
served as Acting Administrator since February 2013.
    She previously served as Assistant Secretary of Commerce 
for Environmental Observation and Prediction, and Deputy 
Administrator. In 1993, she was appointed NOAA's Chief 
Scientist, where she oversaw numerous issues, including 
fisheries biology.
    She also holds an impressive resume with NASA, and has the 
distinction of being the first American woman to walk in space.
    Dr. Sullivan, thank you for being here, and we look forward 
to your testimony.

             STATEMENT OF DR. KATHRYN D. SULLIVAN,

             UNDER SECRETARY OF COMMERCE FOR OCEANS

               AND ATMOSPHERE AND ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Booker, Senator Ayotte. I appreciate the invitation to testify 
before you today about fisheries data and how we are innovating 
and improving our data collection methodologies.
    As you said, the management of our fisheries is vital to 
the Nation's economy. Fisheries contribute $199 billion per 
year to the U.S. economy and support 1.7 million jobs.
    NOAA is an acknowledged international leader in fishery 
science and management. Our domestic fisheries are managed more 
sustainably today than ever before. At the end of 2014, of the 
469 stocks and stock complexes NOAA manages, only 26 were on 
the overfishing list and just 37 on the overfished list. These 
are both all time low figures. We have also rebuilt 37 stocks 
since 2000.
    These are numbers we should all be proud of. This success 
is made possible by the strong tools Congress has provided to 
manage fisheries, by the commitment of fishermen and other 
partners to the cause, and by the world class science that 
informs our decisionmaking.
    However, we also recognize clearly that not every fishery 
has seen such success. That is why we strive relentlessly to 
improve the data and analysis our science enterprise uses to 
inform management.
    Fishery science is a difficult, highly technical field that 
requires collaboration, continuous feedback, and constant 
innovation. There are three pillars required to produce quality 
science. We often refer to these as the ``ABCs of stock 
assessment,'' abundance, biology, and catch.
    Long term monitoring of fish abundance is an indispensable 
input to stock assessments. Standardized repetitive fishery 
independent surveys covering the extensive geographic range of 
a fish stock are the best way to track long-term trends.
    The NOAA fleet conducts some of these surveys, but we also 
augment our effort with cooperative surveys performed by 
industry, academic, and state government partners. We also 
often use chartered commercial vessels and employ local 
fishermen who provide critical local knowledge of the regions' 
stocks and fisheries.
    Data on fish biology are collected to learn about 
longevity, growth, reproduction, movement, and other factors. 
With age data, we are able to apply more complex and 
sophisticated stock assessment models that provide better 
information on changes in abundance over time, on mortality 
rates caused by fishing, and more precise forecasts of future 
changes in potential annual catch limits.
    Finally, catch monitoring programs strive to measure the 
total amount of catch. We obtain landed catch information, 
largely in partnership with the states and the marine fisheries 
commissions through a national network that continuously 
collects data and makes this available to stock assessment 
scientists and managers.
    Recreational fisheries are, of course, also a significant 
component of the total catch, and NOAA has made a substantial 
effort to monitor those fisheries and incorporate these data 
into stock assessments.
    As noted earlier, we are constantly working to improve our 
methods for collecting these data. One area of particular focus 
is indeed new technologies. For instance, we are making 
progress in assessing and implementing electronic technologies 
that can result in greater efficiency and reduce the burden and 
costs to fishermen, while still providing the catch data needed 
for sound management.
    We are assessing vessel monitoring systems, electronic log 
books, and video cameras as data collection methods. Such 
technologies have the potential to increase the quantity of 
data to lower costs, to reduce the time for data entry, to 
improve the quality of data analysis, and again, to lower the 
time and money burdens that recordkeeping and reporting place 
on fishermen.
    We are also working to develop new and innovative 
approaches to surveying fish stock abundance in hard to survey 
areas. For example, we are funding a multi-year research 
project with an academic partner to explore the use of towed 
camera arrays for surveying reef fishes in both the Gulf of 
Mexico and the Pacific Islands. If proven effective, this 
approach could dramatically increase the effectiveness and 
efficiency of our reef fish surveys.
    Another example is NMFS scientists are engaged with 
academic partners to improve methods for surveying Atlantic sea 
scallops. The system is being evaluated, including one from 
Woods Hole and another from University of Massachusetts, both 
camera systems in that case.
    These are just a few of the many steps we are taking to 
explore new and innovative ways to collect the information 
needed to inform successful management of our nation's 
fisheries. This is an effort that requires intense scientific 
rigor and continued investment. It also must be a collaborative 
effort between the Federal and state governments, industry, 
academia, and our other partners.
    The quality of our scientific advice has been a major 
reason why the United States has become a world model of 
responsible fisheries management. This is not to say that we 
cannot continue to improve the scientific guidance we provide. 
We will indeed continue to invest significant energy and 
resources, and to work with our partners to improve both our 
data quality and our collection methods.
    Thank you again, Senator, for the opportunity to testify 
today. I appreciate the Committee's interest in exploring 
innovative approaches to data collection, and I look forward to 
continuing to work with all of you to further improve the 
vitality of our Nation's fisheries.
    [The prepared statement of Dr. Sullivan follows:]

   Prepared Statement of Dr. Kathryn D. Sullivan, Under Secretary of 
    Commerce for Oceans and Atmosphere and Administrator, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
    Good afternoon, Chairman Rubio, Ranking Member Booker, and Members 
of the Subcommittee. Thank you for the opportunity to testify before 
you today on improvements and innovation in fisheries data collection. 
My name is Dr. Kathryn Sullivan, and I am the Under Secretary of 
Commerce for Oceans and Atmosphere and Administrator of the National 
Oceanic and Atmospheric Administration (NOAA). NOAA is dedicated to the 
stewardship of living marine resources through science-based 
conservation and management, and the promotion of healthy ecosystems. 
As a steward, NOAA conserves, protects, and manages living marine 
resources to ensure functioning marine ecosystems and recreational and 
economic opportunities for the American public.
    NOAA is an acknowledged international leader in fishery science, 
rebuilding overfished stocks, and preventing overfishing. Our domestic 
fisheries are more sustainably managed than ever before, and this is 
directly because of the world class science that informs our decision-
making. Our recent report to congress on the Status of U.S. Fisheries 
outlines our progress showing that overfished stocks and overfishing 
are at all-time lows. It is vital that our science not regress, as this 
would inevitably lead to declines in our stocks and a loss in the 
economic and social values they provide.
    Our progress in making fisheries management more effective is based 
on the principle that management is based on sound science. National 
Standard 2 of the Magnuson-Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act) mandates that all fisheries conservation and 
management measures must be based upon ``the best scientific 
information available'' (16 U.S.C. 1851(a)(2)). While we face 
challenges to securing accurate, precise, and timely data for stock 
assessments, on balance, our science-based management has consistently 
proven to provide better resource management than without this advice. 
This has, in turn, led to improved productivity and sustainability of 
fisheries and fishery-dependent businesses. In some fisheries, 
particularly the Northeast, the science has indicated the need to 
rebuild stocks but uncertainty in the science has confounded finding 
exactly the level of fishery restrictions needed to accomplish that 
rebuilding. In other fisheries, particularly in the Southeast, the 
large numbers of stocks exceed our current capacity to deploy surveys 
and conduct assessments of the status of these stocks. The quality and 
extent of our stock assessment enterprise has room for growth.
    Sustainability of our Nation's fisheries is based on continual 
monitoring of fish catch and fish stock abundance. Because this data-
intensive endeavor is costly, NOAA and our partners have always focused 
on getting the most of the highest-priority and highest-quality data by 
fully using the funding Congress has provided for this vital work. This 
funding and the work it supports enables us to sustain and enhance our 
fisheries. NOAA continues to make substantial progress toward improving 
the quality of the science available to effectively manage commercial 
and recreational fisheries, benefiting coastal communities and the 
United States (U.S.) economy both today and for generations to come. We 
greatly appreciate the increased funding that Congress has provided to 
make U.S. fishery management, and its preeminence worldwide, possible.
    Today, I will discuss how our fisheries science is conducted and 
how this science underpins and provides for good management. In 
particular, I will focus on methods we use to collect the data, what 
types of data are collected, how these data are used in fishery 
management, and the importance of our partners in our collection of 
data. I will also describe some of the recent advances we have made in 
our science.
How fishery surveys are conducted--including through the use of Federal 
        vessels, charter vessels, or through other cooperative 
        arrangements
    Long-term monitoring of fish abundance provides an indicator of the 
abundance of stocks over time, and as such are invaluable inputs to 
stock assessments. Abundance data tell us the number or weight of a 
particular stock of fish in the ocean. Information on fish abundance is 
best obtained from standardized, fishery-independent surveys covering 
the extensive geographic range of the fish stocks. The average catch 
rate of fish typically is measured using standardized methods at 
hundreds of sampling locations over the range of a suite of fish 
stocks. A diversity of conventional survey methods is employed, 
including bottom, mid-water, and surface trawls; longlines; gillnets; 
and traps, as appropriate for the particular target, habitat, and 
region. In addition, our surveys incorporate state-of-art technology, 
including various sonars and optical systems to survey reef fish in the 
Southeast and Atlantic sea scallops in the Northeast. These surveys are 
repeated, typically annually, to measure the change in catch rate over 
time, which is the cornerstone information of the fishery assessment 
models. In some cases, fishery-dependent data from fishermen's logbooks 
can be statistically processed to provide additional indicators of 
trends in fish abundance.
    NOAA surveys in support of fish stock assessments are conducted in 
every region. In this Fiscal Year, 48 directed fish surveys and 19 
supporting surveys will be conducted in support of fish stock 
assessments. These surveys are conducted on NOAA fishery survey vessels 
and on NOAA-owned small boats, as well as on chartered commercial 
fishing vessels, state-owned boats, and UNOLS (university-owned) ships.
    NOAA fishery survey vessels are a key source of fisheries-
independent data. Seven ships in the NOAA fleet conduct many of the 
cruises to survey fish abundance. The fleet includes four new Dyson-
class vessels with state-of-the art technological capabilities, with a 
fifth vessel in this class becoming available in 2015. The timing of 
these cruises, survey designs, and sampling methodologies are adapted 
to the specific region and stocks.
    We augment NOAA vessel surveys with cooperative surveys involving 
industry, academic, and state government partners. These surveys 
commonly use chartered commercial vessels and employ local fishermen, 
who provide critical local knowledge of the region's stocks and 
fisheries. The surveys conducted using chartered vessels provide 
important data streams from regions and time periods when NOAA ships 
are not available. For example, since the 1970s, the National Marine 
Fisheries Service (NMFS) line office of NOAA has conducted its primary 
groundfish surveys in the Bering Sea, Gulf of Alaska, and the Pacific 
coast by chartering local fishing vessels of suitable characteristics 
to work with NMFS scientists on board, using standardized sampling gear 
and strict statistical protocols to collect the data to support some of 
our most valuable fisheries. In the Northeast, NMFS charters a 
commercial vessel from the region for the annual surf clam and quahog 
survey. In some surveys, the chartered fishing vessels may be partially 
funded through research set-asides or other forms of cooperative 
research. These collaborative surveys provide valuable data and enhance 
communication between assessment scientists and fishermen. Other 
surveys are conducted on commercial fishing vessels with universities 
(e.g., the NEAMAP or Northeast Area Marine Assessment Program with the 
Virginia Institute of Marine Science), and state agencies (e.g., the 
Maine-New Hampshire Surveys Inshore Groundfish Trawl Survey with the 
Maine Department of Marine Resources and New Hampshire Fish and Game 
Department).
    NOAA also charters state vessels for some surveys. State vessels 
are generally smaller than the NOAA vessels, and can operate in 
shallower near-shore and estuarine areas. This is particularly 
important for providing data on stocks that occur in these habitats. 
For example, the Southeast Area Monitoring and Assessment Program 
(SEAMAP), is a collaboration dating back to 1977 involving NMFS, the 
Gulf States Marine Fisheries Commission, and the states bordering the 
Gulf of Mexico. Through funds transferred to the Commission and 
individual states via grants and cooperative agreements to conduct the 
surveys, SEAMAP provides much of the fisheries-independent data used in 
Gulf of Mexico stock assessments.
How landings and other harvest-related data are gathered and used
    The catch monitoring programs strive to measure total catch, or the 
amount of fish removed through fishing. Rarely are fishery catch 
monitoring programs focused on single species or fisheries; instead, 
they are generally designed to monitor multiple species and fisheries 
over large geographic areas. One component--landed catch information--
is obtained by monitoring commercial landings, largely in partnership 
with the states and the marine fisheries commissions. In some Alaskan 
fisheries, where the catch is processed at sea, fishery observers 
provide catch data. Observers also conduct at-sea monitoring of bycatch 
and collect information on discards in numerous fisheries in all 
regions.
    NMFS has a strong partnership with the states and the interstate 
marine fisheries commissions to conduct efficient and cost-effective 
monitoring of commercial landings and recreational catches. The 
federally funded Fisheries Information Networks have provided a means 
through which NMFS has been able to work collaboratively with its 
partners to design and implement well-integrated data collection 
programs that meet the management needs of both state-managed and 
federally managed fisheries. Cooperative regional programs--such as the 
Atlantic Coastal Cooperative Statistics Program, the Gulf Fisheries 
Information Network, the Pacific Fisheries Information Network, the 
Pacific Recreational Fisheries Information Network, the Western Pacific 
Information Network, and the Alaska Fisheries Information Network--have 
worked effectively to eliminate unnecessary overlaps, standardize data 
elements and collection methods, and improve the timeliness of data 
processing, statistical analysis, and dissemination of catch statistics 
to all partners. Much of the commercial landings and recreational catch 
data is actually collected, processed, and managed by state agency 
personnel in accordance with procedures developed in collaboration with 
NMFS. Continued funding of the Fisheries Information Networks will be 
crucial for maintaining our current capabilities for monitoring 
commercial and recreational catches.
    NMFS' National Fisheries Information System Program has provided a 
mechanism for cross-regional collaboration and sharing of ideas on how 
best to improve the timeliness, quality, and accessibility of 
commercial and recreational fishery catch information. The Fisheries 
Information System Program has been working to continue to develop 
electronic dealer reporting programs and electronic logbook reporting 
programs to provide more timely and accurate updates on commercial 
landings. The Fisheries Information System Program and the Fisheries 
Information Networks have also been working together to develop and 
implement information management architectures that will enable 
comprehensive access to commercial and recreational landings data at 
the national level. Cooperative efforts are now also focused on 
improving quality management of catch data collection programs through 
enhanced reviews and evaluations of the current procedures for quality 
assurance and quality control. Improving the timeliness, accessibility, 
and quality of catch information is extremely important to facilitate 
the work of fishery managers in monitoring the success of implemented 
fishery management regulations.
    Fisheries observers are trained biologists placed on board 
commercial fishing and processing vessels, and catch monitors/observers 
also collect data at some shoreside processing plants. They are a 
reliable and unbiased source of data on the actual at-sea performance 
of commercial fisheries. They collect data on bycatch, enabling 
accurate estimations of total mortality, a key component of stock 
assessment modeling. In some fisheries, they provide data on catches. 
They also provide high-quality data on interactions with protected 
species. This information is important to ensure that protected species 
stocks remain healthy and their interactions with fisheries are 
minimized, so that harvest opportunities are affected as little as 
possible. In FY 2013, NMFS logged nearly 81,000 observer days in 48 
fisheries and employed 917 contracted observers. The observer programs 
were supported by a combination of government funds and industry funds.
    Recreational fisheries are a significant, and sometimes the 
dominant, component of the total catch, particularly in the Gulf of 
Mexico and South Atlantic regions. NMFS has made a substantial effort 
to monitor those fisheries and incorporate data from recreational 
fisheries into fish stock assessments, and is applying new and improved 
methods for estimating total catch by the millions of recreational 
saltwater anglers nationwide. These new methods are being used to 
collect data as part of NMFS' Marine Recreational Information Program.
Types of biological data collected and how the data are used for 
        management purposes
    Data on fish biology are collected to learn about fish longevity, 
growth, reproduction, movement, and other factors. The biological 
information we collect includes age data for many of our most important 
stocks. With the addition of fish age data, we are able to apply more 
complex and sophisticated stock-assessment models that provide better 
information on changes in fish abundance over time, more direct 
information on fish mortality rates caused by fishing, and more precise 
forecasts of future changes in fish abundance and potential annual 
catch limits. This provides important information about fluctuations in 
productivity and recruitment of new fish into the stock.
    The sources of fish biology information are diverse, with important 
information coming from NMFS monitoring programs, academic studies, 
cooperative research, and other programs. Some important sources are 
fisheries-dependent, which provide key demographic information about 
the fish that are removed from the populations by fishing. For example, 
fisheries observers and dockside monitors take observations (e.g., 
length, weight, sex, and maturity) and collect otoliths (ear bones) 
from fish. The otoliths and their growth rings (similar to the annual 
growth rings in trees) are analyzed in on-shore laboratories. This 
suite of information provides important data for stock assessment 
models, and is vital for tracking changes in stock dynamics. Biological 
data are also collected on NMFS fishery-independent surveys where it 
can be matched to environmental data collected on those surveys. Other 
sources of data on fish biology include cooperative research and 
academic studies. Waiting to get these age data is one of the factors 
that adds time between conducting a survey and updating the assessment 
using the whole, longer time series of catch, abundance, and biological 
data.
How stock assessments are conducted
    All of the data discussed here provide the inputs for stock 
assessments. Passage of the Magnuson-Stevens Fishery Reauthorization 
Act in 2006 resulted in the need for more timely stock assessments to 
ensure overfishing has ended, to set Annual Catch Limits that prevent 
overfishing, and to track progress toward rebuilding overfished stocks.
    NMFS manages over 450 stocks, 199 of which have been identified for 
inclusion in the Fish Stock Sustainability Index (FSSI). These Fish 
Stock Sustainability Index stocks include those of high economic value, 
high profile, and/or significant social value (e.g., recreationally 
important). NOAA Fisheries conducts approximately 185 stock assessments 
each year, including annual and biennial updates for important stocks 
and periodic or first time assessments for other stocks. Approximately 
80 assessments are conducted on Fish Stock Sustainability Index stocks 
annually. For the purpose of tracking performance, an assessment is 
considered to be adequate if it meets a specified level of rigor and if 
it is no more than 5 years old. Stocks without quantitative assessments 
have Annual Catch Limits set through alternative methods (e.g., 
averages of recent catches). The overall Fish Stock Sustainability 
Index score--which tracks our knowledge about the stocks and our 
progress in ending overfishing and rebuilding overfished stocks--has 
increased by 96 percent since 2000. That substantial increase shows 
that investment in both science and management improves the 
sustainability of fisheries.
    Assessment Process--Typically a major ``benchmark'' stock 
assessment involves two sets of workshops culminating in a peer-
reviewed assessment. These workshops are open to the public, and 
constituents are encouraged to participate. The first workshop 
typically focuses on data--specifically the catch, abundance, and 
biology data used to calibrate the assessment models. Agency and 
university researchers, fisheries management council representatives, 
and partners get together to summarize and evaluate data sources, 
collection methods, reliability, approaches to data processing, and 
applicability of data for population modeling. Through a collaborative 
process, the workshop participants develop recommendations on which 
data inputs to include in assessments. Participation by fishermen is 
extraordinarily important, because their fishing practices and on-the-
water observations of fish behavior help scientists correctly interpret 
factors such as patterns in fishery catch and effort.
    The second workshop is held to calibrate the mathematical computer 
model, which analyzes input data to estimate changes in the stock over 
time, as well as the influence of fishery harvests on the stock. NOAA 
has several standardized models available that it maintains. These 
models use sophisticated statistical approaches for dealing with data 
gaps and uncertainties, blending available data, and forecasting 
results with appropriate confidence intervals. Conceptually, this is 
similar to NOAA's National Weather Service dynamic models, which use 
multiple observations to calibrate complex atmospheric models that 
predict the weather. Even though fish stock assessments operate on much 
longer time scales than weather models--months and years rather than 
hours and days--they similarly combine and incorporate many different 
complex observations into a holistic picture of the situation. NOAA 
scientists run assessment models with inputted abundance, biological, 
and catch data, which gives us the information to develop a stock 
assessment report that forms the basis for a catch limit.
    Independent external scientists review the stock assessment report 
and evaluate the quality of the assessment. They may conclude that the 
science is sound, recommend changes to improve the stock assessment, 
or, in some cases, reject some or all of the attempted analyses in the 
assessment. The peer-review process provides fishery managers and 
constituents with confidence in the integrity of assessments and 
assurance that they represent the best scientific information 
available. The Magnuson-Stevens Act affirms that such peer reviews are 
a valuable part of the management process. The Regional Fishery 
Management Councils' Scientific and Statistical Committees use the 
peer-reviewed stock assessment results as the basis for providing 
fishing level recommendations to their respective Councils. NMFS is 
collaborating with the Councils and their Scientific and Statistical 
Committees as each Council works to implement regionally relevant 
protocols for peer reviews and to strengthen the role of Scientific and 
Statistical Committees in providing fishing level recommendations.
    Stock Assessment Quality--In addition to the peer review of 
assessments, NMFS is working to improve the quality of the data and 
analyses used in stock assessments. This is vital for maintaining and 
enhancing the accuracy and precision of our stock assessments and the 
credibility of the management actions that depend on them.
    The Agency complies with the requirements of the Information 
Quality Act, including OMB's guidance on transparency and balanced 
review of the influential science that is conducted. The Agency has 
also updated its Magnuson-Stevens Act National Standard 2 Guidelines, 
which provide guidance on the scientific integrity of information used 
for the conservation and management of living marine resources.\1\ \2\
---------------------------------------------------------------------------
    \1\ As published in the Federal Register Vol 78, No 139 on July 19, 
2013
    \2\ Further information on the National Standard 2 is available at 
https://www.st.nmfs.noaa
.gov/science-quality-assurance/national-standards/ns2_revisions
---------------------------------------------------------------------------
    NMFS has also embarked on a systematic process of science program 
reviews to identify strengths, weaknesses, and opportunities for 
improvement. These reviews will be repeated on a five-year cycle. The 
process began in FY 2012, with every NMFS Science Center and the Office 
of Science and Technology conducting a comprehensive strategic review 
of their programs. Now in our fourth year of reviews, the Agency has 
successfully completed reviews of the data collection and fish stock 
assessment programs in the Science Centers and the Office of Science 
and Technology. NMFS is now conducting reviews of its protected species 
science programs in FY2015.
How Federal fishery surveys and assessments are prioritized
    Surveys are prioritized and scheduled to ensure data are available 
on a timely basis to support scheduled assessments. However, most 
surveys are repeated either annually or biennially to ensure a time-
series is available for stock assessments. A short time series is 
difficult to use in assessment models unless the survey is capable of 
providing estimates of absolute abundance, rather than relative changes 
in abundance which is most common. Note also that most surveys collect 
data on multiple species. For example, bottom trawl surveys in the 
Northeast simultaneously collect data on all 20 stocks in the 
Multispecies Groundfish assemblage, as well as numerous other species. 
Even highly specialized surveys provide information on stocks other 
than the target stock. For example, the annual scallop dredge surveys 
are used to provide abundance data needed for scallop stock 
assessments, and they also provide data on yellowtail flounder that is 
used in the latter's assessment.
    Stock assessments are prioritized and scheduled regionally through 
discussions between the Councils and NMFS Regional Office and Science 
Center staffs. Priorities are established by evaluating the commercial 
importance of a stock, the age and quality of the existing stock 
assessment, and biological characteristics of the stock. Schedules are 
usually set annually on a three-year rolling basis, and are posted 
online.\3\ NMFS is in the process of implementing a prioritization 
scheme nationally, which will provide a transparent, need-based 
approach to assessment prioritization. NMFS released a draft in 2014, 
and expects this system to go operational during FY16.
---------------------------------------------------------------------------
    \3\ See http://sedarweb.org/for an example in the southeast region.
---------------------------------------------------------------------------
    The amount and quality of data has a direct effect on the accuracy 
and precision of the stock assessment result. For example, an economic 
study in Alaska showed that maintaining annual frequency of surveys, 
rather than slowing to biennial surveys, allowed for rapid detection of 
increases in stock abundance and tens of millions of dollars in added 
value of the catch. As the Agency moves towards implementing the new 
fish stock assessment prioritization protocol, NOAA Fisheries will be 
able to improve assessments for fishery management.
How socio-economic data are collected and used
    NMFS' socio-economic data collection program directly supports 
Agency efforts to identify management options that achieve conservation 
objectives while minimizing impacts to fishery participants. These 
efforts result in a management strategy that is consistent with the 
long-term sustainability of the resource as well as the fishery and 
fishing communities. Underpinning this capability are the economic and 
sociocultural data collection programs and surveys that provide the 
information base for meeting statutory mandates for cost-benefit 
analysis and social impact assessments of regulatory actions (e.g., 
fishing ground closures, gear prohibitions, effort reductions, catch 
quotas, etc.). On the commercial side, economic questions are added to 
logbook programs, observer programs, and permit programs to provide 
cost-effective survey vehicles in a number of fisheries. This 
information is used to help estimate the economic value of those 
fisheries. In other commercial fisheries, NMFS relies upon one-time 
surveys that are updated periodically but, ideally, within three to 
five years depending upon survey type. In terms of recreational 
fisheries, NMFS routinely collects expenditure data from saltwater 
anglers every five years and conducts occasional surveys of for-hire 
operations, as well as other angler surveys deemed essential for 
assessing the economic effects of regulations on this group of 
stakeholders.
    In addition to supporting the required management assessments for 
implementing stewardship regulations, the socio-economic data are 
increasingly used to support integrated analyses. For example, BLAST 
(Bioeconomic Length-structured Angler Simulation Tool) is a fully 
integrated and dynamic decision support tool for assessing the benefits 
associated with recreational fishing management options, including 
changes in bag limits, season length, and rebuilding plans. A key 
feature of the model is that it integrates recreational fishing 
behavior with age-structured stock assessment models, enabling NMFS to 
realistically project future economic and biological conditions. This 
ecosystem approach to fisheries management provides insight into the 
short-and long-run effects of alternative fisheries policy on both the 
economic and biological health of important recreational fisheries.
    Socio-economic analyses are then used to evaluate the societal 
impacts of management options, which enables fishing regulations to be 
developed that meet requirements to sustain fish stocks while 
minimizing impacts to employment and economic benefits. The Agency is 
also working to develop improved methods for balancing the prevention 
of overfishing while providing for fishing opportunities.
Has the new recreational statistics data program been fully developed 
        and implemented, and does the program meet the goals envisioned 
        by 
        Congress?
    Under the Marine Recreational Information Program, revised methods 
were developed that are being incorporated to substantially reduce 
sources of error and improve the accuracy of effort and catch estimates 
based on a combination of telephone, mail, and access point surveys. An 
improved estimation method was developed and implemented in 2012 to 
provide more accurate 2004-2011 recreational catch statistics for the 
Atlantic coast and Gulf of Mexico. In addition, a new sampling design 
for the Atlantic and Gulf on-site surveys of angler catch was 
implemented in 2013. These revised recreational data sets have already 
been incorporated into stock assessments.
    The Marine Recreational Information Program has also been working 
with Regional Fishery Management Councils, Interstate Marine Fisheries 
Commissions, and our state partners--including Florida, North Carolina, 
New York, Massachusetts, and Louisiana--to develop and test new methods 
that use angler registries to survey anglers for production of trip 
estimates. Following completion of major pilot efforts in calendar 
years 2012 and 2013, a new, more targeted mail-based Fishing Effort 
Survey design that will replace the coastal household telephone survey 
has been implemented as a benchmarking effort alongside the telephone 
survey. The new mail survey was initiated in early March 2015, and will 
provide estimates of shore and private boat recreational fishing trips 
for the Atlantic and Gulf coasts. A transition plan has been developed 
that outlines the most appropriate way to shift to the new mail survey 
in a way that ensures the sustainability of our living marine resources 
while minimizing impacts on management and assessment activities. The 
transition plan lays out a detailed 3-year approach that outlines the 
necessary steps and activities needed to align the trip estimates 
produced with the new mail survey with the legacy estimates from the 
telephone survey in a common currency. This alignment, or calibration, 
will ensure a smooth transition to the new survey method, while taking 
the necessary time and effort to properly incorporate new estimates 
into the science and management processes. During the transition 
period, fishery management agencies will continue to use effort and 
catch estimates based on the current phone survey data as the best 
available science to effectively manage the health of fish stocks and 
marine ecosystems.
    The Marine Recreational Information Program and our partners are 
also developing and testing a number of other possible improvements to 
the current suite of surveys, including:

  <bullet> Implementing electronic reporting and conducting pilot 
        projects to improve sampling for validation in the Southeast 
        Headboat Survey.

  <bullet> Pilot testing of electronic logbook reporting with dockside 
        validation for the Alaska, North Carolina, and South Carolina 
        Charterboat fisheries.

  <bullet> Completing pilot projects to test improved survey designs 
        that reduce sources of potential error and improve survey 
        coverage in Washington, Oregon, and California, and Atlantic 
        highly migratory species, and working to implement the survey 
        design improvements based on the pilot results.

  <bullet> Development and testing of new survey methods and improved 
        designs that will enhance data collection and catch statistics 
        in Hawaii, Puerto Rico, and the Virgin Islands.

  <bullet> Working with the States and the Councils in the Southeast to 
        develop and test supplemental survey designs that will provide 
        more precise and timely estimates of catch for rare event and 
        pulse fisheries such as Gulf red snapper and South Atlantic 
        snapper-grouper complex species.

  <bullet> Working with the fishery information networks in 2015 and 
        2016 to develop Regional Implementation Plans that will 
        identify regional partners' preferred survey designs and 
        priorities for investment is additional sampling to improve 
        precision, timeliness, and coverage and supplemental 
        specialized fishery needs.

    Recently, NOAA announced that the Agency is committed to working 
with the National Research Council to conduct an independent review of 
the Marine Recreational Information Program. The new assessment will 
provide an objective, independent analysis of our work in responding to 
the recommendations from the National Research Council's 2006 Review of 
Recreational Fisheries Survey Methods, which were incorporated into 
Federal law as part of the Magnuson-Stevens Reauthorization Act. It 
will also detail our progress in meeting our commitments to Congress 
and the recreational fishing community to address these issues through 
a process that is scientifically sound, statistically robust, 
collaborative and transparent. We expect the National Research Council 
review to commence in late 2015 and to take approximately a year to 
complete.
How can new technologies help fishery managers achieve better and more 
        timely information for management purposes?
    NMFS is continually striving to improve and augment its processes, 
methods, and programs for commercial fishery data collection and 
analysis. We recently completed Electronic Technology Implementation 
Plans for all regions which identify where technologies can best 
support fisheries management in each region. For FY 2016, the 
President's Budget Request includes an additional $7 million for 
Electronic Monitoring and Reporting. We are making progress in 
assessing and implementing electronic technologies that can result in 
greater efficiency and reduce fishermen's burden and costs--while still 
providing the fishery data we need to manage. Progress has been slow 
due to limited funds--this request will speed work in partnership with 
industry towards these shared goals.
    While electronic monitoring will not replace observers, it is 
possible that electronic monitoring can provide more flexibility for 
some fishermen where use of this technology makes sense (e.g., 
relatively low bycatch/single species fisheries). We are assessing all 
options, including vessel monitoring systems, electronic logbooks, and 
video cameras. Electronic technologies have the potential to increase 
the quantity of data; lower costs and reduce the time for data entry; 
improve the quality of data analysis; and lower the economic and time 
burden on fishermen for compliance with recordkeeping and reporting 
regulations.
    Electronic reporting may be the most ripe for improving efficiency 
and timeliness in the short term. Paper forms, manual data entry, and 
other legacy processes still exist. For example, in the Gulf of Mexico, 
commercial landings data are collected in cooperation with the five 
Gulf States and the Gulf States Marine Fisheries Commission, and are 
used to track progress toward reaching the Annual Catch Limits of 
managed stocks. By shifting from paper dealer reports, submitted semi-
monthly, to electronic dealer reporting, submitted weekly, timelier 
data are generated to more accurately project when a fishery will reach 
the Annual Catch Limit. This will enable commercial fishermen to more 
efficiently plan their fishing activities, and reduce the risks of 
exceeding an Annual Catch Limit.
    Two fisheries in the Bering Sea-Aleutian Islands Groundfish Fishery 
Management Plan in Alaska currently employ video compliance monitoring. 
The technical requirements for these applications are relatively 
simple; for example, they do not involve complex requirements for 
species identification or measurements. Under Amendment 80, video 
monitoring is used by about half of the vessels in the Alaska head and 
gut catch processor and pollock catcher processor fleets to meet the 
regulations that ensure that no pre-sorting activities occur prior to 
observer sampling. The regulations for Amendment 91 to this Fishery 
Management Plan contain the second electronic monitoring requirement 
that NMFS has implemented in Alaska. Amendment 91 created Chinook 
salmon prohibited species catch limits on the Bering Sea pollock 
fishery for the first time. To monitor the Chinook salmon limits, NMFS 
is striving for a census, or a full count, of Chinook salmon bycatch in 
each haul by a catcher/processor and each delivery by a catcher vessel. 
A camera located in the observer sampling station provides views of all 
areas where salmon could be sorted from the catch as well as the secure 
location where salmon are stored, thus allowing observers to 
comprehensively monitor the salmon bycatch while still performing their 
other required duties.
    Other means of electronic monitoring, including the use of digital 
video cameras, are currently being transitioned to operations in 
Alaska, the West coast and New England. For example, NMFS--in 
cooperation with the Pacific States Marine Fisheries Commission and the 
Pacific Fishery Management Council--will implement video monitoring in 
the West Coast Groundfish Trawl fishery. The Agency is in the process 
of implementing region-specific video monitoring programs cooperatively 
with industry partners. Cooperatively developing electronic monitoring 
systems with local fishermen who work in the affected fisheries is key 
to ensuring that the systems being developed are practical and will 
reliably and efficiently provide the needed data. The program's goal is 
to implement a blended mix of electronic and fishery observer 
monitoring to provide more cost-effective and timely reporting of fish 
catches. Electronic monitoring is also being tested in the New England 
groundfish fishery and Alaska small boat/fixed gear sector for 
implementation in 2016 and 2018, respectively.
    NMFS is also striving to conduct more surveys using a number of 
advanced sampling technologies that can achieve higher standardization 
and, in some cases, can directly measure fish abundance at each survey 
location, not just a standardized catch rate. With such information, 
NMFS will be able to provide more precise and accurate assessments 
sooner. At present, these technologies are still in the developmental 
phase, and collecting the data is only the first step toward an 
assessment. Optical and sonar sensors produce huge volumes of data, and 
NMFS is just beginning to work on methods to process these data types 
and bring the results into our assessments. In the future, these 
technologies will enable greater efficiency and increased accuracy and 
precision for our assessments, but these benefits will take some years 
to be realized. The FY16 President's Budget requests a $2.8 million 
increase for our Next Generation Stock Assessments. Next Generation 
Stock Assessments incorporate ecosystem information (e.g., climate, 
predator-prey dynamics) and use advanced sampling technologies (e.g., 
remote sensing, digital imaging)--to give us a better view of what is 
happening in the ocean as well as to the stock.
    NMFS also expects to develop new and innovative approaches to 
surveying fish stocks in hard-to-survey areas. For example, we are 
funding a multi-year research project with an academic partner to 
explore the use of towed camera arrays for use in surveying reef fishes 
in the Gulf of Mexico and Pacific Islands. If feasible, shifting to 
this approach would dramatically increase the effectiveness and 
efficiency of our reef fish surveys--meaning more science for the 
dollar. In another example, NMFS scientists are engaged with academic 
partners to develop improved methods for surveying Atlantic sea 
scallops. This includes the Woods Hole Oceanographic Institution's 
towed camera technology and the University of Massachusetts' dropped 
camera system that uses video stills on scallop beds for analysis.
What are the challenges to ensuring NMFS ability to collect abundance 
        data for stock assessments?
    There are a number of challenges to collecting abundance data for 
stock assessments. First is the ability to understand the relationship 
between fish stocks and the environment and determining how that will 
impact future stock distribution and abundance. Given the impacts of 
climate change on ocean and coastal conditions, it is becoming more 
challenging to predict future stock distribution and productivity using 
historical datasets. This makes ocean ``process'' studies increasingly 
important. We are conducting climate vulnerability assessments for 
major fish stocks in each region, launching focused research to better 
understand and respond to climate impacts on fisheries in the Northeast 
region, and finalizing the NOAA Fisheries Climate Science Strategy to 
provide the blueprint for providing the climate-related information 
needed for effective Agency decisions regarding fisheries and protected 
species in a changing world. Expanded funding requested in a variety of 
budget lines in NOAA's FY 2016 budget is a start toward filling key 
information needs and responding to growing climate-related impacts on 
living marine resources and the people, businesses and communities that 
depend on them. The second challenge is finding ways to sample hard-to-
survey bottom types such as coral reefs. The Agency continues to 
dedicate funding and expand its partnerships to conduct research on 
advanced sampling technologies, such as acoustic and video surveys, 
which can help collect data in these areas.
    In conclusion, the quality of scientific advice provided to 
management has been a major reason the United States has become a model 
of responsible fisheries management. Direction provided by the 
Magnuson-Stevens Act has been crucial to NOAA's scientific program. 
However, this is not to say that we cannot continue to improve the 
scientific guidance we provide and we are continuing to invest 
significant energy and resources and work with our partners to 
modernizing our data collection.
    Thank you again for the opportunity to discuss fisheries data 
collection programs. I appreciate both your own, and the Committee's, 
interest in exploring innovative approaches to data collection, and I 
look forward to continuing to work with all of you to further improve 
the vitality of our Nation's fisheries. I am available to answer any 
questions you may have.

    Senator Booker [presiding]. Thank you very much. I want to 
recognize the Ranking Member of the overall committee, Senator 
Nelson, who has just arrived. Before we start questioning, I 
just want to see if Senator Nelson might have any opening 
comments he might want to make, or do you want some time to 
settle in, sir?
    Senator Nelson. Just to say that we have one of the best 
government employees in front of us. She is here to protect the 
fish. That is a good thing for a lot of us.
    Senator Booker. I have been in lots of hearings with you, 
sir, and I have never heard you lavish such praise on an 
individual, so I will make sure I go down and not only 
introduce myself afterwards but get her autograph.
    Senator Rubio, you have questioning first. Mr. Chairman.
    Senator Rubio [presiding]. Thank you very much. I 
appreciate your testimony. Dr. Sullivan, it is important we 
convey boating safety as Americans begin their summer plans and 
head to our coastal waters. There was a report recently. I live 
in South Florida. The number of boating incidents there have 
been problematic. Although weather conditions can change 
quickly, our forecasting has progressed and is a reliable tool 
for deciding when to venture out and when to stay docked.
    Knowing the Red Snapper season is limited to specific days, 
that could be unsafe for boating. Has the agency considered a 
more flexible season depending on the weather?
    Dr. Sullivan. Senator, we do take and can take such factors 
into account, and we share your concern that fishermen first 
and foremost make sure they get out and come home safely.
    The start date, of course, is a known date, so that is a 
stable point for them to attempt to arrange their efforts 
around, but we can extend or reopen the season if conditions 
warrant it.
    Just to cite two examples, we did that in the aftermath of 
the Deepwater Horizon bill in 2010, and to the specific point 
that you are making, in 2012, when the season fell in a period 
of particularly severe weather, we did it again then.
    Senator Rubio. I also hear a lot of growing concern among 
stakeholders, especially with the Gulf of Mexico, that NOAA is 
not providing sound data, leading to a general sense of agency 
mistrust.
    I wanted to give you the opportunity to address the claims 
that some make that NOAA is poorly managing this fishery and 
what steps are you taking to quell those concerns?
    Dr. Sullivan. We are taking a number of steps, but if I may 
comment just a bit on perspective. The snapper management plan, 
the data show clearly, is working. It is hard won progress, but 
that stock is rebuilding. We just added three million pounds of 
quota over this last year, for example. The quota this year is 
as high as it has ever been since the stock came under 
management.
    We are sensitive to the concerns and the loss of confidence 
that questions about data can engender, and we will be and we 
always are working continually to improve and augment our data 
collection, the transparency of our processes, the 
accessibility to fishermen and other stakeholders of the 
assessment process and the science that is going into that. We 
will not relent on those efforts.
    Senator Rubio. We also received criticism from some that 
NOAA does not accept third party data, sometimes from programs 
that even receive Federal funding, such as the electronic 
monitoring program, that will hopefully occur this season in 
the Gulf.
    How do the councils decide what data to accept and what 
data not to accept, and what guidance does the agency offer to 
fishermen who would like to be more proactive in data 
collection?
    Dr. Sullivan. Thank you for that question. Whatever the 
source of data that is a candidate for the stock assessment, it 
has to undergo a very high standard of peer review. That is 
levied on every source of data, no matter who it may be.
    As you have been pointing out, these are really critical 
data that go to critical decisions that affect people's 
livelihoods, so every input must meet the highest possible 
standards. That applies to my guys, too, by the way. There are 
instances in every council periodically where NMFS data does 
not make the cut in the peer review process.
    There are instances where the Fisheries Service's model is 
placed in competition with a third party's model to underpin 
the stock assessment, and the third party model is evaluated as 
being superior. Haddock in the Northeast is an example of that.
    It is the scientific peer review process which again starts 
with an open data call, third-party data are in fact commonly 
accepted, and with respect to individual fishermen hoping to 
have some of their information more consistently used or have a 
better chance of being used, my encouragement would be to 
partner with the academic scientists to help make sure the 
methods that you are using to collect those data really are the 
best practice methods.
    Senator Rubio. Finally, nearly 3 years ago, Congress passed 
the Billfish Conservation Act of 2012, which put in place 
important conservation measures prohibiting the sale of several 
threatened Pacific caught billfish in the United States. The 
Billfish Conservation Act mirrors the same prohibitions for 
Atlantic billfish that have been in place for years.
    The National Marine Fisheries Service issued an advance 
Notice of Proposed Rulemaking on the 4th of April 2013 to 
receive comments on the proper implementation of this law. 
Since that time, however, over 2 years later, the agency still 
has not moved forward in the rulemaking process. What is the 
status of this rulemaking?
    Dr. Sullivan. I have not read the text of that bill, 
Senator, but my understanding with respect to the rulemaking 
process is that a proposed rule, the next step in that chain, 
is currently being drafted.
    And that at least one key source in the long time between 
the advance notice and the proposed rule stems from what we 
discovered to be pretty tricky implementation around how do you 
implement an exemption from the law for a certain subset of 
domestic fisheries while not violating other provisions of the 
statute and not falling afoul of United States trade 
obligations.
    Senator Rubio. Thank you very much. Senator Booker?
    Senator Booker. Thank you, Mr. Chairman. Dr. Sullivan, on 
the topic of fishery and data collection, I have a real big New 
Jersey specific concern. The National Science Foundation for 
the second year in a row is funding a proposed study, and I 
know you are familiar with it, the Lamont Doherty Earth 
Observatory and Rutgers University joint study about the ocean 
bed in very, very fertile fishery grounds off the New Jersey 
coast.
    The study is designed to profile the ocean floor through 
the use of seismic air guns that will send 250 decibel sound 
blasts into the fishery grounds every five seconds, 24 hours a 
day, for 30 consecutive days this summer.
    For the second straight year, the New Jersey Department of 
Environmental Protection has informed the Office for Coastal 
Management that it has serious concerns with their project's 
effect on our state's coastal resources, specifically the 
amount of harmful impacts of seismic blasting on marine 
mammals, fisheries, marine ecosystems, all up and down our 
coast, which again is a multi-billion dollar source of economic 
activity for the State of New Jersey.
    For the second straight year, OCM has disallowed New Jersey 
its right to a proper consistency review. New Jersey, of 
course, feels that for the second straight year, OCM is putting 
the interests of this study and its particular timing over and 
above the legitimate concerns of the State of New Jersey.
    New Jersey has furnished OCM with a list of measures that 
would make the study less harmful. NJDEP has asked the National 
Science Foundation to engage in a mediation regarding the study 
and these mitigation measures.
    Your voice could be very helpful in this. I am wondering if 
you could commit staff from your office to really encourage and 
facilitate a meaningful mediation process between NJDEP and the 
National Science Foundation to attempt to address New Jersey's 
concerns.
    Dr. Sullivan. I appreciate your concern, Senator, and have 
tracked this issue through the two-year cycle. We, of course, 
have no authority from within NOAA to actively prohibit that 
seismic survey, and our scientific judgment with respect to the 
marine mammals is that while there was some prospect of 
disrupting some of their behavior, we found no grounds to 
presume or believe there would be injury or mortality, in which 
case we would have a stronger leader.
    We have required that the survey ship have observers 
aboard, an employee who is monitoring, to make sure mammals are 
not within a safety zone that has been defined, and that they 
will be required to cease their surveying if mammals do 
encroach into that region to minimize those impacts and keep 
within the limits of the incidental harassment authorization 
that we have provided.
    We have been closely engaged with NSF throughout this 
process, and of course, do not make that agency's decisions for 
them. We will certainly stay closely engaged with both your DEP 
and your staff and to the degree that is possible with the 
Science Foundation.
    Senator Booker. I guess my frustration--I am not a 
scientist or doctor. None of my degrees have three letters, all 
BA, MA, things like that. I defer to what scientists tell me. I 
have a lot of frustration because the information we are 
getting is changing.
    For example, the seismic study proponents had to apply for 
an incidental harassment authorization from the National Marine 
Fisheries Service, and NMFS is compelled by law to give public 
notice of this application, including the most salient fact, 
and that is the number of marine mammals, as you mentioned 
before, that will be potentially harassed by the proposed 
seismic blasting.
    This information has changed. In its public notice, NMFS 
told the public there would be 1,323 marine mammals that would 
be harassed by this blasting, including 800 bottlenose 
dolphins.
    Just last week, the science is changing, and the 
understanding of its impact on their own numbers that they are 
turning in are suddenly growing in a pretty large proportion. 
Their authorization for seismic blasting to harass over 18,000 
mammals, including 12,000 bottlenose dolphins, that is a 
massive increase. They issued an authorization now asking to 
harass more animals, a lot larger than the original estimation 
of 1,323. Now they are up to 18,000 mammals that will be 
affected. This is just new information as of last week.
    These revised numbers are based upon science from the 
Marine Mammal Commission. The Commission told the NSF that the 
error was of such magnitude that the NSF had undermined the 
public review process that was established.
    If this science seems to be changing in terms of the impact 
of this, I guess I am wondering if you could at least commit to 
me to exploring the re-noticing, because the notice the public 
got was based upon a fraction of the numbers of marine wildlife 
harassment.
    I am wondering if you would commit to exploring the re-
noticing of this permit application with the correct numbers of 
marine mammals to be harassed, so at least the public in a 
democratic process could have the right methodology that they 
are relying on, and that my constituents can adequately review 
and comment upon this application.
    Dr. Sullivan. Senator, I will certainly commit to look into 
that change from the Marine Mammal Commission's input. That is 
news to me. I had not seen those numbers. I would ask that you 
let me reserve any subsequent commitment until I have had the 
chance to review that fresh data that came in, but I will 
certainly review that.
    Senator Booker. Thank you. Thank you, Mr. Chairman.
    Senator Rubio. Thank you. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. First of all, Dr. 
Sullivan, thank you for your public service. I really meant 
what I believe.
    Picking up on what Senator Booker just said on the 
harassment of marine mammals with seismic testing, I wish the 
Administration, not in your Commerce Department or in your 
bailiwick of NOAA, but the Department of Interior would stop 
harassing us about wanting to drill for oil off our coasts.
    Fortunately, in their 5 year plan, they kept it off our 
respective coasts. If you are not going to be doing drilling 
for oil, why should there be seismic testing? I will just leave 
it at that.
    I do want to ask you about dolphins, another matter, about 
their health. We just had an oil spill off Santa Barbara. Five 
years ago, we had that awful Deepwater Horizon spill. We are 
finding that science is telling us that linked to that 
Deepwater Horizon spill in the Gulf, it is a contributing 
factor to an unusually high number of bottlenose dolphin deaths 
in the Gulf.
    Do you have any direct familiarity with this science, and 
can you speak to that?
    Dr. Sullivan. NMFS is a party to some of those 
investigations. I am not directly familiar with the specific 
study that just came out. I have not had a chance to review it 
in detail.
    Senator Nelson. For the record, Mr. Chairman, I would like 
to say and just insert in the record Dr. Teri Rowles, a 
veterinarian, and one of the 22 contributing authors of a 
paper, ``NOAA's Marine Mammal Health and Stranding Response 
Program,'' she is the head of that, was charged with 
determining the causes of the unusual mortality events.
    What she found out is in the Gulf's dolphin population, 
they are having significant adrenal gland effects, adrenal 
insufficiency. They are challenged when pregnant. The cold 
temperatures are a big challenge. Their increased 
susceptibility to infections, primarily bacterial pneumonia, 
leading to lung injury, and their immune function is affected.
    I just want to get that in the record, and we can explore 
that later at an appropriate time with one of the scientists 
themselves.
    Thank you, Dr. Sullivan.
    Senator Rubio. Thank you, Senator Nelson. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chair and Ranking 
Member. Dr. Sullivan, thank you for being here today. As you 
know, New Hampshire's small fleet is suffering under NOAA's 
regulations. In fact, on April 23, 2015, NOAA announced a final 
rule implementing Framework Adjustment 53 to New England's 
groundfish management plan. Framework Adjustment 53, 
ultimately, cut cod catch limits by 75 percent from 2014 
levels.
    Seventy-five percent in one year. Then when I look back 
over the course of 5 years, the total cut is 95 percent. I do 
not know a business that could take a 95 percent cut and 
continue to operate.
    As you know, this is a very important business, I mean 
family business, hard working, small fishermen who really care 
about not only the fishery but also they make a very noble 
living.
    I am trying to understand because the statute says not only 
do you look at the strength of the fishery, but you also have 
to look at the economic impact to those who are making their 
living on the water and have a strong tradition of doing so.
    How do we justify that, going 75 percent in one year and 
then 95 percent over 5 years?
    Dr. Sullivan. Cod is an absolutely iconic species in this 
country and especially in your region, Senator. We do care 
deeply about the fishery and about the communities that depend 
on it. We are gravely concerned about this stock. The 
assessment since 2011 show consistently it is only at about 3 
percent of its total biomass. We are actually concerned about 
its capability to recover at this point.
    That is the driving factor in what has driven these limits. 
We are obliged by law--both standards apply, but we are obliged 
by law to set catch limits that ensure we do not have 
overfishing occurring on a stock, and with a stock that is at 
just 3 percent of its biomass, that is a drastically low 
number.
    Senator Ayotte. Here is the problem. You are also obliged 
by law to think about the economic impact, and thinking about 
this hearing on data today, I think it is so important, and in 
fact, the concern that I know our fishermen have is what kind 
of data is being used to make these dramatic cuts, that, 
frankly, I do not know how any business could sustain, never 
mind these small businesses.
    The Northeast Seafood Coalition, the largest representative 
group of ground fishermen in New England, they took an 
unprecedented step recently in April, filing a petition that 
says they have no confidence in the stock reports in New 
England groundfish, and their specific focus in this letter is 
``We are conveying our no confidence because the latest 
assessments and report status of Gulf Maine cod does not 
remotely match what fishermen we have seen on the water over 
the past year.'' They outline what they have seen.
    In this letter, they call for a blue ribbon commission, and 
one that would engage in not only what NOAA is doing, but 
really looking at GAO and the National Research Council, making 
sure that the underlying causes of assessment failures are 
accurate and we are getting the right data.
    As we look at this, what is it that we can do to 
restructure what happens to ensure that stock assessments take 
all the information into account and match what our fishermen 
are seeing on the water?
    It seems to me that this is a very, very important issue, 
and as I understand it, scientists in New England rely entirely 
on observer data, which is extremely costly for the results 
obtained, and should we look at a different model.
    How can we ensure that there is more participation by those 
that are on the water all the time, love the water, and want to 
sustain the fishery--the fishermen.
    Dr. Sullivan. A few points, Senator. First, it is not 
correct that the assessment relies only on observer data. It 
relies on the independent repetitive standardized surveys that 
I mentioned before, which creates an index of stock abundance.
    Think Dow Jones Industrial Index. Using an index like the 
Dow Jones is one of the ways that we all can know something 
about the general health or illness of the stock market, which 
might at times be quite at odds with the health or illness of 
any given stock.
    Both the index and point observations can be important. The 
index is important. Landings data, biology data that I referred 
to in my remarks again, some obtained by NMFS itself, some by 
contracts and grants with universities in the New England area, 
some by contracts and arrangements with fishermen in the New 
England area, those are an input as well.
    With respect to the observations out on the water, we do 
respect those. With respect to cod specifically, cod are known 
to school in very large aggregations, and when they aggregate 
that way, it becomes easier to catch the fish, and that can 
give sometimes a false impression, sometimes a false 
impression.
    Senator Ayotte. I do not want to interrupt you because I 
know my time is going, but would you object to a blue ribbon 
panel of scientists looking at this assessment?
    Dr. Sullivan. We subject our assessment processes to 
independent review all the time, and have no fear of subjecting 
it to independent review.
    Senator Ayotte. Even if it was an examination by the 
National Research Council and the GAO, you would not object to 
that?
    Dr. Sullivan. We have had them done by those bodies before.
    Senator Ayotte. I appreciate it. This is really important, 
as you know. I do not want these great businesses to go out of 
business, and it is a great tradition in New England. It is 
very important. These fishermen and women work incredibly hard, 
and they are a big part of sustaining not only our tradition, 
but I think appreciating local food and appreciating what we 
can get from the water.
    I hope that we can work on this data issue and also 
understand what these quotas are doing to these small 
fishermen. Thank you.
    Dr. Sullivan. Thank you, Senator.
    Senator Rubio. Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and 
thank you for all your good work. My mother was a Sullivan and 
she said Sullivans were very intelligent people, and I think 
you are proving that here today.
    Dr. Sullivan. My cousins always support me.
    Senator Markey. There is no question, hanging in the 
Massachusetts state legislature, right in the chamber, is the 
Sacred Cod. That is the symbol of the state, the Sacred Cod. 
Things are changing. We cannot deny part of it is climate. 
There were temperature readings off the Massachusetts coast in 
January, 21 degrees above normal.
    Cod like cold water. Part of this is their fins, too, you 
just have to deal with the reality of how warm the water is 
getting off our coast. That is climate change, it is heating 
up, and that is a factor.
    Even with that, we know the fishermen are suffering. We 
have a perfect storm of events which are hitting us. It makes 
it more difficult to keep peace between the Federal regulators 
and the fishermen. It is just an ongoing effort to ensure that 
the groundfish stocks are assessed properly.
    I guess my question to you is what actions is NOAA taking 
to ensure that the changes in technology for stock assessments 
incorporates the input of fishermen? You want the most modern 
technology but you also want the best input from the fishermen. 
Just give us a sense of how that works in the maximum extent, 
so we are educating the fishermen with regard to what is 
happening out there.
    Dr. Sullivan. I have a long crib sheet, Senator, of 
different projects and technologies that we are working with on 
a number of fronts. There are Smartphone apps, cameras and 
video systems, sonars, fixed moorings and autonomous vehicles 
that can lower the cost of getting straight data.
    As you know, I am sure, we are even instrumenting lobster 
traps to collect oceanographic data, so to an increasing 
degree, whether it is on traps or mobile fishing gear, working 
with our academic and fishermen partners to try to gain some 
data about the oceanography itself, which will help us figure 
out what these other factors are that we are seeing in very 
different degrees.
    Fishing pressure is clearly just one part of the story 
right now. Management today has to account for other factors 
like these that you are mentioning in ways that have not only 
never been needed before, but they have never actually been 
possible before.
    Fish move where the temperature gradients are, changing 
ocean conditions of all sorts, from acidification to nutrient 
load to temperature change to food they depend on. You get 
skinny quill that do not have much fat to them and you get less 
healthy salmon pollock, for example. Subtle little changes to 
our eyes, but big in terms of the productivity and recruitment 
of a fish stock.
    Then the rise or fall of one species in a stock, again, as 
I know you are aware, very often has domino consequences on 
other stocks that sometimes goes up to the regional scale.
    It is a much more complex working arrangement than we have 
had to grapple with before. We are all trying to work through 
that together, and as Senator Ayotte said and as you referred 
to, that strains the relationships between the folks that want 
to fish and are making their living there and the challenge of 
making sure we can do that for decades and decades yet to come.
    Senator Markey. There is no question, big changes are 
happening up there. The cod are voting with their fins and the 
lobster are voting with their claws, as they start moving, 
things change, and a lot of it is still not fully understood.
    I wrote you in January with a number of questions about the 
unscheduled stock assessment update that was done last year for 
the Gulf of Maine cod. I think your answers to those questions 
are helpful to the hearing we are having today, and I ask that 
a copy of your full response be included in the record at this 
point.
    Senator Rubio. Without objection.
    [The information referred to follows:]

                       United States Department of Commerce
                                   Washington, DC, January 29, 2015
Hon. Edward J. Markey,
United States Senate,
Washington, DC.

Dear Senator Markey:

    Thank you for your letter requesting information regarding the 2014 
update to the Gulf of Maine cod stock assessment and the associated 
interim measures reducing opportunities to fish for cod. Detailed 
responses to the questions listed in your letter are enclosed.
    I appreciate your interest in this matter and your continued 
leadership on these issues. If you have any questions, please contact 
Amanda Hallberg Greenwell, Director of the National Oceanic and 
Atmospheric Administration's Office of Legislative and 
Intergovernmental Affairs, at (202) 482-4981.
            Sincerely,
                                Kathryn D. Sullivan, Ph.D.,
                                        Under Secretary of Commerce
                                         for Oceans and Atmosphere.
Enclosure
                                 ______
                                 
Responses to Questions from January 5, 2015, Letter from Senator Markey 
                           and Senator Warren
    1. It is our understanding that the stock assessment update was 
unscheduled and was conducted outside of the established procedure for 
conducting such updates. What factors caused NOAA to initiate the 
unscheduled stock assessment update? Why did NOAA choose to conduct 
this update in a way that did not follow the normal procedure for stock 
assessment updates?

  <bullet> The update originated when the Gulf of Maine cod stock was 
        chosen as a test case for an ongoing Northeast Fisheries 
        Science Center (Science Center) project to improve the 
        scientific information needed for management by conducting 
        more, and more frequent, stock assessment updates.

  <bullet> The Gulf of Maine cod stock was selected because it is a 
        particularly complex stock assessment, so a process that would 
        work for this stock would likely work for the rest of the 
        stocks we assess. The updated assessment used the 2012 and 2013 
        catch and survey data that were collected after the benchmark 
        was conducted.

    2. It also our understanding that stakeholders were not notified of 
the pending update until the results were announced in August 2014. 
After NOAA decided to update the stock assessment, why did it choose 
not to include representatives of the fishing industry, outside 
experts, or other stakeholders in the process before announcing the 
results of the assessment? Additionally, we have heard concerns that 
releasing the results of the update information before it was peer 
reviewed could have biased, or at least created the perception of bias, 
in the peer review process. Why did NOAA choose to release this 
information before it was peer reviewed? In addition to releasing a 
summary of the results before they were peer-reviewed, NOAA did not 
release the actual draft report until two weeks later after the results 
were announced. Please explain this delay.

  <bullet> On August 1, 2014, we shared what we had learned about the 
        increasingly grave condition of the Gulf of Maine cod stock 
        with the New England Fishery Management Council (Council) and 
        asked for help in arranging a peer review before the 
        information was used for management. The public was able to 
        participate during the Council's peer-review process, as is 
        always the case.

  <bullet> On August 4, 2014, a representative from the Science Center 
        participated in the Council's Groundfish Committee Meeting to 
        answer questions from Council members and the industry about 
        the assessment update. At that time, we announced that we would 
        release the full assessment document as soon as we had a 
        mechanism for the peer review. The Science Center communicated 
        that until a peer review was completed, the assessment results 
        had no standing and should not be used as a basis for 
        management.

  <bullet> On August 15, 2014, the Science Center and Council finalized 
        a plan to conduct a peer review and the full assessment 
        document was released to the public. Assessment documents for 
        peer review are usually made publicly available prior to the 
        review meeting. This is done to allow the public to understand 
        assessment results and is unlikely to result in any bias.

    3. Did NOAA consider including the Gulf of Maine cod assessment 
update in the July meeting of the Northeast Regional Stock Assessment 
Workshop so the Stock Assessment Review Committee (SARC) could review 
the update? If not, why not?

  <bullet> No. The final meeting of SARC 59 (July 15-18, 2014) occurred 
        while the update was still being developed. Even if the update 
        had been available at the time, SAW/SARC assessments are 
        scheduled 1 to 2 years in advance and peer reviewed by 
        scientists contracted through the Center for Independent 
        Experts. As required under our agreement with the Center for 
        Independent Experts, the contracts for the peer-review 
        scientists include specific language relative to the stocks to 
        be reviewed and the Terms of Reference for each review.

  <bullet> The peer-review process for the Gulf of Maine cod assessment 
        update was consistent with the process we hope to adopt for all 
        updates. An Assessment Oversight Panel convened on August 22, 
        2014, to finalize guidance to the peer review chair. A peer-
        review panel consisting of a subset of the New England and Mid-
        Atlantic Scientific and Statistical Committees met August 28-
        29, 2014, to conduct the peer review. Both meetings were open 
        to the public by teleconference.

    4. It is our understanding that this stock assessment update was 
part of an effort by NOAA to provide more timely information to aid the 
fisheries management process. How does NOAA intend to incorporate the 
feedback received from this stock assessment update and the process 
through which it was conducted to improve the transparency and 
scientific credibility of future efforts to provide more timely stock 
assessment updates?

  <bullet> The North East Fisheries Science Center (NEFSC) has a Stock 
        Assessment Efficiency Initiative that is intended to produce 
        more frequent assessment information while also allowing for 
        important work to improve that information. We are working with 
        the National Marine Fisheries Service (NMFS) Greater Atlantic 
        Regional Fisheries Office, and both the New England and Mid-
        Atlantic Fishery Management Councils as well as the Atlantic 
        States Marine Fisheries Commission to implement the initiative, 
        as some aspects of it require support from these partners 
        (better timing for information, using common data structures, 
        understanding the information requirements, and ensuring 
        effective Terms of Reference for reviews). Subsequent to the 
        Gulf of Maine cod update, the New England Fishery Management 
        Council requested similar updates for 20 groundfish stocks. We 
        will be conducting those updates in September 2015, using 
        review and documenting procedures outlined in the efficiency 
        initiative.

  <bullet> The NEFSC is developing a science plan to guide Center 
        activities for the next 3-5 years. During the process, we have 
        gathered input directly from our major external stakeholders 
        and partners to use in drafting the plan. Improved stakeholder 
        communication and engagement is among priorities identified so 
        far. New activities are under development to implement those 
        improvements, including re-institution of the Trawl Survey 
        Advisory Panel and a fresh look at how stakeholders can 
        participate in cooperative and collaborative research with 
        NEFSC researchers.

    5. The interim rule issued in November cites the following three 
reasons for the interim closures: reducing fishing mortality, 
protecting areas where the Gulf of Maine cod stock is located, and 
``protecting areas of likely cod spawning activity.'' We have heard 
concerns about the way spawning closures are defined, including the 
scientific basis for these particular closures. Please clarify which 
areas, if any, were closed solely for spawning purposes, and the 
scientific rationale for these closures.

  <bullet> The spawning-related closure measures are based on 
        information assembled by the Closed Area Technical Team for the 
        Council's Omnibus Habitat Amendment 2, information from the 
        Industry Based Survey, Massachusetts Division of Marine 
        Fisheries research, and scientific literature (this information 
        includes cooperative research).

  <bullet> We did not implement any seasonal interim closure areas 
        solely for spawning protection.

  <bullet> The areas we identified as high in cod mortality frequently 
        overlapped with spawning areas because, as stated in the 
        interim rule, ``there is a strong correlation between high cod 
        catch and spawning activity.''

  <bullet> It is difficult to pinpoint spawning activity spatially and 
        temporally, so we used broad, large areas when considering 
        spawning-related areas to provide more spawning protection.

    6. The interim rule includes trip limits, an effort control measure 
used under the previous management system. What was the conservation 
rationale for reinstating this control measure in the current sector 
system? Did NOAA analyze the impact on discards that trip limits would 
have? If not, why not and will this be done in the future?

  <bullet> The trip limit is intended to discourage vessels from 
        targeting Gulf of Maine cod when fishing outside of the 
        seasonal closure areas. We set the limit at 200 pounds based on 
        our analysis of past fishing practices in the areas that would 
        remain open. Our analysis showed that if past fishing practices 
        continued in a similar way, this limit would likely not affect 
        approximately 75 percent of the trips in the remaining open 
        areas.

  <bullet> We did analyze the impacts of discards. When comparing the 
        interim measures with and without trip limits, we estimated 
        that including trip limits would reduce Gulf of Maine cod catch 
        (landings and discards) by 20 metric tons and reduce groundfish 
        revenue by 2 percent. We determined the reduction in mortality 
        outweighed the economic impact of implementing the trip limit.

  <bullet> We looked at alternative measures such as reducing the 
        overall quota (an output control measure currently utilized 
        with the current sector system) but determined it would be 
        difficult administratively to do in such a short time period. 
        In addition, it could raise equity concerns depending on 
        whether a sector already caught its quota or not.

    7. The interim rule includes broad stock area closures that will 
also impact fishermen targeting other species like pollock and redfish. 
Did NOAA consider alternative management measures to these area 
closures? If so, what were they and why were they not adopted? If 
alternatives were not considered, why not?

  <bullet> We implemented these measures to better ensure the 
        protection of Gulf of Maine cod and to monitor and account for 
        cod caught in the Gulf of Maine.

  <bullet> We considered a different area limitation previously 
        considered by the Council, but it was not feasible to implement 
        its observer coverage and vessel monitoring reporting 
        requirements. Also, in response to public comment, we 
        considered modifying the single broad stock area measure to 
        provide vessels more flexibility. However, the alternatives 
        considered either dramatically increased cod discards, or 
        presented enforcement hurdles that were too difficult to 
        overcome.

  <bullet> Available information indicates that vessels overall are 
        currently catching similar amounts of pollock and redfish as 
        they did last year at this time.

    8. At-sea monitoring and fisheries observers are critical aspects 
of managing the Northeast groundfish fishery. Given the interim rule's 
likely impact on the number of fishing trips, has NOAA considered 
making changes to shift resources and prioritize coverage of areas in 
ways that can provide further help in the management of cod and other 
groundfish species? NOAA has also sponsored a number of pilot projects 
for electronic monitoring, including one run by the NEFSC that 
concluded this spring. Given the current cod situation, how might 
electronic monitoring be utilized to help fishermen and managers meet 
monitoring needs in the future? What are NOAA's plans for incorporating 
electronic monitoring into the management of the New England fisheries?

  <bullet> If fishing effort drops dramatically, we will increase the 
        coverage rates on sector fisheries in the New England 
        groundfish fishery to make sure that we maintain thorough, 
        representative sampling. We will maintain, if not increase, 
        statistical standards for precision, given resources available 
        and potential regulatory constraints.

  <bullet> In the upcoming fishing year we are conducting a trial using 
        electronic monitoring (EM) in at least one groundfish sector. 
        The trial is intended to evaluate the cost and quality of data 
        collected under an operational Electronic Monitoring program 
        with that collected under the current at-sea monitoring 
        program. We will further develop Electronic Monitoring 
        depending on results of that evaluation and other future 
        evaluations that inform our regional implementation planning 
        efforts. Our support for electronic monitoring in New England 
        is subject to the availability of funds (please see our FY 2015 
        President's Budget Request for $4.0 million to support 
        Electronic Monitoring and Reporting).

    9. The Massachusetts groundfish industry has faced incredible 
economic challenges in the last few years. To maintain a viable fishing 
industry across Massachusetts, diversifying what is caught and marketed 
will be critical. Recent Saltonstall-Kennedy grants in New England have 
supported some of the important work needed for developing redfish and 
dogfish markets. Has NOAA engaged the industry to identify existing 
barriers to targeting alternate species and possible solutions for 
overcoming them? If not, what are NOAA's plans to do so?

  <bullet> NOAA Fisheries Greater Atlantic Regional Administrator 
        convened a Northeast Groundfish Economic Coordinating Committee 
        with a goal of creating additional opportunities for the 
        groundfish fleet.

  <bullet> At a November 2013 meeting, the Committee expressed an 
        interest in exploring possible reasons for why the quota for 
        many groundfish species is not being fully harvested. In 
        response, we collaborated with the Committee and the Gulf of 
        Maine Research Institute to organize two industry workshops in 
        2014. The first focused on identifying possible constraints on 
        fishing, and the second focused on exploring ideas and options 
        to reduce these constraints.

  <bullet> We also continue to work with the industry through the 
        sector operations plans to find ways to allow access to 
        plentiful stocks. There is an ongoing experimental fishery to 
        determine if vessels can target haddock in the year round 
        Georges Bank closure areas without impact to stocks of concern. 
        We also are working with sectors to try and provide additional 
        flexibility to better target redfish.

    10. How will the results and impacts of the interim rule be used by 
NOAA to evaluate the Framework 53 adjustment that the New England 
Fishery Management Council recently adopted and is in the process of 
finalizing?

  <bullet> At the request of the Council, we implemented interim 
        measures for fishing year 2014 because if fishing were allowed 
        to continue under the annual catch limit, without any 
        additional measures, the likelihood of ending overfishing and 
        rebuilding the stock in future years would have been greatly 
        reduced.

  <bullet> The interim measures were implemented to reduce fishing 
        mortality on Gulf of Maine cod, provide additional spawning 
        protection, and keep the stock on a rebuilding trajectory until 
        the Council developed more permanent measures in Framework 53 
        for fishing year 2015 and beyond.

  <bullet> Once the Council submits Framework 53 to us, we will review 
        the action for consistency with the Magnuson-Stevens Fishery 
        Conservation and Management Act, particularly with respect to 
        whether the proposed measures would end overfishing and 
        successfully contribute to rebuilding the stock.

    11. Potential vessel buyout or buyback from $11.0 million disaster 
funds. Has NOAA set a timeline for this consideration? How has latest 
cod stock assessment and management changes impacted the development of 
this possible program? What does NOAA Fisheries intend to do if an 
agreement cannot be used in regards to a vessel buyout or buyback?

  <bullet> NMFS has not set a timeline for when a potential buyback or 
        buyout must be completed. The spending plan for the disaster 
        funds was developed through consensus with the New England 
        marine fisheries agency state directors. In the discussions 
        regarding the portion of the disaster funds set aside for 
        buyback program development, we have discussed on numerous 
        occasions that so long as progress continues on a potential 
        program, a deadline is not necessary.

  <bullet> We have had discussions with both state directors and 
        fishermen on the question of how changes in cod stock status 
        and management may have changed the desire for a buyback 
        program. These discussions have not resulted in a conclusive 
        answer. Some have indicated that the changes in cod have 
        heightened the need for a disaster-related buyback, others have 
        provided the opposite view.

  <bullet> We have stated, since the inception of the initial consensus 
        spending plan, that if a buyback program could not be 
        developed, the $11.0 million set aside for the program would be 
        discussed further with state directors to consider how best to 
        use the funds. This continues to be our position.

    Senator Markey. One of my questions asked how NOAA intends 
to incorporate feedback received during the stock assessment 
update to improve the transparency and scientific credibility 
of future efforts to provide more timely stock assessment 
updates.
    You responded saying that from input you have received 
directly from major external stakeholders and partners, 
improved stakeholder communication and engagement is among the 
priorities identified so far.
    What are the new activities that you are undertaking to 
ensure that stakeholders can participate in cooperative and 
collaborative research?
    Dr. Sullivan. Senator, we have been looking at the time 
line and procedures that we go through to announce open data 
calls, make sure we are getting those out to all of the 
different stakeholders.
    We are looking at reinstituting the Trawl Survey Advisory 
Panel, and we are taking a fresh look at how stakeholders can 
participate in cooperative and collaborative research broadly 
across the Service but in particular with our Northeast 
Fisheries Science Center.
    Senator Markey. Explain to the Committee, if you could, how 
does electronic monitoring play into the totality of this 
picture going forward in terms of interacting with fishermen, 
giving some confidence that the numbers are accurate?
    Dr. Sullivan. There are a variety of different electronic 
monitoring and electronic reporting tools and each can play 
different roles in this challenge. Right now there are 29 
electronic reporting and four electronic monitoring programs 
actively in place.
    We have asked for an increase in our Fiscal Year 2016 
budget of $7 million to try to move electronic monitoring 
techniques into two new groundfish fisheries in the Gulf and 
West Coast.
    In a nutshell--if you wish a more exhaustive answer for the 
record, we would be happy to provide it. In a nutshell, where 
electronic monitoring like cameras and video will probably work 
best will be in single species, low or zero discard fisheries, 
so the fish you see coming in over the fantail are 
unequivocally the fish that are being kept, where there is very 
low incentive for discard. That is probably where they will 
work best. That is where we have seen them proving most 
effective, both in U.S. fisheries and Canadian fisheries.
    How they may be able to relieve effort on fishermen or make 
NOAA processes more efficient in mixed species and in stock 
complexes, we are gathering biological data about the fish, as 
I mentioned before.
    It is also important to improving the stock assessment 
methodology. I suspect the story will be more complicated 
there, and I would have lower expectations that electronic 
technologies would completely replace at sea observers.
    Senator Markey. The Federal Government has been paying for 
actual physical observation, and as that money gets pulled 
back, there has to be a substitute, and electronic monitoring 
just has to be given the priority. It has to be given the 
funding so there is some confidence on the part of fishermen 
that the numbers are real.
    I just urge you to do all you can in order to provide that 
additional source of information. Otherwise, this fight will 
just continue. Thank you, Mr. Chairman.
    Senator Rubio. Thank you. Senator Nelson?
    Senator Nelson. Do you have confidence in electronic 
monitoring?
    Dr. Sullivan. We are the trust and verify guys. That is the 
scientific process. We are setting up protocols and pilots with 
fishermen and industry partners in every region to examine 
these techniques, to confirm how they work, to calibrate them, 
and before, again to the trust and confidence issue, we would 
switch over to some new technique, we need to both know its 
accuracy and precision performance, and we need to be able to 
relate how the new measurement relates to the old measurement.
    We have all seen this in our own lives when you buy a new 
thermometer and it reads slightly different than your old 
thermometer, you are not sicker than you were yesterday, the 
thermometers have a little different reading. We need to be 
able to calibrate those differences.
    Senator Nelson. When will you draw a conclusion?
    Dr. Sullivan. We will draw conclusions technique by 
technique and fishery by fishery, and that is the work that is 
underway now. We have a national strategy for electronic 
monitoring. We issued this year six regional implementation 
plans. As I mentioned to Senator Markey, we have requested a 
small increase in our Fiscal Year 2016 budget to accelerate 
those efforts.
    Senator Rubio. Senator Booker?
    Senator Booker. Thank you very much. Dr. Sullivan, I have 
no Sullivan's in my family, just in case you are curious.
    Dr. Sullivan. We can lend you some.
    Senator Booker. I would like that a lot. I wrote a letter 
to NOAA in March regarding the emergency recommendations from 
the Mid-Atlantic Fishery Management Council on recreational 
catch limits for the blueline tilefish.
    Since then, the South Atlantic Fishery Management Council 
has recommended to NOAA an one fish per vessel per day 
recreational limit, not only within its own jurisdictional 
boundaries, but throughout the Mid-Atlantic and New England 
regions as well.
    I am sensitive, very sensitive to the importance of 
protecting against overfishing. This recommendation is highly 
irregular, and I am concerned it may have severe impacts on New 
Jersey recreational fishers.
    As NOAA works to implement an interim rule based on the 
best available science, can you help ensure that the 
recreational catch limits are measures that would curb rather 
than close the fishery while the Mid-Atlantic Fishery 
Management Council develops their own long-term management 
plan?
    Dr. Sullivan. I will have to probe the administrative 
mechanics out a little more carefully, Senator, before I can 
give you a definitive answer, and let me apologize that our 
response to your letter has been delayed by this added 
complexity of the other Council's inputs.
    We are looking at the new inputs in the context of your 
letter and the earlier request from the Atlantic Council. I 
will be happy to get you a more detailed answer back on that.
    Senator Booker. For the sake of time, I have one more 
question, but I can submit it to the record. I see Mr. Sullivan 
is settling in right now. I will take this time to embarrass 
him that his daughter just got accepted to the best university 
in the United States of America, outside of New Jersey, which 
is Stanford University. How he raised a Stanford woman, I do 
not know. It must be to his wife's credit.
    Senator Markey. Can I also say, it further reinforces what 
my mother said, the Sullivans are a very----
    [Laughter.]
    Senator Sullivan. We are related, are we not? It was all 
due to my wife.
    Senator Rubio. Senator Sullivan, are you ready for your 
questions?
    Senator Sullivan. I am going to take a minute, if I can, 
Mr. Chairman.
    Senator Rubio. Do jump in.
    Senator Booker. I will try to go through this as quickly as 
possible. The Prescott grant program was enacted in 2000 to 
help defray the high costs of recovery and rehabilitation of 
marine mammals, including participants in the Marine Mammal 
Stranding Network. The Prescott program allows eligible 
Stranding Network participants to use the funds not only for 
marine mammal recovery and treatment, but also for the 
collection of scientific data from live and dead animals.
    My understanding is some of this data is valuable not only 
to marine mammal research but also to NOAA fish scientists. 
That is really important. They can tell a lot about the changes 
in the range, the abundance, the importance of fish species, 
from dolphins and other marine mammals that they have eaten.
    As important as a standard these network activities are, I 
was surprised to learn that NOAA consistently requests 
decreases in appropriations for the Prescott grants, which 
seemed to my staff and me as sort of counterintuitive.
    For Fiscal Year 2016, you have requested a decrease of $1.9 
million. For Fiscal Year 2015, you requested a decrease of $2.5 
million. For Fiscal Years 2013 and 2014, you requested a 
decrease of almost $4 million, and the termination of this 
program.
    Can you clarify for me where NOAA is in terms of support 
for what I perceive as a very important program?
    Dr. Sullivan. We certainly do value that function and we 
have very much valued the contributions that the Prescott 
partners have made over the years. In the face of the tough 
budget times we are all navigating through, we all have to 
sometimes make some tough choices, and in this area, what we 
have looked at doing is trying to sustain the core Service 
function that NOAA provides for the aggregation of that. Many, 
I would say probably most of those networks are very effective 
private fund raisers and leverage money very well. They will 
continue to do that, we hope and believe, but the amount of 
funding we can support them with each year is just very tight. 
They are not decisions we make lightly.
    Senator Booker. Dr. Sullivan, thank you. Mr. Chairman, 
thank you for the latitude.
    Senator Rubio. Senator Sullivan?

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. I want to thank 
the Ranking Member as well for his nice help this morning, 
appreciate that very much.
    Dr. Sullivan, great to see you again. I have a number of 
questions that I wanted to cover. First, I wanted to start with 
the North Pacific observer program, which I think you are very 
familiar with.
    I know you recognize in Alaska--I like to refer to us as 
the super power of America's seafood/fishing industry. As you 
know, we harvest over half of all fish in the United States, 
coming from the waters off the coast of Alaska. It is 
critically important for my constituents, and a huge employer 
as well, really important industry for coastal communities.
    One of the issues we have had, I understand how important 
the observer program is, but the way in which particularly with 
smaller vessels, smaller crews, how having an actual physical 
observer on the boat can cause all kinds of issues, can cause 
bunk space issues. I have talked to fishermen in Alaska who 
actually have to share bunk space with an observer, believe it 
or not.
    Are we making any progress with regard to using in camera 
systems as opposed to having observers on every vessel? It is a 
huge issue in my state.
    My understanding, and I might be wrong on this, is other 
regions of the country have had kind of hardship waivers that 
relate to small boats with regard to observers, and yet we have 
not seen any of that in Alaska, where I think if there is a 
fleet that has actually been impacted by this, it is the Alaska 
fleet.
    Can you comment on any of those issues, please?
    Dr. Sullivan. Certainly, and it is good to see you again 
also, Senator. I am not familiar with the distribution of 
hardship waivers elsewhere through the NMFS regions. I will 
have to get back to you on that.
    Senator Sullivan. OK.
    Dr. Sullivan. With respect to trying to proceed to 
electronic monitoring and electronic reporting systems, we are 
working on that. As I said earlier, we have now a national 
strategy. We have a regional implementation plan, including one 
that covers Alaska.
    We have requested a small increase in funds in our Fiscal 
Year 2016 budget aimed at trying to accelerate the testing, 
validation and calibration of these systems so that we can 
determine to what degree can we rely on them, to what degree 
could they completely replace a human observer, in what 
instances can they not replace altogether an observer but ease 
the burden in various ways.
    We are keenly aware of the concerns of the small boat fleet 
and the Alaska fleet specifically. We will continue to advance 
these technologies as rapidly as we can within available 
resources.
    Senator Sullivan. ``As rapidly'' is the key issue. Again, 
it is a huge issue with our fleet. I think there are a lot of 
people who are starting to lose patience on it. I think we have 
the technology to move forward with regard to the electronic 
monitoring, and we want to be working closely with you on that.
    You and I have discussed national ocean policy previously. 
I am somebody who thinks that looks like another regulatory 
burden with regard to our fleet. Do you have anticipated costs 
with regard to the national ocean policy obligations?
    The other thing that I think is important for you to be 
able to lay out for this committee, where in the statute does 
NOAA have the ability to take these very valuable resources in 
terms of your authorizing statute and conduct a pretty broad-
based regulatory system with regard to national ocean policies?
    I might be wrong, but I do not believe it has been approved 
or authorized by the Congress.
    Dr. Sullivan. Senator, with respect, I would disagree with 
the characterization that the national ocean policy is a 
regulatory regime. The policy directed all of us Federal 
agencies to more clearly and efficiently align and augment our 
efforts across our boundaries, remove some of the seams, that 
we frankly had heard from constituents in coastal zones were 
annoying and pernicious.
    With respect to NOAA's specific activities, the activities 
that we laid out in the matrix of what elements of the mandates 
and work that we currently do under existing authorities are 
pertinent to these aims of being more coherent in the Federal 
families' work in the coastal zone.
    With respect to NOAA, the activities that we would count as 
pertinent to national ocean policy are ones that are long-
standing, underway for many years and decades, and clearly 
aligned to our existing authorities. They do not in our case 
come with regulatory hammer or trigger of any sort.
    Senator Sullivan. Mr. Chairman, do I have time to ask one 
more question? It is kind of an important issue.
    Dr. Sullivan, I wanted to actually ask one final question 
and it involves the Endangered Species Act, and what is an 
increased incidence--I have seen this both as Alaska's attorney 
general and a DNR commissioner there.
    What we refer to in Alaska as Federal agencies listing 
species, what is called ``climate based listings.'' It goes 
something like this, where there is a healthy species in 
Alaska, there is no sign of a decline in the species numbers, 
yet based on modeling, on climate change, Federal agencies are 
now saying well, we know that species looks healthy right now, 
there is no physical decline in the species, which by the way 
is required by the EAS to list a species, and yet we are 
looking at climate forecasts in the future that will have an 
impact on these species, so based on a computer modeling, we 
are going to list the species anyway.
    As you can imagine, in the only Arctic state in America, we 
have big issues with regard to climate based listings. (A) I do 
not think they abide by the law, but (B) they seem limitless. 
What species in Alaska, if you are going to predict modeling 
and climate change 10, 20, 30, 40 years from now, could not be 
listed under a model that does not require species to actually 
physically be declining?
    Do you think that species can be listed solely on the basis 
of computer models when there is no evidence of physical, 
actual physical decline under the Endangered Species Act?
    If you do, show me the provision in the Endangered Species 
Act that allows that kind of listing.
    Dr. Sullivan. We have had this discussion before and you 
have put that question to me before, Senator. I have fallen 
short of my IOU to go do that homework and look at the statute 
more carefully.
    My understanding from my best experts is at least with 
respect to identifying threatened species, that a physical 
decline trigger is not required by the statute. I will rewrite 
my homework assignment and be sure I get back to you on that 
one.
    Senator Sullivan. It is just not NOAA. It is a lot of the 
Federal agencies. As you can imagine, it is a huge concern in 
my state because you put big critical habitat destinations 
around these species, which limit all kinds of activity. It 
seems like it is a limitless approach to listing species that 
is not based on the law.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you. Thank you for your testimony 
today, Dr. Sullivan. I want to ask the other panel to move 
forward now, but I wanted to thank you for being here today and 
the time you have given us.
    Our second panel is Mr. Robert Beal, who is the Executive 
Director of the Atlantic State Marine Fisheries Commission, 
which was authorized by Congress in 1942, and is comprised of 
15 Atlantic coast states.
    Mr. Brett Fitzgerald is the Executive Director of the Snook 
and Gamefish Foundation, which has played a leading role in 
Smartphone technology that allows anglers to record catches.
    Dr. Steven A. Murawski is a Professor and Peter Betzer 
Endowed Chair of Biological Oceanography at the University of 
South Florida. It is a position he has held since 2011.
    I want to welcome all of you here. You will each have about 
5 minutes for your opening statements. Your full statements 
will be included in the record of the hearing.
    With that, I will begin with you, Mr. Beal. Thank you for 
being here.

 STATEMENT OF ROBERT BEAL, EXECUTIVE DIRECTOR, ATLANTIC STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Beal. Good afternoon, Chairman Rubio, Ranking Member 
Booker, and members of the Subcommittee. I am Robert Beal. I am 
the Executive Director of the Atlantic States Marine Fisheries 
Commission.
    The 15 Atlantic coastal states formed the Commission in 
1942 to cooperatively manage their shared marine resources.
    It is a pleasure to appear before the Subcommittee today to 
comment on the critical need for reliable fisheries data and 
opportunities for improvement.
    The foundation of U.S. marine fisheries management is 
strong science. The Commission relies on quality data to 
support its 26 fishery management programs. Sustainable 
management and stakeholder confidence rely on accuracy, 
reliability, and timeliness of data.
    Given the Atlantic coastal fishery resources provide 
billions of dollars of economic activity, hundreds of thousands 
of jobs, as well as food and recreation, it is essential for 
resource managers to seek innovative methods and approaches to 
collect and utilize fisheries data.
    Over the past two years alone, the Commission has conducted 
nine benchmark stock assessments that provide population 
assessments to support future decisions. The Commission 
completed the first coast-wide benchmark black drum stock 
assessment, which enabled us to move from unknown stock status 
to a determination that found the stock is not overfished and 
overfishing is not occurring.
    Due to the availability of robust data on a regional scale, 
the stock benchmark assessment shifted from coast-wide 
assessment to a regional assessment, providing a more accurate 
reflection of local differences, life history characteristics, 
and selectivity patterns.
    Last, improved data and assessment capabilities yielded a 
much improved and more credible Atlantic menhaden assessment, 
establishing the foundation for the Commission to move forward 
with development of ecologically based reference points.
    These are just three examples of advancements that the 
Commission has been able to make due to availability of robust 
science.
    Stock assessments today are growing in complexity as 
managers grapple with the fact that fishing pressures is only 
one part of the story. Stock distribution shifts to changing 
water temperature, habitat degradation, and hypoxia must also 
be considered.
    On the East Coast, the Commission has been at the forefront 
of developing innovative approaches to assess and manage 
fishery resources. Our Atlantic Menhaden Board is in the 
process of developing reference points that balance menhaden's 
ecological role with the needs of harvesters.
    The Commission's horseshoe crab management program is the 
first to use the adaptive resource management model to balance 
the competing needs of threatened migratory shore birds, 
horseshoe harvesters, and the biomedical community to set 
annual specifications.
    Unfortunately, due to decreases in funding, the annual 
horseshoe crab survey has been discontinued for the last two 
years.
    The Commission along with the Atlantic Coastal Cooperative 
Statistics Program, ACCSP, is working hard to make data 
collection and management more nimble, creative, and efficient. 
ACCSP is a cooperative state-Federal marine fisheries data 
collection program that integrates data from multiple state and 
Federal sources into a single data management system to meet 
the needs of the fishery managers, scientists, and the fishing 
industry.
    ACCSP has created a system called ``SAFIS,'' Standard 
Atlantic Fisheries Information System. SAFIS currently includes 
approximately 5.6 million dealer reports, 1.3 million trip 
records, and over 10,000 volunteer angler records.
    As part of SAFIS, they have developed four standardized 
electronic reporting tools that can be used by the partners. 
The first is electronic dealer reporting. This is a web-based 
application to allow dealers to enter electronic reports, and 
the data is directly loaded into the ACCSP database.
    The second is a single trip reporting system, another web-
based application, that provides the ability to collect the 
same data as the electronic dealer reporting, however, the 
harvester and dealer report data on the same form and 
simultaneously creates both of the report.
    Electronic trip reporting or eTRIPS, is a web-based 
application that compiles catch and effort data from 
harvesters, and similar to eDR, this allows interactive reports 
to be made to illustrate the progress and history of catch and 
effort. This is also available on a mobile version through 
ACCSP.
    The final tool developed by SAFIS is volunteer recreational 
logbooks, which you will hear more about later.
    The SAFIS applications I just mentioned are available 
through ACCSP partners at no cost. It is estimated that SAFIS 
results in as much as $10 million in cost avoidance for our 
member states for data management and software development, and 
avoidance of up to $3 million in annual ongoing maintenance.
    Another important tool to better understand fisheries and 
their use by recreational anglers is NOAA's Marine Recreational 
Information Program. Since 2007, NOAA Fisheries has made 
significant improvements in recreational data collection. While 
the current program is a vast improvement over previous 
estimates, there is still work to do.
    In 2016, the catch estimate portion of the MRIP will be 
transferred over to the states. This survey requires person to 
person interaction on the docks and other fishing sites to 
identify catch and effort recreational anglers. Based on the 
experience in other parts of the country, state conducts has 
resulted in greater improvement in data quality, better sense 
of involvement by participating states, and more confidence in 
the data by the anglers.
    Beginning in 2016, all states, Maine to Florida, will be 
conducting this survey individually at the state level.
    The second development in NOAA Fisheries is the transition 
of the effort survey from a land line phone survey to a mail 
survey. Previously, this was all estimated through a random 
digit dialing in coastal communities. This approach had a 
number of shortcomings, including decline in response rates to 
telephones in increasing proportions to households that only 
used cell phones.
    Recently completed pilot studies show mail surveys are a 
much better tool for capturing fishing effort by increasing 
response rates, reaching a broader population of anglers, and 
improving response accuracy.
    In closing, timely and accurate fishery data and 
independent data are essential to the success of fisheries 
management in the United States. The Commission, ACCSP, and our 
state and Federal partners are committed to seeking innovative 
and cost effective approaches to address our data collection 
and management needs.
    We stand ready to assist you and the members of the 
Subcommittee in any way we can to further our shared objective 
of effectively and sustainably managing Atlantic Coast 
fisheries resources.
    [The prepared statement of Mr. Beal follows:]

Prepared Statement of Robert Beal, Executive Director, Atlantic States 
                      Marine Fisheries Commission
    Chairman Rubio and Members of the Subcommittee,

    I am Robert Beal, Executive Director of the Atlantic States Marine 
Fisheries Commission (Commission). The Commission is a management 
entity comprised of the 15 Atlantic coast states, five of which are 
represented on this Subcommittee. The Commission provides a forum for 
interstate cooperation on marine fisheries that cross state borders and 
thus cannot be adequately managed by a single state. Congress 
authorized the Commission in 1942, and granted us management authority 
over Atlantic striped bass in 1984 with the Atlantic Striped Bass 
Conservation Act. Congress then expanded our management authority to 
include all Commission fishery management plans with the Atlantic 
Coastal Fisheries Cooperative Management Act (Atlantic Coastal Act) in 
1993.
    I commend the Chairman and the Subcommittee for recognizing the 
importance of robust data in fisheries management. Data, both fishery-
dependent (catch and effort) and fishery-independent (collected through 
scientific surveys), provide the basis for marine fisheries management 
in the United States. Over the past two years alone, the Commission has 
conducted nine benchmark stock assessments that provide population 
estimates that will be the basis for management of these species for 
years to come. The black drum assessment, which was the first coastwide 
assessment for this species, enabled us to move from an unknown stock 
condition to one that was found to be not overfished nor experiencing 
overfishing. Data for this assessment included commercial landings 
extending all the way back to the early 1900s. Due to the availability 
of robust data at the regional scale, the tautog benchmark assessment 
shifted from a coastwide assessment to a regionally based assessment of 
this locally-resident species, providing a more accurate reflection of 
regional differences in life history characteristics and harvest 
patterns, as well as reducing the risk of overfishing. Lastly, improved 
data and assessment capabilities yielded a much improved and more 
credible Atlantic menhaden assessment, establishing the foundation for 
the Commission to move forward with the development of ecologically-
based reference points to manage the menhaden resource. These are just 
three recent examples of what can be achieved when we have access to 
timely and accurate fisheries data. With another 23 species that fall 
under the Commission's purview, the ultimate success of these programs, 
in terms of sustainable management and stakeholder confidence, lies in 
the accuracy, reliability, and timeliness of the data we use to inform 
our stock assessments and decision making. Without quality and timely 
data, we cannot successfully manage America's fisheries.
    Given that Atlantic coastal fishery resources generate billions of 
dollars of economic activity and hundreds of thousands of jobs in our 
coastal communities, as well as food and recreation, it is essential 
for resource managers to seek innovative methods and approaches collect 
and utilize fisheries data.
Evolving Management, Increasing Data Demands
    Stock assessments today are growing increasingly complex as 
managers grapple with the fact that fishing pressure is only one part 
of the story. Stock distribution shifts due to changing water 
temperatures, habitat degradation, and hypoxia need to be considered. 
Further, we are just beginning to understand how the rise or fall of 
one stock can impact other stocks or ecosystems at the regional scale. 
Until recently, management measures that account for other factors 
outside fishing pressure were simply not possible.
    On the East Coast, the Commission has been at the forefront of 
developing innovative approaches to assess and manage fishery 
resources. Our Atlantic Menhaden Board is in the process of developing 
ecological reference points that balance menhaden's role as a forage 
species with its use by reduction fisheries and bait harvesters. The 
Commission's horseshoe crab management program is the first to 
incorporate ecosystem principles, such as shorebird and horseshoe crab 
abundance levels, to set annual harvest levels for horseshoe crabs of 
Delaware Bay origin. Red knots, the shorebird that most relies on 
horseshoe crab eggs for food, was listed as threatened under the 
Endangered Species Act in 2014. The Commission's management program, 
which uses Adaptive Resource Management (ARM) to set annual 
specifications, was cited as one of the main reasons red knot was not 
listed as endangered. Unfortunately, the ARM Framework's utility is 
currently threatened due to funding shortfalls that have curtailed the 
conduct of the Horseshoe Crab Trawl Survey in 2013 and 2014. Data 
derived from the Survey are a critical component of the ARM Framework 
as it is the only long-term source of adult abundance indices. Both are 
excellent examples of how the Commission and the states can adaptively 
respond to stakeholder demands to address predator/prey interactions 
and ecological services. Neither effort, however, can be accomplished 
without robust data. As funding to critical data sets diminishes, so 
too does our ability to respond innovatively to increasing management 
challenges.
Current Data Collection Programs and the Role of New Technologies in 
        Improving the Management Process
    With regards to how new technologies can help fishery managers 
achieve better and more timely information, the Commission, along with 
the Atlantic Coastal Cooperative Statistics Program (ACCSP), is working 
hard to make data collection and management more nimble, creative, and 
efficient.
Atlantic Coastal Cooperative Statistics Program
    ACCSP is a cooperative state-federal marine fisheries statistics 
data collection program that integrates data from multiple state/
federal sources into a single data management system to meet the needs 
of fishery managers, scientists, and the fishing industry. ACCSP was 
established to be the principal source of fishery-dependent information 
on the Atlantic coast. ACCSP provides data for a number of fisheries 
management purposes. These include: fishery management plans, dealer 
reporting compliance; quota and compliance monitoring; stock 
assessments; landings history and trends (e.g., track past commercial 
catch levels by state, revenue data by vessel); fishery 
characterizations; catch-per-unit-effort indices; and fishery 
participant information. ACCSP is housed within the Commission but 
functions separately. The Commission is a founding partner of the 
ACCSP, and provides administrative and logistical support services to 
ACCSP.
    In 2003, ACCSP created the Standard Atlantic Fisheries Information 
System (SAFIS), an online electronic reporting system designed to meet 
the increasing need for real-time commercial landings data. In 2004, 
NOAA Fisheries Northeast Region (now the Greater Atlantic Regional 
Fisheries Office or GARFO), adopted SAFIS for federally permitted 
seafood dealers, encompassing dealers from Maine to North Carolina. 
Over time, the use of SAFIS has expanded throughout the Northeast 
(implemented from Maine to Connecticut), the Mid-Atlantic (New York, 
New Jersey, and Delaware) and South Atlantic (South Carolina and 
Georgia) to become the de-facto dealer reporting system. Also, as part 
of the ongoing NOAA Fisheries Data Visioning projects, there is a 
renewed commitment to improve the linkages between Federal data 
collection efforts and ACCSP.
    SAFIS can be deployed to its partners at no direct cost. It is 
estimated that SAFIS results in as much as $10 million in cost 
avoidance for our member states for data management and software 
development, and up to $3 million in annual ongoing maintenance. To 
date, SAFIS includes over seven million records available for managers 
for quota monitoring and compliance. At the end of February 2015, this 
included approximately 5.6 million dealer reports, 1.3 million trip 
records, and over 10,000 volunteer angler records.
    Where electronic reporting has been comprehensively deployed, much 
of the need for more timely and accurate data in dealer and fisherman 
reporting has been resolved. Agencies that are using the system are 
better able to manage quotas and perform compliance monitoring. 
Improved data on the activities of individual license holders will make 
the creation and management of limited entry fisheries, when desired by 
the states, much more timely and accurate. The standardization of 
coding has greatly reduced the amount of time needed to create the 
consolidated data sets that are needed for larger scale management and 
assessment activities.
    However, many agencies are still using a mixture of conventional 
(paper) reporting and electronic reporting, significantly limiting the 
ability to provide accurate, real-time data for management purposes 
since paper reports can take several months or longer to receive and 
process. While they are in process, it's necessary for managers to 
estimate catch that is reported on paper. This can lead to errors that 
can negatively impact fisheries and the fishing industry.
    In 2010, ACCSP launched a completely revised version of SAFIS to 
address user needs for a faster, more flexible application. Some of the 
major enhancements and associated benefits include:

  <bullet> Up-to-date information on species caught and their impact on 
        fisheries and quotas

  <bullet> Confidential access to data-of-record by harvesters and 
        dealers

  <bullet> Access to state and Federal reporting requirements through 
        online data entry that eliminates duplicative reporting to 
        state and Federal agencies and prevents double counting.

  <bullet> Integrated highly migratory species reporting

  <bullet> Automatically generated pricing information

  <bullet> Flexibility in creating favorites (e.g., species, gears, 
        fishermen, dealers, and disposition)

  <bullet> Management tools to facilitate maintenance of partner-owned 
        data such as participants, online permits, and vessels.

    These benefits are further confirmed by ACCSP's program partners:

        ``Without ACCSP, MA DMF would be hard-pressed to collect 
        comprehensive, trip-level data in the manner that it does. This 
        information is used in multiple ways to characterize the 
        fisheries that occur in Massachusetts, and is a critical piece 
        in the management process. Previously, information was 
        collected only about specific fisheries, and it wasn't always 
        done in a standardized way. Now the information is 
        comprehensive, standardized, and it is also available to all 
        other program partners as well.''

        --Tom Hoopes, Chair of the ACCSP Operations Committee and 
        Program Leader for the Management Information Systems and 
        Fisheries Statistics Program of MA DMF

        ``ACCSP has created applications that allow state and Federal 
        partners to feed fisheries-dependent data into a single 
        repository with all data being held to the same standards. 
        Additionally, all data housed by ACCSP is subject to quality 
        assurance and quality control protocols. These features allow 
        managers to query fishery-dependent data on a coast-wide basis 
        and provide a certain level of confidence in the data being 
        used which is essential for coastwide and regional stock 
        assessments.''

        --Nicole Lengyel, Chair of the ACCSP Biological Review Panel 
        and the Bycatch Prioritization Committee and Principal 
        Biologist with RI DFW

    Initially developed as a dealer reporting system, SAFIS has grown 
to include five distinct applications to gather commercial and 
recreational information. These five applications (eDR, e-1 Ticket, 
eTRIPS, eLogbook, and SMS) function independently, but all are 
maintained within the same database and share standards and codes that 
are ACCSP-compliant. Below is a description of each of the SAFIS 
applications, as well as the partners that are implementing the 
application as of February 2015.
1. Electronic Dealer Reporting (eDR)
    The electronic dealer reporting application was the first 
application developed and implemented. eDR is a web based application 
that allows dealers to enter an electronic dealer report. Fields that 
must be entered for a completed report include harvester, port, date 
landed, time landed, date purchased, vessel number, species, 
disposition, gear, quantity, and price. When reports are completed 
electronically an interactive report can be made to view progress and 
history of landings. It was first launched by GARFO for Federal 
fisheries. This application is also employed by Maine, New Hampshire, 
Massachusetts, Rhode Island (the first state to implement eDR), 
Connecticut, New York, Delaware, and New Jersey.
2. Single Trip Ticket Reporting (e-1Ticket)
    e-1Ticket is a web-based application providing the ability to 
collect all of the same data collected through a 2-ticket system (eDR), 
however the harvester and dealer report data on a single form and 
simultaneously create a dealer report. e-1Ticket combines elements of 
both trip (vessel and/or harvester) and dealer reporting into a single 
application that emulates the standard practice in the southeast. South 
Carolina, Georgia, and NMFS--SE are currently employing the e-1Ticket 
application.
3. Electronic Trip Reporting (eTRIPS)
    eTRIPS is a web-based application that compiles catch and effort 
data from harvesters. Trip reports, or logbooks in some fisheries, 
provide catch and effort data from a permitted fishing entity 
(harvester or a business) or a single vessel. Trips may be categorized 
as commercial or for-hire (party/charter).
    This application allows harvesters to create trip reports after 
entering in the required fields in the trip, effort, and catch 
categories. Similar to the eDR application, interactive reports can be 
made to illustrate progress and history of catch and effort. eTRIPS was 
developed to meet the complex needs of collecting catch and effort data 
from harvesters. This application is now employed by Massachusetts, 
Rhode Island, Connecticut, New York, and New Jersey.
    In 2014, ACCSP developed a mobile version of eTrips which is run on 
tablet computers which is currently used in Rhode Island. This handheld 
application greatly reduces the reporting burden on harvesters, 
improves data accuracy, and results in timelier reporting.

        ``From a stock assessment point of view, DFW is optimistic that 
        the discard data generated from the new mobile application 
        would fill a gap for party and charter boat discard data which 
        is currently not collected. And lastly, captains would like 
        more efficiency in data reporting and the ability to report 
        online as opposed to paper. Most of the party and charter boat 
        captains in Rhode Island have Federal vessel trip requirements. 
        Everyone sees the mobile application as a good first step to 
        allowing them to report that data online, meet Federal 
        requirements, as well as giving DFW more timely access to the 
        data. Overall, better data, better decisions.''

        --John Lake, Principal Biologist with the Rhode Island Division 
        of Fish and Wildlife Marine Fisheries

4. Voluntary Recreational Logbooks (eLogbook)
    eLogbook was first developed as a part of the Striped Bass Bonus 
Program in New Jersey. This application is a powerful way to empower 
anglers in the data collection process. eLogbook formulates summaries 
of information on all species caught by the angler. This application is 
now employed by Massachusetts, Rhode Island, New York, Connecticut, and 
Delaware.
5. SAFIS Management System (SMS)
    SMS is a web-based application providing administrative tools to 
SAFIS administrators for management of information such as user 
accounts, participants, or permits. It is often used to monitor quotas.
How Are the Data Used?
    SAFIS data are used to support fisheries stock assessments and 
management activities. Since 1995, ACCSP has contributed data to over 
30 stock assessments along the Atlantic coast. During 2014, the Data 
Team provided landings and biological data for use in a number of 
benchmark stock assessments, including American lobster, black drum, 
red drum, red snapper and gray triggerfish, and South Atlantic shrimp 
stocks.
    ACCSP data have also been used to:

  <bullet> Compile commercial landings data for NOAA Fisheries annual 
        publication of Fisheries of the United States.

  <bullet> Supply annual summaries of Eastern oyster landings for 
        Maryland for 2010-2013 for use by the Louisiana Legislative 
        Auditor

  <bullet> Respond to media inquiries on the number of active 
        harvesters and the average age of the harvesters; determining 
        the socioeconomic impacts of various management and industry 
        regulations; and Chesapeake Bay-specific commercial landings 
        for use in the film ``Life on the Edge: America's Atlantic 
        Coast.''

  <bullet> Provide aggregated trip data by geographic zone to the 
        Bureau of Ocean Energy Management to inform discussions on the 
        potential siting impacts of wind energy farm projects off the 
        Atlantic coast.

  <bullet> Compile market values of Atlantic striped bass for Maryland, 
        Virginia, and North Carolina for an Environmental Defense Fund 
        report.
Positive Reviews from Industry on Electronic Reporting
    In the fall of 2012, ACCSP brought together harvesters, dealers, 
and fisheries managers to better understand the potential pros and cons 
of electronic reporting. Electronic reporting by harvesters and dealers 
clearly has its advantages. Fisheries managers have access to more 
timely data, allowing them to better monitor catch and more closely 
manage quotas. Scientists benefit from more detailed and precise data. 
Lastly, law enforcement officers can more easily track regulatory 
compliance.
    The first initiative of the ACCSP-convened group was to design a 
survey, which was distributed from December 1, 2012 to July 14, 2013, 
to collect attitudes and opinions on electronic reporting systems 
through the eyes of industry.

        ``Fishermen and data managers both appear to have strong 
        opinions on electronic reporting programs, so this project was 
        begun to describe those opinions and better understand their 
        basis.''

        --John Carmichael, Project Lead and Science and Statistics 
        Program Manager for the SAFMC

    Overall, the survey illustrated there are significant benefits to 
harvesters and dealers no matter how they report electronically. The 
survey question with the most compelling set of responses was: ``If you 
have experience with electronic reporting, please share with us the key 
advantages.'' After reviewing nearly 2,000 responses, it became evident 
industry members too thought there were huge advantages to electronic 
reporting, including:

  <bullet> Reduces stress by eliminating the need to search for old 
        paper reports. Data are easily accessible and readily organized 
        to quickly print out landings records for the purpose of 
        business planning and tax preparation.

  <bullet> Increases confidence in reporting. Once a fishing report has 
        been entered, users immediately receive a confirmation of 
        submitted information to verify data input and keep for their 
        records.

  <bullet> Ensures reliability by flagging conspicuous errors before 
        report submission, allowing users (harvesters and dealers) to 
        correct them.

  <bullet> Provides a measure of security since inputted data are 
        stored on external servers in the event an inputter's personal 
        computer crashes. As one respondent said, ``It's a great 
        feeling knowing my data are backed up in a database.''

  <bullet> Allows for quick data entry. Data are saved in the system so 
        that when you go back in to enter new report information, you 
        don't have to reenter basic information. As one respondent 
        said, ``All of my information is already saved into my 
        favorites. All I do is enter the date, species, pounds, and hit 
        save and I am done!'' Also, each state and Federal system is 
        designed to gather the information that is relevant to your 
        area, so there is no unnecessary data entry.

  <bullet> Provides convenience since it can be done anywhere (from 
        home or while in the field). As one respondent said, ``I report 
        at the end of each day so there is no need to scramble to get a 
        paper report done all at once. Doing an 'all-at-once' paper 
        report requires gathering all the slips from the week, which 
        can be quite insane.'' SAFIS is the only web-based electronic 
        reporting system that is available from any computer and can be 
        used without downloading additional software.

  <bullet> Improves efficiency and is economical, freeing up time for 
        harvesters and dealers to conduct their businesses.
Improving the Marine Recreational Information Program
    Another important tool to better understand fisheries and their use 
by recreational anglers is NOAA Fisheries' Marine Recreational 
Information Program (MRIP). Recognizing the need for better 
recreational effort data, NOAA Fisheries commissioned an independent 
review of its recreational fishing survey in 2006 through the National 
Research Council (NRC). One year later, Congress required NOAA to 
implement the study's recommendations, including the creation of a 
national saltwater angler registry. While the resulting Marine 
Recreational Information Program (MRIP) was a vast improvement over 
previous estimates, there is still work to do to further improve the 
program and the data it provides. Two recent developments have the 
potential to significantly improve the accuracy of, and stakeholder 
confidence in, recreational fishing effort and landings estimates. The 
first development involves transitioning conduct of the catch estimate 
portion of MRIP known as the Access Point Angler Intercept Survey 
(APAIS) to all of the Atlantic states.
    APAIS is one of the most crucial components of estimating 
recreational catch and discards. It requires person to person 
interaction on docks and other fishing sites to identify catch and 
effort of recreational anglers. The Atlantic coast remains the only 
area in the continental U.S. where the APAIS angler interviews are 
still conducted by MRIP's contractors. Shifting APAIS to the states in 
the Gulf of Mexico has resulted in substantial improvements in data 
quality, a better sense of involvement by the participating states, and 
more confidence in the results by the interviewed anglers.
    Beginning in 2016, all coastal states from Maine through Georgia 
will transition to conducting APAIS to collect information on marine 
recreational fishing catch and effort data in their own waters. Over 
the past decade several states (e.g., Maine, New Hampshire, 
Massachusetts, North Carolina, South Carolina and Georgia) have 
successfully improved data quality, and stakeholder confidence in that 
data, through greater state involvement with APAIS contractors.
    Based on these successes, the states, through ACCSP and the 
Commission, approved a plan to transition to state conduct of APAIS in 
2016. The plan details the transition from the current NOAA Fisheries 
contractor to ASMFC/ACCSP and state conduct of the APAIS. Under this 
plan, NOAA Fisheries will retain primary accountability for APAIS and 
will be responsible for survey design, catch and effort estimation, and 
public dissemination. The Commission and ACCSP will act as the central 
coordinators of the state-conducted APAIS and will be responsible for 
data entry, compilation, quality control/quality assurance, as well as 
formatting and delivering intercept data to NOAA Fisheries. States will 
oversee and manage field collection, which will be conducted by state 
or Commission employees in accordance with APAIS standard data 
collection protocols.
    NOAA Fisheries is also transitioning parts of the effort survey it 
administers from a landline phone survey to mail survey. In the past, 
MRIP has estimated effort through the Coastal Household Telephone 
Survey (CHTS), which randomly targets households with landlines in 
coastal counties. As you can imagine, this methodology has a number of 
shortcomings, including declining response rates to household telephone 
surveys generally and the increasing proportion of households that only 
use cell phones. Recently completed pilot studies indicate mail surveys 
are a much better tool for capturing recreational fishing effort by 
increasing response rates, reaching a broader population of anglers, 
and improving response accuracy. The pilot studies also found the new 
survey resulted in considerably higher estimates of fishing effort, 
which in turn will result in correspondingly higher estimates of catch. 
What this means is that once the new survey is ready for 
implementation, which will take two to three years in order to align 
the new estimates with the historical data series, there could be 
significant stock assessment and management implications. In order to 
develop the most appropriate way to transition from historical to 
improved survey designs, NOAA Fisheries has formed a Transition Team, 
composed of representatives from the Regional Councils, Interstate 
Commissions, and state partners, to design an implementation plan for 
the new mail survey.
    In order to assess MRIP's progress in addressing the NRC's 2006 
recommendations, the MRIP Executive Steering Committee, of which the 
Executive Directors of the three Interstate Commissions are members, is 
pleased that a new NRC review is scheduled to be conducted next year. 
It is my hope the review will find MRIP's accomplishments, including 
changes to APAIS administration and the effort survey, are vast 
improvements from its predecessor, the Marine Recreational Fisheries 
Statistics Survey. While these improvements have been a long time in 
coming, they represent time well spent in ensuring recreational fishing 
and effort estimates are accurate and best meet the needs of fisheries 
scientists, managers, and the angling public.
    In closing, timely and accurate fishery-dependent data, in 
conjunction with robust fishery-independent data, are essential to the 
success of marine fisheries management in the United States. The 
Commission, ACCSP, and our state and Federal partners are committed to 
seeking innovative and cost-efficient approaches to address our data 
collection and management needs. We stand ready to assist you and the 
members of this subcommittee in any way we can to further our shared 
objective of effectively and sustainably managing Atlantic coast 
fishery resources.

    Senator Rubio. Thank you. Mr. Fitzgerald?

 STATEMENT OF BRETT FITZGERALD, EXECUTIVE DIRECTOR, SNOOK AND 
                      GAMEFISH FOUNDATION

    Mr. Fitzgerald. Thank you very much, Chairman Rubio and 
Ranking Member Booker, staff members. My name is Brett 
Fitzgerald. I am the Executive Director of the Snook and 
Gamefish Foundation. I live in Lake Worth, Florida.
    I was asked to kind of tell the story of our Angler Action 
Program, which is a recreational data collection system, in the 
hopes that might help shed some light on the progress toward 
innovations in fish reporting.
    In 2010, as Senator Rubio knows, Florida dealt with a 
historical event that led to temperature drops that had an 
impact on a lot of wildlife, including gamefish and 
specifically of our interest, snook.
    Biologists asked us to see if we could figure out what 
fishermen in Florida were catching when they were targeting 
snook to see if they could get a handle on the population.
    Based on that ask from them, we got together with 
scientists from Florida's Wildlife Commission, Texas Parks and 
Wildlife, there were some NOAA scientists that contributed as 
well, and a lot of fishermen, and developed a logbook system 
where snook fishermen could record what they were catching at 
that time.
    It was kind of a rudimentary process. It was just a paper 
process based on an old logbook system, and we built a website 
that corresponded so they could transpose their data.
    After a year's time, we had enough snook directed data, and 
an interim stock assessment was done, and we were asked to 
provide our data to the state. That data was used in the stock 
assessment, particularly in the released/discarded fish data, 
the location and size of the fish that were released.
    We were asked to continue the program, which we did, and 
the next year a full stock assessment was done and the data was 
asked for again, and the data was used again for the state 
level stock assessment.
    To our knowledge, that is the first and only recreational 
database that was developed outside of a state and used at that 
level.
    We were asked to expand to other species and improve the 
technology, so we did expand, and we now collect data on all 
fish, freshwater, saltwater, and we have the capability of 
collecting data on a national scale.
    The website itself, the input process has improved and been 
revised several times, and now anglers can log directly to that 
system on the website in the same way they did, or they can use 
a variety of Smartphone apps that feed into the system.
    The original app was called ``iAngler,'' and that was 
designed as a full trip reporting system, the information and 
data fields that again we designed with scientists and 
biologists guiding us along. From there, we developed another 
level of technology, a sister app, called ``iAngler-lite,'' 
that is designed with a function where they can record live 
fish by fish to kind of hone in the precision, and we have also 
created some affiliate programs and partnered up.
    Guy Harvey Outpost saw the value in what we were doing and 
they made what is called a ``skin of our app,'' which 
essentially allows them to have the guts of our app but their 
brand over top of it, so they could help tell the story and 
help collect data and contribute to the process.
    Here in this area, a group called Chesapeake Catch, four or 
five recreational groups, who worked closely with Maryland DNR 
to develop a sister affiliate here that also adds data into the 
Angler Action Program. Maryland was very forthcoming with how 
they were going to use that data specifically by species and 
what data points they would use. They are off to a great start 
in collecting data here in the Chesapeake area.
    We have also developed a full tournament management system 
initially for the purpose to just access that segment of 
fishermen that might not have been used to the idea of 
reporting catches, but that is turning out to be a very strong 
database in itself, and through that, we have partnered with 
CCA, one of the largest conservation groups, fishing 
conservation groups, in the country. We will be running their 
STAR tournament in Florida throughout this year, which they 
expect to have 5,000 anglers.
    Again, introducing more people, and the ultimate goal of 
changing the culture of recreational anglers participating in 
stock assessments in any way that we can.
    Toward the idea of making sure our data is valid, I believe 
FWRI secured the funding from NOAA, but they have started an 
independent analysis through the University of Florida. It is 
about a 4-year study, the first year has been done, and in this 
past year, they looked at catch rates compared through our 
Angler Action Program to the MRIP dockside surveys.
    When you look at areas where we have a number of anglers 
reporting and you look at the species most commonly reported, 
which were snook, red drum, and spotted sea trout, the data 
compares very favorably, so that is a great step in the right 
direction toward making sure our data is valid and useful.
    We do have goals for this beyond fisheries management with 
the understanding that is what we are here to talk about today, 
but we hope to also use this data to help advance things like 
habitat mapping or keeping track of foreign fish species and 
things like that, but ultimately, like I said, we are just 
trying to lead toward a cultural shift and a change in 
mentality, both from fishery managers and anglers as well to 
kind of come together and make sure we help each other solve 
the problems the best we can.
    [The prepared statement of Mr. Fitzgerald follows:]

      Prepared Statement of Brett Fitzgerald, Executive Director, 
                     Snook and Gamefish Foundation
    Good afternoon Chairman Rubio, Ranking Member Booker, and members 
of Committee. Thank you for giving me the opportunity to provide 
testimony regarding innovations in data collection for recreational 
fisheries. My name is Brett Fitzgerald, I am a former paratrooper in 
the U.S. Army Special Forces, lifelong recreational angler and 
currently Executive Director of the Snook and Game Fish Foundation that 
was created in 1989 through the visionary work of William Mote of Mote 
Marine Laboratories in Sarasota, FL. In my tenure as Executive Director 
for the Snook and Gamefish Foundation I have guided the organization to 
play a leading role in smart-phone technology to make anglers part of 
the data collection process for management of fisheries.
    For this hearing, I was asked to discuss the Foundation's 
innovative Angler Action Program (AAP), which is used in recreational 
angler data collection and is showing signs of improving angler 
confidence in both the decisions that fishery managers make as well as 
the data and assessments those decisions are based on.
    In Florida and South Texas, snook is a prized fishery that drives 
coastal fishing and tourism economies. Snook are hard fighting fish 
comparable to striped bass on the Atlantic Coast and salmon on the 
Pacific Coast. In 2010, the Florida Wildlife Research Institute (FWRI), 
the scientific arm to the State of Florida's Fish and Wildlife 
Commission, faced a crisis in the snook fishery due to a historic cold 
event lasting several days that dropped water temperatures well below 
the range for snook to survive as far south as Everglades National Park 
on the southern most peninsular of mainland Florida. Thousands of fully 
mature snook perished, many of which were critical spawners to the 
preservation of the species. In that difficult time, Florida snook 
anglers were asked to help provide personal fishing data through the 
AAP. Today, after being used in two Florida state snook stock 
assessments and on deck to be used in a third this year, the AAP has 
grown into a network of tools that can collect recreational angler data 
for any species of fish, anywhere in the Nation (and beyond). While the 
AAP is continuously evolving based on the needs of fishery managers and 
ever improving technology, the story of how the AAP has grown can shed 
light upon how it might be better used in the near future to assist 
fishery management at a national level.
    Back in 2010, Jim Whittington, a lead snook biologist for FWRI, 
inquired whether the Snook & Gamefish Foundation (SGF) could inform his 
team on what snook anglers were catching after the weather event 
passed. There was a need to understand how badly the snook population 
was impacted by the extended cold. It was an easy ask for passionate 
anglers who were equally concerned. Because the snook harvest season 
was placed into emergency closure by the Florida Fish and Wildlife 
Conservation Commission (FWC), the challenge of collecting timely, 
precise data meant the current angler dependent surveys that monitored 
caught and kept snook through boat ramp surveys could not meet the 
immediate need.
    Under the guidance of biologists from FWRI, the Parks & Wildlife 
Department of Texas, independent statisticians and SGF volunteers, the 
first generation of the AAP was created. This first data collecting 
tool was based largely on a previously successful ``log book program'' 
that FWRI had been using as part of a longitudinal study of a select 
panel of snook anglers. The AAP, it was agreed, needed to be more 
streamlined, easier for anglers to use, provide real-time data, and of 
course satisfy certain specific data needs. Those specific needs 
included data fields such as the size and distribution of released 
fish, general location of catch, time spent fishing, and others. 
Anglers were asked to record their information on a sheet of paper (to 
eliminate memory bias) then enter data at a new website, 
www.angleraction.org, which had corresponding data fields where anglers 
could easily transpose information from their paper record to the 
computer.
    By the end of that first summer, thousands of snook directed 
fishing hours were logged into the system. Shortly thereafter, FWRI 
completed an interim snook stock assessment and the AAP data was 
requested.
    FWRI scientist Dr. Robert Muller, who is in charge of Florida's 
fish stock assessments, found immediate use for certain data fields. 
``The distribution of snook released, and the size of those fish, was 
particularly helpful,'' Dr. Muller noted. This particular information, 
he continued, is not included in the current fishery dependent survey 
models, and therefore answered questions that previously were not 
addressed.
    Participating snook anglers were elated that their data collecting 
efforts were helpful in such short notice. For our part, SGF worked 
diligently to ensure anglers not only provided accurate data, but kept 
expectations tempered when it came to application of data. The message 
that was handed down from FWRI was clear: This is a new concept, be 
patient, and don't expect the AAP to be a tool used to conduct a 
``snook census.'' Rather, anglers should continue to log trips so the 
AAP data can be applied where it can help, and supplement the current 
models to aid in improving overall stock assessment accuracy.
    SGF, whose mission is to support the protection and preservation of 
current fish populations for future generations by facilitating 
coordination between anglers, researchers, and policy makers, kept busy 
keeping participating anglers informed and on track. Messaging 
highlighted the importance of things like accurate data, consistent 
reporting of ``zero catch trips,'' and most importantly, the cultural 
shift that recreational anglers need embrace to become part of the 
answer in ensuring fisheries are well managed and abundant. Volunteer 
anglers seemed to take pride in knowing that they participated in a 
``first ever'' event--a database created by recreational anglers that 
was directly applied to a state level stock assessment.
    12 months later, AAP data was once again tapped when a follow-up 
snook stock assessment was completed. Around this time, SGF was asked 
if the volunteer survey could be expanded to other game fish. Scientist 
and fishery survey experts particularly noted that the discard data of 
catch and release fishing captured by the AAP was extremely helpful, 
and biologists wanted to know if it could be applied to other species. 
To accomplish this, the AAP needed upgrades--anglers needed a faster, 
easier way to input data.
    SGF consulted with scientists and studied options for mobile smart 
device logging such as the new Texas-based iSnapper. SGF then 
facilitated a group of biologists, anglers, programmers and other 
fishery experts to address the primary question, `How can the AAP 
maintain its scientific integrity yet add new technology (and the 
inherent biases of fishery surveys) into the equation?'
    Little did we know at the time that Snook and Game Fish Foundation 
was on the cutting edge in processes of e-survey design (and 
upgrades)--SGF brings in scientists/managers (mostly on loan from 
FWRI), fishing captains, recreational anglers, and programmers to help 
design the changes/upgrades so that the AAP satisfies as many needs as 
possible without accidentally introducing biases that limit fishery 
managers utilizing the AAP for management decisions.
Current state of the AAP
    The number of loggers in Florida has grown, as has geographic 
distribution and available platforms for anglers to participate. 
Anglers are able to continue logging in the original format (writing 
information down then transposing directly to the website), or they 
have a variety of mobile smart device applications which allow more 
immediate data input. The first generation AAP mobile application, 
iAngler, is designed to capture whole trip information at the 
completion of a fishing trip. Recently a new mobile app, iAngler-lite, 
was developed with the intent to allow anglers to enter fish ``real 
time.'' Anglers are able to start a fishing trip then quickly snap a 
photo of caught fish and enter data essential to fishery managers--a 
process that literally takes seconds to complete. Both iAngler versions 
are trending towards a more comprehensive tool for anglers where they 
can already weather, tides, and specific locations to improve their 
angling skill and collect useful information for science. We foresee 
both versions continuing to evolve as they're scrutinized by anglers 
and scientists in the effort to design platforms with expanding 
functional value for both.
    The value of AAP data has reached outside the state of Florida as 
well. In the Chesapeake region, a handful of fishing groups organized a 
program called ``Chesapeake Catch,'' an AAP affiliate program which 
includes a mobile smart device application. Now anglers in that region 
can log catch data into the AAP in the same manner as Florida anglers. 
The data is flagged in the database so local agencies can perform 
analysis and use data accordingly. The Maryland Department of Natural 
Resources (MD DNR) has committed to using AAP data provided by 
Chesapeake Catch anglers in a variety of specific ways. Not 
surprisingly, discard information is the primary draw for scientists. 
Dr. Joseph W Love (MD DNR) reported that ``The Chesapeake Catch [mobile 
smart device] app works great and I look forward to using it and 
promoting it in the future.'' Several species of concern were noted 
directly for analysis, including Atlantic Croaker, Red Drum, Spotted 
Sea Trout, Shad, Yellow Perch, Spot, and of course Striped Bass.
    With over $200,000 invested in refining angler self-reporting apps 
(much of which provided through funding by the Repass Foundation and 
the National Fish and Wildlife Foundation), the Snook and Gamefish 
Foundation has begun to work with multiple partners to skin the AAP to 
suit specific purposes. For example, Guy Harvey Outpost, which has a 
strong sense of conservation ethos, offered to contribute directly to 
the AAP by creating a branded ``skin'' of the iAngler-lite app. The 
Snook and Gamefish Foundation designed, tested and recently launched 
the iGhoFish mobile smart device app which is now promoted globally 
through Guy Harveys Outposts. This will add a new level of data 
collection which will help to fortify our database as a data reference 
point to validate stock assessment conclusions and management decisions 
related to discard mortality in fisheries.
    The network of AAP affiliates will likely grow as regions across 
the country recognize the functional use of self-reported data and the 
AAP continues to represent an established, trusted source for data 
collection.
    SGF also recognized the preponderance of fishing tournaments as a 
source of opportunity for self-reporting. Not only are fishing 
tournaments themselves a potential source of data, they also create an 
avenue of communication to a sector of recreational anglers who might 
not otherwise hear about programs like the AAP. To maximize 
opportunities in this arena of angling, SGF once again called upon a 
well-rounded team to design and develop a tournament management system 
that would familiarize tournament anglers with the process of self-
reporting. With funding from the Fleming Family Foundation, the 
iAngler-Tournament system was created.
    iAngler-Touranment was originally designed to facilitate the 
cultural change of electronic self-reporting to experienced anglers. 
Quite simply, that change means that fishing public trust natural 
resources should include a conservation ethic to assist with reliable 
information to best manage fisheries and that it can be done with 
relatively little effort. Surprisingly, the tournament management and 
data collecting system has proved to be wildly popular. Managing 
tournaments can be a laborious labor of love for committed fishing 
groups across the country and i-Angler-Tournament has streamlined that 
process. As well, with the unique dataset provided through tournaments, 
even more resolution at the ``per-fish'' level is generated with highly 
accurate size, location, and time of catch information provided (with 
time-stamped images of each catch). Because of the iAngler-Tournament 
data is not designed as a voluntary survey in the same manner of the 
AAP and affiliated apps and brings a host of new potential biases, the 
data is flagged in the database so future analysis can be contemplated 
by stock assessment analysts as to the usefulness of the reference 
point in full stock assessment analysis. SGF sees this type of data 
becoming very useful in arenas other than stock assessment analysis, 
such as functional habitat mapping and prey/predator geospatial 
relationships.
    Finally and most importantly, the Coastal Conservation Association 
(CCA), one of the largest private recreational fishing organizations in 
the country, has partnered with SGF in Florida to use the AAP platform 
for their forthcoming STAR tournament projected to include over 5000 
anglers across the state in the first year alone. CCA-Florida Star will 
bring awareness of the importance of self-reporting to legions of 
anglers and at the same time do incredible service to conservation of 
the state's fisheries by embracing a catch and photo release e-
reporting tournament system.
    The additional functionalities and partnerships of the AAP and 
expanded format has not decreased the value of the data. In fact, FWRI 
called for AAP data to be used in the upcoming snook stock assessment, 
and the expansion to other species of fish is on track to provide 
helpful data in other fisheries. FWRI's Dr. Muller provided some 
details to that point:

        ``In Florida, the three most popular fish caught by 
        recreational anglers, spotted sea trout, red drum, and snook, 
        all have slot limits and snook has either a six or seven month 
        closure depending on the coast. This means that each year many 
        fish are released. National Oceanic and Atmospheric 
        Administration's (NOAA) Marine Recreational Information Program 
        (MRIP) estimates the numbers of fish harvested and released, 
        but creel samplers at the dock cannot measure a fish that was 
        released. Further, adding an observer to a flats boat is not 
        feasible either. Therefore, having anglers record the size of 
        fish caught in the Angler Action Program is invaluable. 
        Assessment biologists want to know the size and ages of fish 
        removed from the population and, with so many fish being 
        released, the length data from the AAP lets us quantify how 
        many legal-sized fish were released as well as how many under-
        sized fish and how many over-sized fish were released. Data 
        from the AAP has been used in two recent snook stock 
        assessments and will be used in another assessment later this 
        year.''

    As AAP data carves out a niche in Florida's stock assessment 
process, biologists and scientists who supported the program continue 
to pursue methods of ensuring validity of the data. No individual from 
the science community has provided more guidance and leadership than 
Dr. Luiz Barbieri of FWRI. Dr. Barbieri's consistent messages of 
encouragement to SGF and our volunteers, measured with doses of 
tempered expectations and patience, have been extremely valuable. His 
understanding of the complexity of stock assessments at the state and 
Federal level have allowed the AAP to grow in such a way that, so far, 
we have not inadvertently introduced any biased information, which 
might invalidate the project.
    In his pursuit of capturing the best available data, Dr. Barbieri 
and his staff coordinated funding which allowed an independent third 
party to begin some much needed analysis of the AAP database. The 
University of Florida's Fisheries and Aquatic Sciences lab, directed by 
Dr. Robert Ahrens, was tapped with the task of data analysis. Funding 
was to allow for a multi-year analysis of data, focusing on a variety 
of data applications and functions. The first year of analysis, led by 
graduate student Ryan Jiorle, was recently completed and a summary of 
results were shared at the FWRI headquarters in St. Petersburg, Florida 
in April 2015. The first year of analysis focused on comparing catch 
rates of AAP volunteers to those in the MRIP survey.
    Jiorle's results suggested that in areas where AAP logging has 
gained a foothold among anglers, the data compares very well to MRIP 
data for the most commonly logged species. Jiorle noted, ``Most of the 
saltwater fishing trips reported through the AAP targeted three 
specific species: common snook, spotted seatrout (Cynoscion nebulosus), 
and red drum (Scianenops ocellatus). While there is not nearly as much 
data on the many other species fished for in Florida, the amount of 
information regarding these three species of fish still provides 
valuable information for their assessment.
    ``When considered at appropriate spatial levels, AAP data for these 
three species provide similar mean catch-per-trip values (i.e., average 
number of fish caught in a single fishing trip) to those of MRIP's 
survey. These ``catch rates'' are very important metrics for the 
assessment of fisheries, and analysis of the AAP database has shown 
that there is potential for these electronic, self-reporting programs 
to provide representative information for recreational fisheries--
provided there is sufficient coverage across the spatial region in 
question.''
    Jiorle's analysis supported Dr. Muller's comments regarding the 
value of discard data by AAP volunteers. ``One of the largest 
advantages for these electronic, self-reporting programs is the ability 
to provide extensive information on discarded (released) fish. The MRIP 
survey is conducted from land, and it is difficult for the interviewers 
to obtain information on fish that were released at sea. However, many 
recreational fisheries are ``catch and release'' fisheries, meaning 
most if not all fish are discarded by the angler. Because electronic 
self-reporting programs allow recreational fishers to keep track of 
fish as the catches happen, they can provide the number, species, 
lengths, weights, and locations of fish caught and released (the latter 
being unavailable from the MRIP survey). These novel pieces of 
information that are possible to gather under a program like the AAP 
would provide large contributions to fisheries stock assessments.
    ``Another advantage of an electronic, self-reporting program is the 
ability to collect sufficient information for very rare species. 
Certain species have so few fishers targeting them that a sampling-
style program like MRIP does not adequately cover them. However a 
program that theoretically allows all of those trips to be reported 
represents a large advantage for the assessment of those rare fish 
populations.''
    Jiorle's analysis did reveal certain data biases. First, for the 
three species addressed, ``the AAP dataset contains a spatial bias 
towards the central-south Atlantic coast of Florida. A stretch of five 
coastal counties accounts for half of all of the saltwater fishing 
trips in the AAP. This same stretch of counties only accounts for 17.6 
percent of all saltwater fishing trips surveyed through the MRIP 
program--which is considered the most extensive recreational fisheries 
data collection program.''
    This spatial bias is a very important consideration as the AAP 
moves forward. Essentially, this finding suggests that in regions where 
a sufficient number of recreational anglers participate in the AAP, 
catch rates can validly be compared with MRIP data. The spatial bias 
issue seems to suggest that a more aggressive approach with angler 
self-reporting might be warranted. Already states such as Alabama, 
Mississippi, Louisiana and Florida are moving towards special reef fish 
permits for anglers pursuing federally managed species. Alabama and 
Mississippi are also moving toward mandatory e-reporting apps for 
greater accountability and validation on the precision of MRIP data 
used for management in those fisheries. It should be noted that the 
National Marine Fisheries Service has prioritized angler self-reporting 
in their recent Electronic Monitoring and Reporting Regional 
Implementation Plan released earlier this year.
    To be clear though, angler self-reporting is not a sliver bullet to 
fishery data needs, it is a reference point with growing usefulness--an 
extremely important one being the involvement and rebuilding of trust 
among anglers in the stock assessment process. Fisheries, particularly 
those in which barotrauma (the rapid ascent of a fish from depth that 
causes injuries precluding successful catch and release) require long 
term, committed investment of funds to ensure the long term 
sustainability of stocks. A recent bill passed by the House 
Appropriations Subcommittee on Commerce, Justice, Science, and Related 
Agencies would invest $10 million in Fiscal Year 2016 to the Gulf of 
Mexico alone to ensure appropriate fishery monitoring. The Southeast 
United States, including the Gulf and Caribbean has more saltwater 
recreational anglers than any other region and a complexity of natural 
resources such as reefs, corals and marine mammals that necessitate 
numerous methodologies to appropriately monitor fish stocks without 
harming other resources. Yet, the Southeast is the only region in which 
one fishery science center must service the needs of 3 regional 
councils (Gulf, South Atlantic, Caribbean) and it has been chronically 
underfunded to meet demands.
AAP and Future Applications
    SGF has come to appreciate the complexities of stock assessments at 
both the state and Federal level. It is clearly understood that 
recreational angler data presently suffers from both a less than 
optimal level of precision for managers to base decisions on as well as 
the untimely availably of information for managers to make decisions 
during fishing seasons. One might say our fisheries (particularly co-
managed state and Federal fisheries) have evolved into ``pulse'' 
fisheries where a tremendous amount of fishing activity occurs within 
weeks. At the same time, data collection systems designed to archive 
those catches have not evolved to meet the needs of managers. For 
example, Gulf of Mexico Red Snapper data is collected in two month 
waves and each wave takes time to be processed and certified--the 
season comes and goes without managers having any real sense of how 
many fish were caught.
    Without question there is a need for improved recreational data 
collection. The archival style of data collection that informs long 
term analysis of U.S. fisheries must be supplemented with real-time 
information and e-reporting tools for fishery managers to maximize 
fishing opportunities with the confidence that they are not allowing 
overfishing and risking the economic stability that long term 
sustainability provides coastal communities.
    To that end, SGF seeks to continue coordinating with NOAA's 
scientific community and move forward in providing more precise and 
timely voluntary recreational angler data. In particular the nexus 
between app self reporting and defined universes of anglers mandatorily 
required by states to secure a permit are opening opportunities for 
`mark and recapture' as well as panel studies to provide essential 
validation estimates on angler self-reported data. These are immense 
challenges that will require better cooperation between the states that 
employ dock-side surveyors and MRIP which provides funding to the 
states to cover portions of the costs to employ those surveyors.
    SGF also recognizes the need for some kind of national standard for 
electronic self-reporting systems. While there is risk in ``farming 
out'' data collection, the growing number of private and state level 
data collection programs calls for unified guidance. Through our 
extensive design process, SGF has come to understand that any variance 
from the standard can potentially introduce a bias--real or perceived--
which in either case can cause data to be rendered invalid or damage 
public perception of the project such that the necessary voluntary 
participation is extremely difficult to attain. This truth speaks to 
the value of the AAP affiliate system, which allows participating 
groups to benefit from systemic design changes that are properly vetted 
by the AAP design team.
Beyond Stock Assessments
    With the understanding that this hearing is focused on using 
voluntary self-reporting systems to assist with fishery management, SGF 
also has heard from legions of anglers who hope to see the AAP database 
used in several other ways, and we would be remiss if we did not 
mention just a couple of those points. Habitat mapping is a very common 
theme, and discussions with interested parties have begun, including 
several counties in Florida who are groping for methods to quantify the 
money spent on much needed habitat restoration projects. Especially 
with Restore Act funds becoming available in the Gulf of Mexico, SGF 
sees the AAP (and iAngler-Tournament system) as vehicles of positive 
influence in this arena.
    Finally, with the recent awareness campaigns focusing on forage 
fish, SGF sees opportunities to provide functional avenues of 
contribution from recreational anglers. Successful management of forage 
(bait) fish is a priority issue for recreational fishers. As the food 
supply for game fish from tarpon to tuna, the importance of 
comprehensive management of forage fish is evident. This was a key 
recommendation in the 2014 Morris-Deal report, ``A Vision for Managing 
America's Saltwater Recreational Fisheries.'' It is also one of the few 
marine fisheries issues where there seems to be broad agreement amongst 
recreational, commercial and conservation organizations. Currently, the 
very few forage fish that are under Federal fishery management are not 
managed to meet the needs of predators that depend on them. At the same 
time, market pressure is increasing to expand industrial fishing for 
these prey species, which often end up being used as pet food or 
fertilizer. SGF sees the importance of investing in monitoring and data 
collection of prey species to provide more and better information on 
the catch and status of forage species. Electronic self-reporting can 
allow recreational anglers to play a direct role in this critical 
management issue. With the understanding that important design changes 
would be required, AAP-type reporting can provide essential scientific 
information on prey species, which is needed to guide management of 
these fish, and ensure enough forage fish are left in the water to meet 
the food needs of predators that fuel the recreational fishing 
industry.
    The purpose of introducing habitat mapping and increased forage 
fish protection is to highlight the point that voluntary recreational 
data will have extensive functional uses as the database grows in size 
and power. These types of data-driven goals work in concert with the 
main focus of this testimony, improved fishery management through 
innovative technologies, especially with the effort to encourage a 
growing number of anglers to record accurate information.
    With these points in mind, there are a few specific items which SGF 
feels are of particular importance moving forward:

  1.  Match the funding ($10 million) secured by the House Committee of 
        Appropriations to invest in data collection in the Gulf of 
        Mexico.

  2.  Increase the precision of stock assessments by directing NOAA to 
        invest restoration funds towards habitat mapping so a full and 
        complete inventory, rather than an estimate, of habitat for 
        assessed species is finally known.

  3.  Fund and direct MRIP to return to the one month waves of data 
        collection during peak recreational fishing season from spring 
        to fall, much like was done during the oil spill so managers 
        have information much faster to make important decisions.

  4.  Currently, the National Research Council (NRC) is conducting a 
        review of MRIP. That Review should be directed to include if 
        and how MIRP can have greater precision in its estimates, 
        possibly a benchmark goal of no greater than +/-10 percent as 
        well as timeliness to meet the management needs of pulse 
        fisheries that require information real-time to maximize 
        fishing opportunities. If the NRC concludes these objectives 
        cannot be met within the paradigm of MRIP they should recommend 
        alternatives to spin-off these much needed improvements.

  5.  NOAA must be funded and directed with both existing 
        appropriations and oil spill funds to prioritize investments 
        outlined in their regional Electronic Monitoring and Reporting 
        Plans, and these plans should be updated every two years to 
        keep pace with the changing improvements of technology.

  6.  NOAA must direct the eight regional councils to prioritize 
        Exempted Fishing Permits that use small portions of 
        recreational quota to test new technologies for advancing 
        modern data and management technologies in real world 
        applications so valuable lessons can be learned and rapid 
        improvement for application can be obtained.

  7.  States should be incentivized to streamline their current fishery 
        data collection systems to meet a minimal level of Federal 
        fishery assessment protocols in order to increase timeliness 
        and avoid the long delays of recalibrating one set of 
        assessment protocols to integrate to different ones.

  8.  Finally, resources should be dedicated to the design and 
        implementation of a self-reporting system which will allow for 
        more precise and timely assessment of all of our prey species.

    Thank you for the opportunity to testify today. I would be happy to 
answer any questions that you have.

    Senator Rubio. Thank you. I was showing off my snook 
pictures. Dr. Murawski?

            STATEMENT OF STEVEN A. MURAWSKI, Ph.D.,

          DOWNTOWN PARTNERSHIP-PETER R. BETZER ENDOWED

               CHAIR OF BIOLOGICAL OCEANOGRAPHY,

                  UNIVERSITY OF SOUTH FLORIDA

    Dr. Murawski. Thank you. I will show you my pictures later. 
Chairman Rubio, Ranking Member Booker, and Committee staff, 
thank you for the opportunity to provide testimony on important 
issues related to the management of our nation's fisheries.
    My name is Steven Murawski, and I am a Professor of Fishery 
Science at the University of South Florida in St. Petersburg. I 
appear before you today to discuss innovative technologies and 
strategies to improve the quality and timeliness of fishery 
stock assessments, so critical to the management of state, 
national, and international levels.
    My perspectives in providing testimony are twofold, at USF, 
I have been involved in the development of advanced 
technologies to assess the abundance of important reef fish 
species off South Florida.
    Commercial and recreational industries there generate tens 
of billions of dollars annually in economic activity. It is, 
therefore, of utmost importance that accurate, timely, and 
credit stock assessments are forthcoming.
    Our work is aimed at advancing technologies to 
fundamentally change the discourse on the status of fish 
populations as a basis for improving management.
    Prior to coming to USF, I retired after 34 years of service 
at NOAA as the Director of Scientific Programs and Chief 
Science Advisor for NMFS. I have seen fishery management 
programs be enormously successful and credible in the eyes of 
stakeholders.
    One clear and unambiguous factor in the success of fishery 
management programs is they are based on accurate, transparent, 
and timely stock assessments. Fishery management programs for 
species like Bering Sea pollock and the Atlantic sea scallop 
are viewed as successes, not only because they meet their 
statutory reference points, but that they are profitable and 
well managed in the eyes of most constituents.
    The science supporting these management programs is 
considered state-of-the-art. It involves both traditional and 
high technology sampling applications, collaborative research 
with industry, and probative stock assessments that include 
continuous quality improvement cycles.
    Extending these features to the majority of high profile 
fisheries in the United States remains a daunting challenge for 
NOAA and the states, whose fishery science budgets have 
actually declined significantly in the past half decade.
    Today, I want to discuss several features of advanced 
technology applications that can be useful in improving the 
scientific basis for fishery management.
    Properly designed fishery independent surveys are critical 
to accurate stock assessments. Traditionally, fishery 
independent surveys have used a variety of gears, such as small 
mesh trawls, baited hooks, and gill nets. However, fishes may 
be distributed along reefs and in boulder fields where these 
gears are not deployable.
    Increasingly, because of the establishment of the no take 
marine protected areas, lethal sampling may no longer be 
allowed in some parts of the stock's range. So-called 
``untrawlable habitats'' represent a considerable and growing 
challenge in all regions of the United States.
    Advanced optical methods combined with acoustics are in my 
view the best option for enumerating fishes occurring in 
untrawlable habitats. Advances in camera performance and the 
availability of low cost components have made the use of video 
and still cameras a viable option for fish surveys.
    There are some developments in the use of towed camera 
systems to include the joint Woods Hole Oceanographic Institute 
and NMFS program called HABCAM, and joint USF/NMFS program 
called C-BASS.
    The HABCAM implementation was developed to quantify the 
abundance of sea scallops in the Mid-Atlantic and Georgia bank 
regions. This fishery is the most valuable fishery in the 
United States, and prior assessment techniques used primarily 
small dredges which had variable catchability and could not be 
efficiently deployed in rocky habitats.
    There were significant ongoing disputes regarding the 
efficiency of scallop dredges, ranging from 10 to 40 percent 
efficiency. This question was definitively resolved when 
advanced camera system sampling was instituted.
    The C-BASS system was developed as a towed video system, as 
a proof of concept for a rapid assessment of the abundance of 
snappers, groupers, and other important species.
    Moving from a proof of concept to a region-wide stock 
assessment capability requires that a number of issues be 
resolved, including mapping of habitats, development of robust 
deployable hardware, and analysis capabilities for literally 
hundreds of miles of video and still imagery, and exciting 
possibilities of combining acoustic monitoring methods for the 
water column with the near bottom camera systems. In case of 
corral reef fishes, the two sets of technologies are 
complimentary.
    Requirements of the Magnuson-Stevens Act for annual catch 
limits based on the results of stock assessments imposed a 
daunting burden to assemble, analyze, and peer review data for 
inclusion in the management process. The advent of advanced 
acoustic and optical methods for counting fish offers the 
opportunity to develop direct estimates of abundance for a wide 
variety of near bottom species.
    Facial recognition and threat detection software originally 
developed for homeland security and defense applications are 
precisely the tools that fishery scientists need to process 
imagery quickly and accurately. Advances in these fields have 
been rapid as evidenced by a 2014 National Academies of Science 
workshop supported by NOAA.
    Over the years, conservation engineering programs at NMFS 
and within the states have declined as funding was repurposed 
to other higher priority programs. However, working with 
existing ocean engineering programs in academia, NMFS was able 
to develop strategic partnerships resulting in both the HADCAM 
and C-BASS systems.
    Using industry, academic and government partnerships thus 
takes advantage of the skills and focus of each to develop and 
adapt technologies to real world problems of great practical 
importance.
    A further benefit of such collaboration is the increased 
credibility of programs can bring in the eyes of the 
stakeholders.
    I encourage Congress and the Administration to see as a 
priority the collaborative development and incorporation of new 
technologies in the stock assessment advisory process to 
sustain and take advantage of the economic and social benefits 
of our Nation's fisheries.
    This is the future of fishery science. Thank you.
    [The prepared statement of Dr. Murawski follows:]

 Prepared Statement of Steven A. Murawski, Ph.D., Downtown Partnership-
Peter R. Betzer Endowed Chair of Biological Oceanography, University of 
                             South Florida
    Chairman Rubio, Ranking Member Booker, and Committee members, thank 
you for the opportunity to provide testimony to this Committee on 
issues important to management of the Nation's fisheries resources. 
Today I appear before you to discuss innovative technologies and 
strategies to improve the quality and timeliness of fishery stock 
assessments, so critical to supporting fishery management efforts at 
the state, national and international levels.
    My perspectives in providing this testimony are two-fold. For the 
past 4+ years I have been a professor of Biological Oceanography at the 
University of South Florida (USF), in St. Petersburg. One of the major 
projects I have been involved with is the development of advanced 
technologies to better assess the abundance and habitat requirements of 
important reef fish species off west Florida (Fig. 1). The commercial 
and recreational fishing industries and allied businesses there 
generate 10s of billions of economic activity based on these fisheries. 
It is of upmost importance that accurate, timely and credible stock 
assessments of fish stocks supporting these industries be forthcoming. 
The work of my colleagues, students and institutions with which we 
partner is aimed at using advanced technologies to fundamentally change 
the discourse on the status of fish populations as a basis for 
providing management advice.
    Prior to coming to USF, I retired after 34 years of service at NOAA 
as the Director of Scientific Programs and Chief Science Advisor for 
the National Marine Fisheries Service. My entire professional life at 
NOAA was as a fish population dynamicist. I have worked on projects to 
oversee the provision of stock assessment advice, first in New England 
and the Middle Atlantic states, then nationally and globally. I have 
seen fishery management programs be enormously successful and credible 
in the eyes of the stake holders. I have also observed conditions when 
fishery management was not successful and the conditions associated 
with that lack of success. One clear and unambiguous factor in the 
success of fishery management programs is that they are based on 
precise, accurate, transparent and timely stock assessments. Fishery 
management programs for species such as Bering Sea pollock and Atlantic 
sea scallop are viewed as successes not only because they meet 
statutory reference points, but that they are profitable and well 
managed in the eyes of most constituents. The science supporting these 
management programs is considered state-of-the-art. It involves high 
technology applications, collaborative research with industry and 
probative stock assessment that includes continuous quality improvement 
cycles. Extending these features to the majority of high profile 
fisheries in the USA remains a daunting challenge for NOAA and the 
states who's science budgets have stagnated or declined in the past 
half-decade or more. Today I want to discuss several features of 
advanced technology applications that can be useful in improving the 
science basis for fishery management.
How Many Fish in the Sea?
``. . . . . . speak to the earth, and it will teach you, or let the 
        fish in the sea inform you''.--Job 12:8

    Modern fishery management approaches, such as those regulating 
Federal fisheries in the USA--as specified in the Magnuson Stevens 
Fishery Conservation and Management Act (MSFCMA)--are based on two 
primary tenets: (1) that the fishing mortality rate is kept at or below 
an objectively-determined maximum limit, and (2) that the stock size be 
held at a level allowing the attainment of maximum sustainable yield 
(MSY). This specification of quantitative limits and targets is the 
hallmark of fishery management throughout the developed and 
increasingly the developing world (FAO 2014). Through regional, 
national and international fishery management agreements (e.g., via 
treaties and Regional Fishery Management Organizations), fishery 
managers seek to balance short-and long-term social and economic 
performance of the fisheries with the limits imposed by population 
sizes and sustainable fishing mortality rates. At the nexus of the 
science-management interface is the process of conducting fishery stock 
assessments (Fig. 2; Cooper 2006). Stock assessments can be quite 
complex (Fig. 2) or relatively simple, depending on the nature of the 
fishery and quality of information available. In their simplest form 
they include time series of annual landings and estimates of relative 
fish abundance indexed by catch per unit of fishing effort (CPUE; 
Cooper 2006). In their most complex form that may include age-specific 
catch and CPUE data (e.g., from ``fishery-dependent'' data sources) as 
well as one or more sets of age-specific ``fishery-independent'' 
abundance indices from statistically designed surveys. These data 
sources are usually combined into retrospective models estimating 
trends in fishing mortality and stock sizes at age. A projection step 
associated with the stock assessment process assesses the annual 
catches that would be derived based on various policy choices including 
maintaining the fishing mortality at or below some target level.
    Properly designed fishery-independent fish surveys are a key 
element in providing accurate and precise stock assessments. Fisheries 
are usually biased towards concentrations of relatively large fishes, 
occurring at high densities. However, a full picture of the abundance 
and distribution of a managed stock must include all age groups 
(including the pre-fishery recruits), and areas that may be relatively 
large but may which contain relatively low fish densities. 
Traditionally, fishery independent surveys have used gears such as 
small-mesh trawls (FAO 1982), baited hooks, dredges (for shellfishes), 
gill nets (of varying mesh) and seine nets (for shallow waters) to 
develop fishery independent surveys. Where the fishes are widely 
available to the gears (e.g., haddock caught the trawl survey of the 
Northeast Fisheries Science Center) these gears provide reliable and 
relatively precise estimates of the abundance of various ages, for use 
in retrospective and forecasting parts of stock assessments. However, 
in many situations, the fishes may be distributed in high-relief 
habitats such as along reefs and in boulder fields where these gears 
may not be deployable (e.g., trawls on coral reefs), or where the 
efficiency of the gear may be low and variable. Also, increasingly, 
because of the establishment of no-take fishery reserves or other 
marine protected areas (MPAs) lethal sampling may no longer be allowed 
for some part of a stock's range.
    So called ``untrawlable'' habitats thus represent a considerable 
and growing challenge to providing relatively precise and unbiased 
estimates of relative (or absolute) abundance for use in fishery stock 
assessments. For example, areas considered ``untrawlable'' include 
tropical reef habitats in the Pacific islands, the Caribbean and 
Southeast United States (e.g., Fig 4), rock reef areas along the west 
Coast, in Alaska and the Northeast, and cold water coral areas off all 
the coasts of the United States. Many important fisheries occur in 
these areas including, in the case of tropical reef systems, species of 
snapper, grouper, amberjack and other species of commercial and 
recreational importance.
    To address sampling of ``untrawlable'' areas, scientists have 
developed a number of approaches using traditional gears (e.g., 
vertical longlines and gill nets) and advanced acoustic, visual, and 
optical methods. For example, visual methods, using divers to count 
along designated transects or at stationary locations has been applied 
in tropical reef settings (Bohnsack and Bannerot 1986; Ault et al., 
2013). However, without specialized mixed-gas diving methods, they are 
generally applicable to water depths of <30 m, which may leave 
considerable viable reef fish habitat unsampled.
    Acoustic methods, including the use of ship-based echo sounders, 
have been used in stock assessments since the 1960s (Trenkel et al., 
2011). The integration of echoes off fish schools (Fig. 5) can be 
calibrated using in situ derived target strength (TS) measurements of 
individual animals to estimate the absolute (and relative) abundance of 
species that may occur over such untrawlable habitats (Fig. 5). 
However, there remains a key issue with acoustic methods in the ``dead 
zone'' 1-5 meters above the bottom where reflected acoustic signals off 
the bottom may obscure fishes located within this band.
Recent Advances in the Use of Optical Systems for Fish Stock 
        Assessments
    Apart from the use of visual sighting surveys in relatively shallow 
waters, advanced optical methods remain the best option for enumerating 
fishes occurring in untrawlable habitats, especially ones distributed 
over wide spatial areas and depth zones. The use of video and still 
cameras has been applied since the 1960s to a variety of situations 
(Cailliet et al., 1999; Martin et al., 2004; Spencer et al., 2005; 
Jones et al., 2009; Williams et al., 2010; Mallet and Pelletier 2014). 
Recent advances in camera performance and availability of low cost 
components have made the use of video and still cameras a viable option 
for fish surveys. One of the significant considerations is whether to 
use towed, tethered (remotely operated vehicles) or autonomous 
platforms (e.g., Tolimieri et al., 2009; Clarke et al., 2010; Singh et 
al., 2013) for such studies. The determining factor is the power 
requirements for the cameras, lights and other instruments onboard the 
vehicle, as well as the range of the stock being indexed. Current 
versions of AUVs equipped with video cameras is limited by battery 
power requirements.
    Other approaches to indexing species in untrawlable habitats 
include the use of fixed location video pods to count the number of 
animals in a cylinder around the locations of these deployments 
Gledhill et al., 2006). These approach, used in the Southeast USA and 
Pacific Islands, provide relative indices of abundance but may be 
difficult to calibrate into absolute stock sizes due to the use of bait 
with an unknown attraction distance as well as the potential to double 
count fish swimming around such pods.
    Two recent developments in the use of towed camera systems include 
the joint Woods Hole Oceanographic Institute/NMFS program called 
``HABCAM'' (Habitat camera), and the joint University of South Florida/
NMFS program called ``C-BASS'' (Camera-Based Assessment Survey System). 
I will discuss these systems in some detail as they relate directly to 
the use of advanced technology in the stock assessment process.
    One HABCAM implementation (http://habcam.whoi.edu/index.html) was 
specifically developed in collaboration with NMFS to quantify the 
abundance of Atlantic sea scallop in the Middle Atlantic and Georges 
Bank regions (Taylor et al., 2008; Gallagher et al., 2010). This 
fishery is the most valuable in the United States and assessment 
techniques used prior to the use of camera systems were primarily small 
dredges which had variable catchability and could not be efficiently 
deployed in rocky habitats especially in the Georges Bank area. While 
behavioral reactions of scallops to the presence of the oncoming HABCAM 
are not a significant source of bias, discerning alive and dead scallop 
shells was an issue.
    The C-BASS system (Lembke et al., 2013; http://www.marine.usf.edu/
cbass/?page_id=2) was specifically built to estimate the abundance of 
important reef fish species such as snappers, groupers, porgys and 
amberjacks, in untrawlable hard bottom habitats such as exist along the 
west Florida shelf (WFS; Figs 1, 3-6). The WFS is largely unexplored, 
although several multibeam expeditions (e.g., Naar et al., 2007) have 
developed maps for three of the managed areas (Fig. 1). The Florida 
Middle Grounds (Coleman et al., 2004) has been explored using divers 
and ROVs, and is an area of relatively high fish abundance ideal for 
development studies of towed video technologies (Fig. 4). Working 
jointly with NMFS, the C-BASS team has developed the C-BASS system 
(Fig. 3) to allow rapid surveying of the carbonate reef systems typical 
of the WFS (Fig. 1). Abundance estimates (see steps below) were 
developed using camera transect data from 2013 and 2014 cruises to the 
area conducted aboard the R/V Weatherbird II, as a ``proof of concept'' 
for rapid development of fish abundance measures for stock assessment. 
The C-BASS work will continue for an additional three years under a 
grant from the national Fish and Wildlife Foundation to undertake 
studies of habitat damage as a result of the Deepwater Horizon oil 
spill.
    Finfish stock assessments using towed camera systems, pose a number 
of challenging issues if the estimates from video sampling transects 
are to be extrapolated to absolute stock sizes. The steps involved in 
making abundance estimates from ``raw'' video footage include:

  <bullet> Estimating fish abundance (numbers of animals viewed per 
        arbitrary sampling unit (per frame, per minute viewed, etc.)

  <bullet> Calculating the ``area swept'' (geometry of sampling device)

  <bullet> Estimating fish density (numbers per area swept, e.g., 
        numbers per meter squared)

  <bullet> Adjusting for fish avoidance/attraction behaviors (e.g., 
        Stoner et al., 2007)

  <bullet> Stratifying density by areas of different habitats (e.g., 
        sand, reef, grass flats, etc.) to derive overall abundance 
        estimates

    None of these issues is insurmountable and the fact that the C-BASS 
team was able to develop ``proof of concept'' estimates of target 
species absolute abundance demonstrates the utility of the concept in 
producing timely and accurate fishery-independent data for informing 
fishery management.
Summary
    Requirements of the MSFCMA for annual catch limits based on the 
results of stock assessments impose a daunting burden to assemble, 
analyze and peer review data for inclusion in the management process. 
For many regulated stocks, the use of traditional sampling approaches 
such as trawls is sufficient to provide accurate fishery-independent 
data. However, for high relief habitats, such as coral reefs and rocky 
areas, traditional approaches cannot be effectively deployed in these 
areas and are thus inadequate to provide necessary information for 
robust stock assessment. The advent of advanced acoustic and optical 
methods for counting fish offers the opportunity to develop abundance 
measures for species inhabiting these regions where none were possible 
in the past. With the advent of advanced video evaluation techniques 
(National Academy of Sciences 2015), the process of developing more 
timely estimates from the imagery means that the system may be capable 
of enhanced throughput for multiple species simultaneously. For 
example, the process of converting video imagery into species counts 
(e.g., Fig. 4) derives estimates for all the species encountered. Thus, 
efficient biomass estimation may be possible for the reef fish 
assemblage as a whole, thereby speeding the process of population 
estimation.
    Moving from a ``proof of concept'' to a region-wide stock 
assessment capability requires that a number of factors be considered, 
including the location and spacing of video transects (efficient survey 
design), as well as developing a robust video interpretation 
capability. An exciting possibility for region-wide reef fish surveys 
is combining routine acoustic monitoring (Fig. 5) with near-bottom 
video using towed or autonomous camera systems. In the case of some 
reef fishes (e.g., red snapper and amberjack) the two sets of 
technologies would be complementary.
    While the development of new vehicles capable of imaging reef 
fishes enables a new stock assessment paradigm, one of the important 
ingredients is a precise accounting of the physical area of the various 
habitat types in the region of interest. Having high resolution 
multibeam bathymetric maps allows the use of highly efficient 
stratified designs with sampling intensity disproportionately allocated 
to areas of likely high reef fish abundance. With less than 5 percent 
of the WFS mapped, this represents a significant impediment to the use 
of the new technology for such surveys.
    The examples of the adoption of new technologies to address old or 
particularly thorny stock assessment problems illustrates a few 
important points. First, over the years, conservation engineering 
programs at NMFS and within the states have declined as funding was re-
purposed for other, higher priority programs. However, working with 
existing ocean engineering programs in academia, NMFS was able to 
develop in strategic partnerships both the HABCAM and C-BASS systems 
that hold great promise for transitioning to operational system status. 
Using industry, academic, government partnerships thus takes advantage 
of the skills and focus of each of the partners to develop and adapt 
technologies to real-world problems of great practical importance. A 
further benefit of a robust collaborative technology development 
capability is the increased credibility such programs can bring in the 
eyes of the stakeholders. The HABCAM effort in particular has proved 
its worth in this regard. Last, any sampling method, be it trawls, 
baited lines, acoustics or optics, has certain biases in terms of what 
species are encountered, and at what sizes. Rigorous evaluation of the 
inherent biases of new ``disruptive'' technologies, as well as 
traditional methods is now possible using new generation technologies 
and analysis tools. I encourage Congress and the Administration to see 
as a priority the collaborative development of approaches to evaluate 
and implement new technologies into the process of providing stock 
assessment advice to sustain and take full advantage of the economic 
and social benefits of our Nation's fisheries.
    Thank you for your attention, and I will answer your questions to 
the best of my ability.
References
    Ault, J.S., Smith, S.G., Bohnsack, J.A., Luo, J., Zurcher, N., 
McMlellan, D.B., Ziegler, T.A., Hallac, D.E., Patterson, M., Feeley, 
M.W., Ruttenberg, B.I., Hunt, J., Kimball, D., and Causey, B. 
``Assessing coral reef fish population and community changes in 
response to marine reserves in the Dry Tortugas, Florida, USA.'' 
Fisheries Research 144(2013): 28-37.

    Bohnsack, J.A. and Bannerot, S.P. ``A Stationary Visual Census 
Technique for Quantitatively Assessing Community Structure of Coral 
Reef Fishes.'' NOAA Technical Report NMFS 41. 1986. 15pp.

    Cailliet, G.M., Andrews, A.H., Wakefield, W.W., Moreno, G., and 
Rhodes, K.L. ``Fish faunal and habitat analyses using trawls, camera 
sleds and submersibles in benthic deep-sea habitats off central 
California.'' Oceanologica Acta 22.5(1999): 579-592.

    Clarke, M.E., Whitmire, C., Fruh, E., Anderson, J., Taylor, J., 
Rooney, J., Ferguson, S., and Singh, H. ``Developing the SeaBED AUV as 
a Tool for Conducting Routine Surveys of Fish and their Habitat in the 
Pacific.'' Proceedings of the IEEE/OES 2010.

    Coleman, F., Dennis, G., Jaap, W., Schmahl, G.P., Koenig, C., Reed, 
S., and Beaver, C. ``Final Report to the National Oceanic and 
Atmospheric Administration Coral Reef Conservation Grant Program.'' 
(2004). 135pp.

    Cooper, A.B. A Guide to Fisheries Stock Assessment--From Data to 
Recommendations. University of New Hampshire, Sea Grant College 
Program, 2006.

    FAO. 1982. Bottom Trawl Surveys Design, Operation and Analysis. 
Document prepared by M.D. Grosslein and A. Laurec. Interregional 
Fisheries Development and Management Programme, Fishery Committee for 
the Easter Central Atlantic. FAO, Rome.

    FAO. 2014. The state of world fisheries and aquaculture (SOFIA). 
Food and Agriculture Organization of the United Nations (FAO), Rome, 
243 pp.

    Gallager, S., Howland, J., York, A., Lerner, S., Wilby, A., Walden, 
L., Simmonds, D., Rosonina, P., DeMello, A., Vine, N., and Taylor, R. 
``Characterization of Scallop Abundance and Benthic Habitat Using 
optical and Acoustic Imaging Technology.'' Final Report to NMFS, NEFC. 
(2010). 27pp.

    Gledhill, C.T., Ingram Jr., G.W., Rademacher, D.R., Felts, P., and 
B. Trigg. 2006. ``NOAA Fisheries reef fish video surveys: yearly 
indices of abundance for gag (Mycteroperca microlepis).'' SEDAR10-DW12. 
SEDAR, North Charleston, SC. 28pp.

    Jones, D.O.B., Bett, B.J., Wynn, R.B., and Masson, D.G. ``The use 
of towed camera platforms in deep-water science.'' International 
Journal of the Society for Underwater Technology 28.2(2009):41-50.

    Lembke, C., Silverman, A., Butcher, S., Murawski, S., Shi, X., and 
Grasty, S. 2013. Development and Sea Trials of a New Camera-Based 
Assessment Survey System for Reef Fish Stocks Assessment. MTS/IEEE 
OCEANS 2013. San Diego, CA. Sept. 23-26, 2013.

    Mallet, D. and Pelletier, D. ``Underwater video techniques for 
observing coastal marine biodiversity: A review of sixty years of 
publications (1952-2012).'' Fisheries Research 154(2014): 44-62.

    Martin, J.C. and Yamanaka, K.L. ``A visual survey of inshore 
rockfish abundance and habitat in the southern Strait of Georgia using 
a shallow-water towed video system.'' Can. Tech. Rep. Fish. Aquat. Sci. 
2566(2004): 52pp.

    Naar, D.F., Mallinson, D., and Coleman, F. ``Final Report for 
Florida Middle Ground Project.'' (2007): 20pp.

    National Academy of Sciences, Board on Mathematical Sciences and 
Their Applications. 2015. ``Robust methods for the analysis of images 
and videos for fisheries stock assessment''. National Academies Press, 
Washington, D.C. 76 pp.

    Singh, W., Omolfsdottir, E.B., and Stefansson, G. ``A Camera-Based 
Autonomous Underwater Vehicle Sampling Approach to Quantify Scallop 
Abundance.'' BioOne 32.3(2013): 725-732.

    Spencer, M.L., Stoner, A.W., Ryer, C.H., and Munk J.E. ``A towed 
camera sled for estimating abundance of juvenile flatfishes and habitat 
characteristics: Comparison with beam trawls and divers.'' Estuarine 
Coastal and Shelf Science. 64(2005): 497-503.

    Stoner, A.W., Ryer, C.H., Parker, S.J., Auster, P.J., and 
Wakefield, W.W. ``Evaluating the role of fish behavior in surveys 
conducted with underwater vehicles.'' Can. J. Fish. Aquat. Sci. 
65(2007):1230-1243.

    Taylor, R., Vine, N., York, A., Lerner, S., Hart, D., Howland, J., 
Prasad, L., Mayer, L., and Gallager, S. ``Evolution of a Benthic 
Imaging System from a Towed Camera to an Automated Habitat 
Characterization System.'' OCEANS (2008):1-7.

    Tolimieri, N., Clarke, M.E., Singh, H., and Goldfinger, C. 
``Evaluating the SeaBED AUV for Monitoring Groundfish in Untrawlable 
Habitat.'' Marine Habitat Mapping Technology for Alaska (2009): 129-
141.

    Trenkel, V.M., P.H. Ressler, M. Jech, M. Giannoulaki, Chris Taylor. 
2011. Underwater acoustics for ecosystem-based management: state of the 
science and proposals for ecosystem indicators. Marine Ecology progress 
Series 442: 285-301
                              Attachments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Map of the continental shelf off Florida. The broad, 
relatively shallow area off west Florida is termed the West Florida 
Shelf (WFS). Three fishery management controlled access areas are 
plotted (pink).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2. Process control diagram of steps involved in an idealized 
fishery stock assessment. The process uses both fishery-dependent data 
and fishery-independent data to estimate trends in population size, 
recruitment and fishing mortality rates.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3. Schematic (top) and actual views of the Camera-Based 
Assessment Survey System (C-BASS) towed camera vehicle, illustrating 
the placement of cameras and other instruments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 4. High resolution bathymetry (colored areas) and the 
abundance of fishes sighted in C-BASS transects during June, 2013 in 
the Florida Middle Grounds. The blue circles represent the absolute 
number of fish observed in one minute video segments along each 
transect conducted.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 5. Top, an EK-60 sonar image of a school of red snapper 
imaged in the Madison-Swanson fishery closed area. Identity of the fish 
was established with C-BASS imagery. Bottom, a school of vermillion 
snapper imaged with the C-BASS towed camera system on the west Florida 
shelf.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 6. Image of an amberjack observed in 2014 on the west 
Florida shelf.

    Senator Rubio. Thank you. Thank you for your testimony. I 
think I have a general question for all three panelists. 
Obviously, the information about real time data coming from the 
fishermen, the recreational fishermen, and others themselves is 
exciting. How do we get more people to participate in it?
    To be honest, not year round, but I am busiest these days, 
but I was pretty active in the past in fishing, but I was not 
familiar, for example, with some of the apps that are 
available.
    Mr. Fitzgerald, how are we making people aware of the 
existence of all this, and what incentives do people have to 
become a part of it?
    Mr. Fitzgerald. Thank you. Part of the process here of 
getting the word out, to this point, to answer your question, 
it has been mostly word of mouth. We are very cognizant of the 
danger of overstating what we have here and trying to get ahead 
of ourselves, pulling anglers in before we knew we had 
something that would actually be used.
    As you heard Dr. Sullivan testify, the vetting process for 
data is thorough. We felt pretty comfortable in the State of 
Florida because we had their assistance in building it and 
designing it the whole way. We have kind of had to really keep 
ourselves patient as far as the outreach goes, but we have 
reached that point where it is time to come out.
    To that point, we have designed this program to not just be 
an effective way to manage fish stocks, but it is also a very 
powerful personal logbook.
    All these data fields that they are looking for science-
wise, there is also other data fields that an angler can enter 
in. Because it is set up and they all coordinate and it is 
extremely flexible and powerful, so they have now this personal 
logbook they can use to their benefit to help improve their 
fishing skills.
    That is some of the ways we have worked on it.
    Senator Rubio. Dr. Murawski?
    Dr. Murawski. Recreational fishing is the 80/20 problem, 20 
percent of the fishermen account for 80 percent of the catch. 
In traditional programs, they were sampled as frequently as the 
occasional angler. I think we need to find programs that split 
the difference here, make sure we sample the universe of 
participants, but target the avid anglers, the ones that really 
account for most of the damage, with programs that can be more 
user push rather than pulling the data from them in sort of 
what I would call passive sampling programs.
    If we can get over the issue of well, my high precision 
data are going into this database and I do not know how they 
are going to be used, my experience with avid anglers is they 
are more than willing to tell you about the fish they are 
interested in catching and have caught. I think there is a 
sweet spot for using new technology to enable that.
    Senator Rubio. Mr. Beal?
    Mr. Beal. I was going to make similar comments to Dr. 
Murawski's, getting the word out really has not been a problem. 
Recreational fishermen are coming to us asking for these tools 
for individual reporting, volunteer reporting.
    I think once they are confident that these data are used 
and has value in stock assessments and management, I think even 
more of them will come forward and be happy to participate.
    I think as Dr. Murawski was saying, we need to calibrate 
the expectations a little bit of what this data will be used 
for. It is very good at characterizing catch compositions, 
species and size of those species. It is good at discard 
composition, as Mr. Fitzgerald recommended or suggested. Areas 
fished and a number of other things.
    I think we need to control the expectation to some degree 
and let recreational anglers know that this self reported data 
needs to supplement the programs and surveys that are ongoing.
    If the more avid and more successful anglers are the ones 
that are first to report, that may not represent the general 
angler, the weekend warrior folks, the guys that do not catch a 
fish, like myself.
    We need to make sure we are characterizing the whole 
fishery with these volunteer angler surveys before they are as 
valuable for use in total catch and total effort estimates.
    Senator Rubio. I have heard some people say, and it has not 
been my experience, but some people say people will manipulate 
the data, that they think somehow it can influence how open the 
season will be or how many days they will get and so forth. My 
sense of it is the reverse, people exaggerating what they have 
done, add inches and so forth to the catch.
    My point is it is an interesting tool, that kind of brings 
the 21st century to what people are already doing, and 
obviously, we would have to work with some local agencies to 
create incentives.
    Just a couple of things, just kind of brainstorming, one is 
I do think much like the Nielsen ratings work on television and 
so forth, there are people that are selected because they fit a 
demographic profile that provides a representative sample, and 
you could have specific individuals that we know are out there 
and catching.
    I think the charter industry could be a part of that as 
well, these charter captains, to the extent some of them are 
still in business in some places, it has been tough, but they 
can be a big part of the puzzle as well.
    Maybe this exists already in some parts of the country, but 
the ability to go somewhere on line at a real time level and 
kind of identify what other people are reporting, and gives you 
an indication of what you should be trying to catch, what is in 
season you can catch, and even locations, which people guard 
very jealously. The location aspect is something that would be 
useful for the recreational fishermen, but would also have 
application potentially for our agencies that are trying to 
learn as much as they can.
    It is a very exciting and innovative way to kind of bring 
21st century technology to something people have been doing for 
a long time.
    My only other concern, and probably this is taken care of 
once you get into coverage, but in a lot of these places, you 
do not have great phone coverage when you are out there. I 
guess this is downloaded, I guess in your case, Mr. Fitzgerald, 
put on the app but ultimately feeds once you get access?
    Mr. Fitzgerald. That is right. If you are outside a cell 
phone range, the app is loaded into the phone, so it functions 
and runs, you just cannot synchronize it back to the database 
until you come back into signal. That works. It is an issue for 
the tournament app, but that is the way it works for that one 
as well.
    Senator Rubio. Thank you. Senator Booker?
    Senator Booker. Thank you very much, Mr. Chairman. Mr. 
Beal, we were sort of on this subject already, but I would love 
to throw this question out there and see if anything bites. 
That pun is about the best I will get today.
    Beginning in 2016, the Atlantic Coast states will begin 
conducting the access point angler intercept survey to collect 
information on marine recreational fishing catch and other data 
in their own waters. The survey, which is a component of the 
larger marine recreational information program, has been 
administered by NOAA Fisheries through a third party 
contractor.
    Over the past decade, several states have successfully 
proved their recreational catch and effort data quality and 
stakeholder confidence in this data, as we have been talking 
about. Based on the successes we are seeing, the states through 
the Atlantic States Commission, approved a plan to transition 
to states conducting the survey.
    The question, Mr. Beal, for you is what do you see as the 
advantages of this change, and if there are, what are the 
pitfalls of the change as well?
    Mr. Beal. Thank you. There are a lot of advantages. I think 
it is definitely the right direction to move. The Gulf states 
are conducting the access point angler intercept survey, and 
they have been doing that for a number of years. The Gulf 
states have shown the results have been great.
    Along the East Coast, Maine, New Hampshire, Massachusetts, 
as well as North Carolina, South Carolina, and Georgia, have 
been conducting their angler intercept surveys for a number of 
years. The rest of the states through this plan that you 
mentioned are following suit at the beginning of next year, 
2016.
    The biggest advantage is just the familiarity of the state 
personnel with their fisheries. They know where the fishermen 
are, they are familiar with the fishermen, they know the sites 
within the state that have active fishermen. They know when 
folks are coming back from trips. The other side of that is the 
fishermen are familiar with the state personnel.
    As you mentioned, there is a third party contractor doing a 
lot of the surveys now. The fishermen, it has been shown, they 
are much more comfortable commenting to someone with a New 
Jersey DEP logo on their shirt than they would be somebody with 
an RTI contracting agency. Nothing against that group. It is 
just removed from the state.
    The familiarity both ways is probably the biggest 
advantage, and then that familiarity sort of breeds comfort and 
confidence in that data. The third step will be as the survey 
comes on line within the states, the states will be able to 
work with NOAA Fisheries and the marine recreational 
information program, and tweak the survey to some degree to 
meet their state needs. They are not as able to do that through 
a third party contractor.
    I think just the sort of local nature of this data 
collection is going to improve things quite a bit. The pitfall 
or the potential pitfall might be that NOAA has indicated that 
they are more than willing to work with the states right now, 
remain flexible, and they want to hear the state ideas on how 
to improve the program, I think the only pitfall may be 
maintaining that flexibility and interaction with NOAA 
Fisheries.
    The other pitfall that the states are frankly worried about 
is funding. NOAA Fisheries has committed to a funding level to 
allow the states that conduct this survey to collect the same 
level of samples that they are able to complete in 2015.
    The fear is we should be fine for 2016, but in future 
years, if that funding decreases or degrades over time, will 
the sample size degrade over time, or also if that funding is 
held constant over time, the price of doing business increases 
and the per sample price goes up over time, as all things do, 
is the level of survey and level of interaction the states are 
going to be able to have with the fishermen, is that going to 
decrease as well.
    I think overall there are a lot more positives than 
negatives to this approach. I think it is the way to go, we 
just need to keep an eye on things in the future, and as the 
survey evolves, I think the states will see better results from 
them.
    Senator Booker. Thank you. That is very helpful. In the one 
minute I have remaining, I just want to get back to this 
problem I have begun to appreciate over this last year, and 
have begun to read more about, which is the problem of bycatch. 
You guys heard me talking about this in the opening remarks 
that I had.
    I am wondering if any of you can speak to how self 
reporting and the ability to have instant access to fishery 
data bases can help expand our understanding of this problem 
and help reduce the bycatch levels.
    Mr. Fitzgerald. I will say that one of the biologists in 
the last round of upgrades we did, that was a tournament app, 
that was going to provide them now species specific, very 
exact, precise location and size of fish that were targeted in 
these tournaments and caught, and she was extremely excited to 
find out--it was worded a little bit differently because it is 
not bycatch in that sense, but it was competing predators in 
the area, and then what other prey species, some fish that are 
both prey species and are caught by recreational anglers.
    It is going to help give them an idea of what geospatial 
areas they are sharing and what habitats they are sharing in 
relation to their interaction with anglers. Like I said, it is 
worded a little bit differently but it is coming to the same 
solution, the same answers, of what fish and what predators and 
what prey species are occupying the same place at the same 
time.
    Dr. Murawski. Thank you for the question. My personal 
experience is that self reported bycatch information is 
virtually worthless, and particularly----
    Senator Booker. Do not mince words, tell me exactly how you 
feel.
    [Laughter.]
    Dr. Murawski.--particularly in a regulatory context. I 
think as Dr. Sullivan indicated, there are, however, 
technologies like video cameras and other things, particularly 
when the fish come over the side one at a time, that can be 
quite good in terms of verification, and a number of 
experiments have been conducted and actually completed. Those 
seem to be cost-effective. They rely on processing that video 
after the fact, but that is much more efficient and much more 
cost effective than it is sending an observer with one 
fisherman, for example. It is not very cost effective.
    In that regard, there is a lot of hope that we can get 
better reporting through these advanced technology methods.
    Senator Booker. Mr. Beal?
    Mr. Beal. I will go very quick. There are a number of 
active bycatch avoidance programs in the Northeast. ASMFC is 
actively trying to rebuild river herrings in a number of river 
systems up and down the East Coast. Unfortunately, there is 
some level of bycatch in small mess fisheries in New England.
    There is an active monitoring program where if a fisherman 
is out catching sea herring and he happens to catch some river 
herring, he reports that, the rest of the fleet is notified of 
that bycatch event. They avoid those areas in the future.
    I think those types of models and quick turn around on 
reporting and characterization of catch is going to help a lot 
in avoiding some of these species that are characterized as 
``chock species,'' species that are limiting other fisheries, 
in the future. I think there is a lot of potential there as 
well.
    Senator Booker. Mr. Chairman, thank you very much. Thanks 
for this first chance to lead a hearing together, I appreciate 
it.
    Senator Rubio. Thank you. I want to thank all of you for 
being here, thank you for being part of this panel. My hope is 
that today's discussion is going to move the ball forward on 
building a dialogue between all the parties on fishery 
management.
    We must find a way to continue the tradition of those whose 
livelihoods are dependent on the water and those who enjoy 
these natural treasures. As I said, for millions of people 
around the country, some people do it for a living, for some, 
it is a way of life, it literally is why they work, other than 
feeding their families, the ability to go out and enjoy the 
lifestyle.
    I know people who move to certain areas simply to have 
access to it. I personally know people who live in South 
Florida despite high real estate prices and traffic because 
they want to be 30 minutes away from being able to go out.
    This matters to a lot of people and certainly has a tourist 
impact as well in many communities, and beyond that, there are 
commercial fishermen who make their living off this.
    We are establishing data that in essence is limiting 
people's ability to go out and do this. We have an obligation 
to make sure it is as up to date as possible.
    I am excited that as we move forward technology is allowing 
recreational fishermen and potentially commercial ones as well 
to contribute toward a better understanding of our stock 
assessments.
    The hearing record is going to remain open for about two 
weeks, and during this time senators are going to be asked to 
submit any questions they might have for the record, so what I 
would ask of the witnesses is if you do receive questions, that 
you would submit those answers as soon as possible in order for 
the record to be available for us as we move forward.
    With that, I want to thank you all for being here, and the 
hearing is adjourned.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Marco Rubio to 
                        Dr. Kathryn D. Sullivan
    Question 1. As I've discussed many times in this Committee, my 
region of the country has historically received far less than its fair 
share of funding for fisheries data collection, particularly on 
recreational fisheries. Given the hundreds of thousands of fisheries-
related jobs in the Gulf and South Atlantic, how does this budget 
reflect the tremendous need for improved fisheries data collection in 
Florida and the rest of the southeast in particular?
    Answer. The sustainability of our fish stocks depends on continual 
monitoring of fish catch and abundance, which is a data-intensive and 
costly endeavor. Providing adequate scientific data collection under a 
limited budget is an area where our Fisheries Science Centers excel. 
Funding increases over the past years have improved our stock 
assessment enterprise. NOAA Fisheries' budget funds fishery-dependent 
and fishery-independent data collection, as well as ecosystem data 
collection, among other scientific research meant to inform management. 
As described in the hearing, data collection includes research cruises, 
fisheries observer data, commercial and landings data collection, as 
well as recreational fisheries surveys and sampling.
    NOAA Fisheries' Fisheries Research and Management funding, 
including data collection, surveys, and assessments are distributed to 
the six Fisheries Science Centers and the Office of Science and 
Technology. Generally, the Southeast Fisheries Science Center receives 
higher levels of funding than the other regions in recognition that 
this Center covers a large area and supports three Fishery Management 
Councils (South-Atlantic, Gulf of Mexico, and Caribbean). Please note 
the table is not representative of all scientific funding or all of the 
funds that the Science Centers receive, but shows an approximate 
comparison of the Southeast Center to other Centers for base fisheries 
science and stock assessment related funding.

  Fisheries Research and Management Sub-activity PFY 2015 Base Funding
                         Plan by Science Center
------------------------------------------------------------------------
                 Science Center                        Amount ($M)
------------------------------------------------------------------------
Northeast                                                          $27.4
------------------------------------------------------------------------
8Southeast                                                        $30.80
------------------------------------------------------------------------
Northwest                                                          $22.5
------------------------------------------------------------------------
Southwest                                                          $19.4
------------------------------------------------------------------------
Alaska                                                             $36.3
------------------------------------------------------------------------
Pacific Islands                                                    $13.0
------------------------------------------------------------------------

    Specific to recreational fishing surveys, NOAA Fisheries is 
spending $21 million in FY 2015, including $12 million for base survey 
funding and $9 million for the Marine Recreational Information Program 
(MRIP). Of the total $21 million, $8.6 million is being spent on 
conducting surveys in the Gulf of Mexico and South Atlantic regions. 
The majority of these funds are passed to the Gulf and South Atlantic 
states through grants and the Fisheries Information Networks. In 
addition, MRIP has provided $724,000 to fund several projects and 
initiatives in the South Atlantic and Gulf region in FY 2015 meant to 
improve recreational data collection, including $20,000 towards Florida 
red snapper survey design support. NMFS recognizes the important 
recreational fishing industry in the Southeast, and will continue to 
prioritize the region in its efforts to expand data collection for 
data-poor and recreational stocks.
    Over the past decade, NOAA Fisheries has made improvements and 
investments in improving its fishery-independent sampling programs in 
the Southeast. The information collected by these programs will become 
more valuable over time, because the surveys will track fluctuations in 
stock abundance, allowing an improved understanding of stock status and 
sustainable harvest levels, thereby improving the scientific 
information being provided to managers. Recent innovations in data 
collection in the Southeast region include pilot studies in electronic 
reporting, improvements in methods for sampling un-trawlable habitats, 
as well as the use of passive acoustics to locate spawning aggregations 
of reef fish. These advancements should improve our data collection and 
surveys of important recreational reef fish, such as red snapper.

    Question 2. As you know, the right whale, which inhabit the 
Atlantic Ocean, have been under protection since 1935. The protection 
of this species falls under NOAA. Could you please provide this 
Committee an accounting for the most recent Fiscal Year for the monies 
spent on right whale protection and recovery, including any external 
monies? Please describe the budget and spending planning process as it 
relates to right whale monies, and specifically, the extent to which 
input is sought from the external research community.
    Answer. NOAA Fisheries spent $8.3 million in FY 2014 and will spend 
$8.4 million in FY 2015 on right whale recovery. Of these totals, 
approximately $6.8 million in FY 2014 and $6.9 million in FY 2015 was 
used to reduce ship strikes; reduce right whale entanglement in fishing 
gear; monitor and assess populations through activities such as 
aircraft and vessel surveys, passive acoustic detections and analysis; 
and maintain the sightings database and photo-identification catalog. 
The remaining funds ($1.5 million in FY 2014 and $1.5 million in FY 
2015) were awarded to the states through cooperative grants for 
additional aerial surveys, habitat research, entanglement reduction 
efforts, disentanglement, recovery implementation, and enforcement 
(e.g., Joint Enforcement Agreements).
    NOAA Fisheries is responsible for the conservation and management 
of a number of species, including the western North Atlantic right 
whale, which is protected under the Marine Mammal Protection Act (MMPA) 
and Endangered Species Act (ESA). In support of NOAA Fisheries' right 
whale conservation and recovery efforts, a portion of its annual right 
whale spending is devoted to ongoing assessment and monitoring of the 
depleted population, including various vessel-and aircraft-based 
studies to monitor abundance, trends in abundance, demographics (e.g., 
number of calves born each year), and whale occurrence and 
distribution. Annual funding is provided for ongoing work to recover 
and analyze (e.g., to determine cause of death) dead and stranded whale 
carcasses; disentangle whales from commercial fishing gear; provide 
contracts for survey observers; and salaries to administer these 
programs. Cutting edge work, in collaboration with scientists external 
to NOAA Fisheries, using underwater listening devices to detect right 
whale vocalizations is also a major component of NOAA Fisheries' 
efforts to quantify right whale occurrence and distribution and changes 
in distribution. Annual inter-agency funding is also provided for 
various programs to reduce human threats to right whales (e.g., 
Mandatory Ship Reporting systems).
    NOAA Fisheries biologists work closely with a number of researchers 
in Federal and state agencies, academic institutions and non-profit 
organizations. On an annual basis, a substantial portion of right whale 
funds go directly to state agencies that operate various right whale 
conservation programs; researchers in these agencies provide advice to 
NOAA Fisheries on the development, funding, and implementation of these 
programs. NOAA Fisheries also provides the annual base funding to non-
profit and academic researchers conducting studies or curating data 
(e.g., the photo-identification catalog and sightings database) that 
are the foundation for ongoing right whale conservation programs. NOAA 
Fisheries scientists collaborate with academic and non-profit 
researchers in securing external funding to develop new technology 
(underwater gliders, unmanned aerial systems) which are being 
incorporated into data collection. These collaborations help inform 
planning decisions.
    As required by section 117(d) of the MMPA(16 U.S.C. Sec. 1386(d)), 
NOAA Fisheries hosts a number Scientific Review Groups (http://
www.nmfs.noaa.gov/pr/sars/group.htm), including a Group constituted for 
U.S. east coast and Gulf of Mexico marine mammal stocks (which includes 
the North Atlantic right whale). These Groups consist of individuals 
with ``expertise in marine mammal biology and ecology, population 
dynamics and modeling, commercial fishing technology and practices, and 
stocks'', and are expected to advise NOAA Fisheries on matters 
regarding:

  <bullet> Population estimates and the population status and trends of 
        marine mammal stocks;

  <bullet> Uncertainties and research needed regarding stock 
        separation, abundance, or trends, and factors affecting the 
        distribution, size, or productivity of the stock;

  <bullet> Uncertainties and research needed regarding the species, 
        number, ages, gender, and reproductive status of marine 
        mammals;

  <bullet> Research needed to identify modifications in fishing gear 
        and practices likely to reduce the incidental mortality and 
        serious injury of marine mammals in commercial fishing 
        operations; and

  <bullet> The actual, expected, or potential impacts of habitat 
        destruction, including marine pollution and natural 
        environmental change, on specific marine mammal species or 
        stocks, and for strategic stocks, appropriate conservation or 
        management measures to alleviate any such impacts.

    This input, in turn, helps shape funding decisions. A number of 
highly experienced researchers working on right whales are members of 
the east coast and Gulf of Mexico Scientific Review Group.
    To address existing research and management needs and priorities, 
it is important to periodically review these needs and priorities to 
further the efforts of NOAA Fisheries to effectively manage right 
whales and meet the mandates of the ESA and MMPA. NOAA Fisheries, in 
consultation with its Atlantic Large Whale Take Reduction Team, has 
identified research needs and priorities for right whales, as well as 
other ESA-listed species and non-listed marine mammals protected under 
the MMPA. Team members include representatives of Federal agencies, 
each coastal state which has fisheries which interact with the species 
or stock, appropriate Regional Fishery Management Councils, interstate 
fisheries commissions, academic and scientific organizations, 
environmental groups, and all commercial and recreational fisheries 
groups and gear types which incidentally take the species or stock.
    As a resource to our partners, including state agencies, fishery 
management organizations, non-profit organizations, scientists, 
academic institutions, and the fishing industry, NOAA Fisheries posts 
updated research needs and priorities that may assist our partners in 
the development of proposal ideas when funding opportunities arise. 
These priorities are updated annually and can be found at these links: 
Research Needs for Right Whale Biology; and Research Needs for 
Commercial Fishing Gear.
    Since 2002, NOAA Fisheries has funded seven workshops related to 
commercial fishing gear modifications to address commercial fishing 
interactions with right whale and other large whale species. One of 
these workshops, co-hosted in 2004 with the Marine Mammal Commission, 
included members of the right whale research community. Ideas and 
suggestions from these workshops resulted in numerous funding 
opportunities. Related to this, a workshop involving a number of 
members from the right whale research community will be convened in 
fall 2015 to develop models to integrate visual and passive acoustic 
whale detection methods.
    In addition, external researchers routinely provide input, for 
example:

  <bullet> By providing comments, including recommendations regarding 
        studies needed, during public comment periods on various 
        proposed rules and related Environmental Impact Statements. In 
        the last few years, this has included proposed rulemaking 
        involving the establishment of critical habitat for right 
        whales (80 FR 9313; February 20, 2015); and a number of 
        measures to reduce the threats of ship collisions with whales 
        (73 FR 60173; December 10, 2008) and entanglement in commercial 
        fishing gear (79 FR 36586; June 27, 2014).

  <bullet> Through the work of the North Atlantic Right Whale Recovery 
        Plan Southeast U.S. Implementation Team (SEIT). Members of the 
        SEIT are selected based on their ``professional expertise or 
        experience in the areas of conservation or biology of right 
        whales or threats to right whales which result in the 
        incidental mortality and serious injuries of right whales''; 
        including those actively engaged in right whale research.

    Question 3. What percentage of your budget that goes to stock 
assessments goes to cooperative research?
    Answer. The FY 2015 Enacted budget provided $12.0 million for 
Cooperative Research, including $2.6 million for Northeast Cooperative 
Research at the Northeast Fisheries Science Center, $2.9 million for 
Southeast Cooperative Research at the Southeast Fisheries Science 
Center, and $6.5 million for National Cooperative Research, which is 
divided among the Science Centers and also supports competitive grant 
proposals from the different regions.
    In the FY 2016 Budget request, $163.3 million is requested for the 
Fisheries Data Collections, Surveys and Assessments PPA, of which $12.1 
million or 7.4 percent of this PPA is specifically for Cooperative 
Research. In addition, NMFS provides support for other cooperative 
science activities beyond the Cooperative Research Program. For 
example, many Saltonstall-Kennedy grants fund cooperative research 
activities. NOAA scientists also frequently collaborate with 
universities, coastal states, fishermen, and the industry when 
collecting data or performing research cruises; however, the funding 
levels vary on a project by project basis.

    Question 4. In your testimony, you state the NOAA fishery survey 
vessels includes four new Dyson-class ships ``with state-of-the art 
technological capabilities.'' How many days at sea will these ships 
spend in the areas most needed--for example, the South Atlantic where 
we are still awaiting a red snapper stock assessment?
    Answer. Of the four Dyson-class ships, one works entirely in 
Alaskan waters, one covers the west coast, one covers the Atlantic 
coast north of Cape Hatteras and the fourth is dedicated to working the 
Gulf of Mexico and Atlantic coast south of Cape Hatteras. The draft 
sailing plan for FY16 has each of these ships averaging 217 days at sea 
in support of fisheries stock assessments and research. NOAA ships of 
other classes are scheduled to sail an additional 957 days at sea 
supporting fisheries stock assessments and research.
    NOAA's Southeast Fisheries Science Center based in Miami supports 
fisheries assessments in the Gulf of Mexico, the Atlantic coast south 
of Cape Hatteras and the U.S. Exclusive Economic Zones in the 
Caribbean. Of the total days at sea on NOAA ships devoted to fisheries 
stock assessments and research, 460 days, or 25 percent of the total 
are for the Southeast Center. Additional sampling at sea is provided 
aboard chartered vessels, and vessels owned by our academic and state 
partners. The exact mix of charter and NOAA ship time that supports 
each of the six fishery science centers depends on regional 
requirements and the partnerships and availability of suitable charter 
vessels in each region.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                        Dr. Kathryn D. Sullivan
    Question 1. Fishermen around the Gulf of Mexico are concerned that 
the Marine Recreational Information Program (MRIP) lacks timeliness and 
accuracy and is not designed to monitor short seasons, such as the Red 
Snapper season in the Gulf. For this reason, the State of Mississippi 
is implementing a mandatory recreational red snapper data collection 
program designed to count all of the red snapper that are landed in the 
State with a 1-2 day reporting lag in most instances. What are you 
doing to assure that the new information collected by Mississippi and 
other Gulf States is factored into your decision making process as soon 
as possible?
    Answer. Over the past year and a half, MRIP has supported and co-
organized, with Gulf FIN (Fisheries Information Network), three 
workshops to facilitate the development, design and testing of 
supplemental surveys that can be integrated into the general survey 
programs to improve the usefulness of red snapper and other reef fish 
catch estimates for state and Federal managers. This year, pilot 
surveys are being implemented in Florida (year 1), Alabama (with MRIP 
funding-year 2), Mississippi (year 2), and Texas (with MRIP funding-
year 1). Currently, NOAA Fisheries is not using data collected from 
these pilot surveys because the survey designs are preliminary, have 
not been peer reviewed or certified for use, and have not been 
benchmarked or calibrated against existing surveys used for setting 
catch limits. Once these necessary steps are taken NOAA Fisheries will 
seek independent peer review and certification of the successful 
supplemental survey designs and will work with the Gulf FIN partners to 
develop a means to integrate data collected by certified supplemental 
surveys with the general MRIP survey data for use in stock assessments 
and management decision-making.

    Question 2. Given that MRIP is not designed to monitor short 
seasons like the 10 day red snapper season in the Gulf of Mexico, is it 
worth developing a completely separate survey apart from the Marine 
Recreational Information Program (MRIP) for offshore pulse fisheries?
    Answer. First, it should be recognized that the 10 day season only 
applies to Federal waters of the Gulf of Mexico. Seasons in States' 
waters, which is where most red snapper are recreationally taken, are 
much longer (e.g., the 2015 season in Florida waters is 50+ days long, 
while the season in Texas waters is 365 days). Next, as noted above 
MRIP is working cooperatively with the Gulf States to develop, test, 
and review supplemental survey designs that can be integrated into the 
general MRIP survey program to provide more timely and precise 
estimates of short season reef fish fisheries. Once successfully 
piloted and independently peer reviewed, these supplemental survey 
designs can be certified by MRIP and would become eligible for NOAA 
Fisheries technical and funding assistance for implementation as part 
of the MRIP suite of certified survey designs.

    Question 3. As recreational anglers have come to better understand 
the data collection process and how it can affect fishery management, 
they are more interested than ever in providing specific information on 
their effort and harvest. How do you plan to take advantage of this 
increased interest in participation by this user group to provide for 
more accurate and timely data collection?
    Answer. Many anglers have expressed to us a desire to directly 
report their fishing activity in a diary or electronic reporting 
application. MRIP evaluated such ``opt-in ``surveys in a 2010 Workshop. 
A key conclusion of that workshop was that anglers who volunteer (self-
select) to submit catch information are not representative of the 
angling population generally. Therefore their catch data cannot simply 
be expanded to the entire angler population to generate accurate catch 
estimates--such an effort would result in biased estimates that cannot 
be used in management decision making.
    MRIP has continued to explore ways in which anglers can report 
catch data to the MRIP partners in ways that can provide usable, 
statistically valid data. For example, several of the supplemental red 
snapper survey pilot designs referred to in the first question are 
testing angler reporting designs and technologies such as iAngler and 
iSnapper. This is a promising area of survey research that we intend to 
continue to develop, and MRIP is currently supporting a study through 
Texas A&M to evaluate the use of these electronic tools.

    Question 4. The Gulf Council reduces the recreational red snapper 
catch limit by 20 percent because the catch data system does not 
provide timely data to accurately predict when that catch limit will be 
reached. If the recreational fishing community, the Gulf Council, and 
NOAA could develop a more timely and accurate recreational catch data 
system, would that allow the Council to increase the recreational 
season by up to 20 percent or even develop a better alternative than a 
single short derby season for anglers?
    Answer. The Gulf Council established the 20 percent buffer in 
response to a 2014 court ruling requiring the Council and NOAA 
Fisheries to take additional action to better constrain recreational 
catches to the catch limit which had been significantly exceeded for 
several years. The intent of this 20 percent buffer is to reduce the 
likelihood recreational fishermen will exceed their catch limit if we 
underestimate catch in a given year.
    Because each state sets it seasons of varying lengths, which are 
different from the season in Federal waters, it is extremely difficult 
to accurately predict the amount of catch that will occur in the 
fishery. As a result, more timely and accurate catch data alone would 
not likely support elimination of the buffer. Better coordination of 
state water regulations, on the other hand, is critical to reducing the 
current management uncertainty which led to the court case and the 
buffer.
    The current catch data system does not limit the Council's ability 
to develop a better alternative to the short season in Federal waters. 
For example, the Council is currently considering providing the states 
greater flexibility to tailor recreational red snapper management to 
local needs and objectives while meeting Gulf-wide conservation goals 
through a regional management strategy. NOAA Fisheries continues to 
assist the Council, states and stakeholders as they explore these and 
other alternatives to the status quo.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                              Robert Beal
    Question. In your testimony you state ``many agencies are still 
using a mixture of conventional (paper) reporting and electronic 
reporting, significantly limiting the ability to provide accurate, 
real-time data for management purposes since paper reports can take 
several months or longer to receive and process.'' What do you think it 
will take to modernize the various agencies to move to an all-
electronic system?
    Answer. Commercial Reporting
    On the East Coast, the Atlantic Coastal Cooperative Statistics 
Program (ACCSP) has played a lead role in enabling the states and 
Federal Government to implement electronic reporting via its Standard 
Atlantic Fisheries Information System (SAFIS). In 2004, NOAA Fisheries' 
Greater Atlantic Regional Fisheries Office mandated electronic dealer 
reporting through SAFIS. With funding from NOAA Fisheries, ACCSP 
developed technology to allow many resource strapped state agencies to 
leverage this work and integrate their own data collection into SAFIS. 
Since then, we have seen a marked increase in electronic reporting at 
the Federal and state level throughout the Atlantic.
    All state agencies from Maine to South Carolina (with the exception 
of North Carolina) are currently using SAFIS in one way or another. 
North Carolina uses a different comprehensive electronic reporting 
system. Federally-permitted dealers in the Greater Atlantic and 
Southeast Regions are required to report electronically through SAFIS. 
Electronic commercial trip reporting is accomplished through SAFIS's 
eTRIPS, a web-based application that compiles catch and effort data 
from commercial fishermen. This application is now employed by 
Massachusetts, Rhode Island, Connecticut, New York, and New Jersey. 
Commercial vessel reporting in the Greater Atlantic Region is available 
but not required. In the Southeast Region, electronic reporting has 
been piloted but has not been implemented. Reporting requirements for 
federally-licensed commercial harvesters and dealers, as well as 
charter and headboat operators, are set by NOAA Fisheries in 
coordination with the fishery management councils and regional offices.
Recreational Reporting
    State and Federal recreational data collection is conducted through 
NOAA Fisheries' Marine Recreational Information Program (MRIP) with 
assistance from the states. Much of the discussion at the May 20 
hearing focused on voluntary electronic reporting through mobile 
applications. This type of reporting is a useful supplement to MRIP 
data, but should not replace it because the data are not representative 
of all recreational catch and therefore not suited to estimate total 
harvest. I would note ACCSP has developed Voluntary Recreational 
Logbooks (eLogbook), which is used by Massachusetts, Rhode Island, New 
York, Connecticut, and Delaware.
Recommendations
    The Commission and its member states share the Committee's desire 
to move toward universal implementation of electronic reporting for 
commercial fisheries on the Atlantic coast. And while tremendous 
strides have been made over the past ten years, much is left to 
accomplish, not the least of which is the states' ability to secure 
resources to complete the transition. This includes updating 
technologies and extensive training to the commercial fishing industry.
Commercial Reporting
    NOAA is now examining its electronic reporting policy for all 
marine fisheries under its jurisdiction. In policy guidance published 
May 2013, NOAA announced it will work with stakeholders to develop a 
new policy on the use of electronic technology for fishery-dependent 
data collection. The Atlantic States Marine Fisheries Commission 
(ASMFC) supports this approach.
    Building electronic reporting technology and implementing the 
corresponding policies is a complicated, regionally unique process. 
Often, states lack the resources and authority to accomplish a 
coastwide solution on their own, and are much more likely to adopt them 
if they are successful at the Federal level. A concerted effort to 
adopt mandatory electronic reporting requirements in Federal fisheries 
will make the methods and resources available to state agencies to use 
as well. We urge NOAA Fisheries to devote the resources needed and to 
continue to work closely with ASMFC and ACCSP to develop solutions that 
work at the state and Federal level.
Recreational Reporting
    MRIP is implementing a new mail-based methodology to collect 
recreational effort data, transitioning away from landline phone 
survey. We believe the mail-based survey is the best and most logical 
way to move forward. Recently completed pilot studies indicate mail 
surveys are a much better tool for capturing recreational fishing 
effort by increasing response rates, reaching a broader population of 
anglers, and improving response accuracy.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            Brett Fitzgerald
    Question 1. It is evident your program has a lot of potential to 
provide recreational harvest data and it is clear from your testimony 
that anglers are excited about the ability to play a part in fishery 
data. Specifically, you note ``the cultural shift that recreational 
anglers need [to] embrace to become part of the answer in ensuring 
fisheries are well managed an abundant.'' Do you think a program like 
yours can be successfully incorporated into management? What has been 
NOAA's response to your program?
    Answer. The very short answer is yes, and Florida, the Fishing 
Capital of the World, has proven the concept can and does work within 
their fishery management system. But in truth, the answer is slightly 
more complicated, starting with your reference to the necessary 
``cultural shift.''
    Over the past few years, the Snook & Gamefish Foundation (SGF) has 
explored different ways to engage anglers--educating them about the 
importance of participating in a voluntary data collection system that 
is guided by state (and hopefully soon federal) fishery managers, but 
owned and operated by fishermen.
    Without any direct support from the state of Florida or any other 
agency, SGF took to speaking at fishing clubs, stores seminars in West 
Marine, and any other venue with anglers who might listen. We sent 
original stories out to our members and newsletter subscribers. And we 
spoke directly to anglers at a captain's meetings in select fishing 
tournaments.
    What we found was that regions in Florida where we were able to 
directly engage anglers now produce enough angler data to be 
statistically significant when comparing the most targeted species of 
Angler Action Program (AAP) users to NOAA data. In other words, when 
anglers were made aware of what the data could do (as well as the 
powerful personal log book it is for the individual angler), we were 
able to recruit enough anglers to provide significant data.
    SGF has used the recent status of largemouth bass in the United 
States as a positive example. Only four decades ago, popular fishing 
culture dictated that most ``keeper'' bass ended up on a stringer and 
in the fryer at home. Today, the opposite is true--largemouth bass are 
almost exclusively a catch and release fishery. This is an example of a 
complete reversal of angler attitude. (In fact, the AAP database 
started collecting fresh water data in 2012. That year, only two bass 
were logged in the AAP as ``harvested.'' Over 99 percent were 
released.)
    So the first qualifier -angler buy in, or the culture shift-has 
been proven to be attainable. With direct support from state agencies, 
NOAA, and the fishing industry, SGF is extremely confident that we can 
exponentially increase our awareness campaign, and expand the effective 
geographic range of angler participation.
    As stated, angler data not only can be incorporated into fishery 
management models, it already has. In Florida, AAP data has been used 
in the last two Snook stock assessments. Florida's Fish and Wildlife 
Research Institute (FWRI) has two stock assessments in progress that 
are using AAP data again--another Snook assessment, and the 2015 red 
drum assessment. Further, FWC has gone on record stating that the AAP 
and iAngler mobile application systems as a significant source of data 
for the management of species that do not have formal stock assessments 
(specifically barracuda, which has become a species of concern among 
Florida anglers).
    To move forward and progress beyond Florida's management, the AAP 
requires more angler participation as well as continued `buy in' and 
support from state and Federal agencies.
    These two requirements have a significant effect on each other. 
Anglers need to feel that the data is being used, or they won't 
continue to participate. Conversely, without sufficient angler 
participation the data does not carry enough statistical weight to be 
useful.
    One important point needs to be made. In your above statement, you 
mention recreational ``harvest data.'' It is vital that anglers, 
managers, and policy makers understand that at this time, the most 
powerful data from the AAP project has been the RELEASE (discard) 
data--the ones we let go. The size distribution, frequency, condition 
of the fish upon release, and general location of the discards is data 
that is sorely missing in the current management models, and right now 
the AAP is the only proven method of obtaining that data from 
recreational anglers. And the AAP has potential to collect that data in 
high volumes, with a high degree of accuracy.

    Question 1a. What has been NOAA's response to the program?
    Answer. Fishery management, as we all now know, is far more complex 
than most citizens could possibly guess. When SGF started the AAP 
project, NOAA was not clearly in our sights as a potential data 
`client.' Our goal was to collect data on snook for the State of 
Florida.
    Once we achieved a measure of success, we did approach NOAA about 
partnering and providing AAP data. Admittedly, we at SGF did not know 
as much about Federal fishery management at that time as we do now. 
There also was absolutely no precedent for successful partnerships at 
this level. Understandably, NOAA's overall response was quite tempered.
    SGF's counter response was to continue working with the state of 
Florida, establish a history of functional partnerships in the area of 
data collection, and come back around to NOAA once we have established 
success at home.
    The timing of your hearing and this questioning couldn't be better. 
That NOAA has had a tepid response to SGF's AAP in the past is 
acceptable--we might not have been ready for them either. But now we 
are--we've proven that we are willing to work with fishery scientists. 
We are willing and capable of managing the database, as well as being 
the face of recreational angler participation in fishery management. 
We've established that we are not attempting to `take over' fishery 
management, just support and supplement current models and/or 
contribute to making adjustments where improvement can be made. 
Finally, we've developed a highly effective fishing tournament 
management system that steers anglers into logging data, a key step 
towards establishing the cultural shift we seek.
    The Angler Action Program works in Florida because FWRI actively 
participated in a partnership with SGF and found ways to make it work. 
The result is a partnership that allows recreational anglers to feel as 
though they are a part of a more accurate management plan.
    SGF strongly feels that it is time anglers and managers find a 
similar functional relationship at the Federal level, which will 
require NOAA to actively work with recreational anglers through a 
program such as the AAP.

                                  [all]

                  
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
